App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-40116
-----------------------------------------------------------------------

STATE OF TEXAS,
Plaintiff–Appellee,
versus
ALABAMA-COUSHATTA TRIBE OF TEXAS,
Defendant–Appellant.
----------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Texas.
----------------------------------------------------------------------------------------------------

(Filed Mar. 14, 2019)
Before SMITH, DUNCAN, and ENGELHARDT, Circuit Judges.
JERRY E. SMITH, Circuit Judge:
For almost thirty years, the State of Texas and one
of its Indian tribes, the Alabama-Coushatta Tribe (the
“Tribe”), have disputed the impact of two federal statutes on the Tribe’s ability to conduct gaming on the
Tribe’s reservation. The ﬁrst statute, the Ysleta del
Sur Pueblo and Alabama and Coushatta Indian Tribes
of Texas Restoration Act1 (the “Restoration Act”),
1

Pub. L. No. 100-89, §§ 201–07, 101 Stat. 666 (Aug. 18,
1987). The U.S. Code was updated while this case was pending

App. 2
restored the Tribe’s status as a federally-recognized
tribe and limited its gaming operations according to
state law. The second, the Indian Gaming Regulatory
Act (“IGRA”), 25 U.S.C. §§ 2701–2721, broadly “establish[ed] * * * Federal standards for gaming on Indian
lands.” Id. § 2702(3).
Soon after IGRA was enacted, this court determined that the Restoration Act and IGRA conﬂict and
that the Restoration Act governs the Tribe’s gaming activities. See Ysleta del sur Pueblo v. Texas (“Ysleta I”),
36 F.3d 1325, 1335 (5th Cir. 1994). Several years later,
when the Tribe was conducting gaming operations in
violation of Texas law, the district court permanently
enjoined that activity as a violation of the Restoration
Act.
The Supreme Court then decided National Cable
& Telecommunications Ass’n v. Brand X Internet Services, 545 U.S. 967 (2005), and City of Arlington v. FCC,
569 U.S. 290 (2013). And the National Indian Gaming
Commission (“NIGC”), which administers IGRA, held,
contrary to Ysleta I, that IGRA governs the Tribe’s
gaming activity. Citing those changes in the law, the
Tribe asked the district court to dissolve the permanent injunction. The district court refused, the Tribe
appeals, and we afﬁrm.

in district court and now omits the Restoration Act, which was
previously codiﬁed at 25 U.S.C. § 731 et seq. Though no longer
codiﬁed, the Restoration Act is still in effect.

App. 3
I.
A.
In 1987, Congress passed the Restoration Act to
restore “the Federal recognition of ” both the Ysleta del
Sur Pueblo (the “Pueblo,” an Indian tribe in far west
Texas) and the Tribe. Pub. L. No. 100-89, §§ 103(a),
203(a), 101 Stat. at 667, 670.2 The Restoration Act’s
ﬁnal section regulates gaming on the Tribe’s reservation and lands. It provides that “[a]ll gaming activities
which are prohibited by the laws of the State of Texas
are hereby prohibited on the reservation and on the
lands of the tribe.” Id. § 207(a), 101 Stat. at 672.3 It
2

Though the Pueblo has extensively litigated the same questions the Tribe raises, the Pueblo is not a party to this appeal but
appears as amicus curiae.
3
That subsection concludes by explaining that the “provisions of this subsection are enacted in accordance with the tribe’s
request in Tribal Resolution No. T.C.-86-07.” Restoration Act
§ 207(a), 101 Stat. at 672. That resolution, in turn, was purportedly passed out of concern that the Restoration Act would not be
enacted “unless the bill was amended to provide for direct application of state laws governing gaming and bingo on the [Tribe’s]
Reservation.” The resolution “respectfully request[ed] [the
Tribe’s] representatives” in Congress amend the Restoration Act
to “provide that all gaming, gambling, lottery, or bingo, as deﬁned
by the laws and administrative regulations of the state of Texas,
shall be prohibited on the Tribe’s reservation or on Tribal land.”
The signiﬁcance of the Restoration Act’s reference to the
Tribe’s resolution is disputed. The state contends that the resolution represents a quid pro quo in which the Tribe agreed to foreswear gaming for all time in exchange for passage of the
Restoration Act. The Tribe examines the evolution of drafts of the
Restoration Act and emphasizes that strong prohibitory language
was ultimately deleted. In any event, the stringent prohibition
proposed by the resolution was not included.

App. 4
bars Texas from asserting regulatory control over otherwise legal gaming on the Tribe’s reservation and
lands. Id. § 207(b), 101 Stat. at 672. It also gives “the
courts of the United States * * * exclusive jurisdiction
over any offense in violation” of its gaming restriction
and limits Texas to “bringing an action in the courts of
the United States to enjoin violations of the provisions
of this section.” Id. § 207(c), 101 Stat. at 672.
Congress enacted IGRA the following year. Finding that “existing Federal law d[id] not provide clear
standards or regulations for the conduct of gaming on
Indian lands,” 25 U.S.C. § 2701(3), Congress established “Federal standards for gaming on Indian lands,
and * * * a National Indian Gaming Commission * * *
to protect such gaming as a means of generating tribal
revenue.” Id. § 2702(3). Though its stated purpose is
broad, IGRA does not speciﬁcally preempt the ﬁeld of
Indian gaming law.
IGRA deﬁnes three classes of gaming that federally recognized tribes may offer and regulates each differently. Tribes have “exclusive jurisdiction” over
“class I gaming,” which consists of “social games solely
for prizes of minimal value or traditional forms of
Indian gaming” associated with “tribal ceremonies or
celebrations.” Id. §§ 2703(6), 2710(a)(1). “Class II
gaming” includes “the game of chance commonly
known as bingo,” id. § 2703(7)(A)(i), and certain “card
games” either “explicitly authorized” or “not explicitly
prohibited” by state law. Id. § 2703(7)(A)(ii)(I)–(II).
Tribes have the authority to regulate class II gaming,
provided that a tribe issues a self-regulatory ordinance

App. 5
meeting statutory criteria and the NIGC approves that
ordinance. Id. § 2710(b)(1)–(2). “Class III gaming” includes all forms of gaming that are not in class I or II.
Class III gaming is lawful on Indian lands only if tribes
secure federal administrative and state approval. Id.
§ 2703(8); see id. § 2710(d). IGRA created the NIGC to
administer its provisions, instructing the NIGC to
“promulgate such regulations and guidelines as it
deems appropriate to implement the provisions of this
chapter.” Id. § 2706(b)(10).
B.
Notwithstanding the Restoration Act, Texas, the
Tribe, and the Pueblo have long disputed whether
IGRA applies to the Tribe and the Pueblo. Texas avers
that IGRA’s permissive gaming structure is inconsistent with Sections 107(a) and 207(a) of the Restoration Act, which prohibit gaming that violates Texas law
on the Pueblo’s and Tribe’s lands, respectively. The
Tribe maintains that IGRA permits it to conduct gaming operations according to IGRA’s three-class structure.
This court ﬁrst considered the relationship between the Restoration Act and IGRA in Ysleta I. Under IGRA, the Pueblo had tried to negotiate a compact
with Texas to permit class III gaming. Texas refused,
citing the Restoration Act and insisting that state law
prohibited the proposed games. The Pueblo sued to
compel Texas to negotiate, and the district court
granted summary judgment for the Pueblo.

App. 6
This court reversed, holding that “(1) the Restoration Act and IGRA establish different regulatory regimes with regard to gaming” and that “(2) the
Restoration Act prevails over IGRA when gaming activities proposed by the Ysleta del Sur Pueblo are at
issue.” Ysleta I, 36 F.3d at 1332. With respect to the
ﬁrst ruling, this court found it “signiﬁcant” that “the
Restoration Act establishes a procedure for enforcement of § 107(a) which is fundamentally at odds with
the concepts of IGRA.” Id. at 1334. Based on that ﬁnding, we had to determine “which statute [to] appl[y].”
Id. The Pueblo urged “that, to the extent that a conﬂict
between the two exists, IGRA impliedly repeals the
Restoration Act.” Id. at 1334–35. We rejected that theory, noting that implied repeals are disfavored and that
generally “a speciﬁc statute will not be controlled or
nulliﬁed by a general one.” Id. at 1335 (cleaned up).
And “[w]ith regard to gaming,” we continued, “the Restoration Act clearly is a speciﬁc statute, whereas IGRA
is a general one.” Id.4
This court thus concluded “that [the Restoration
Act]—and not IGRA—would govern the determination
of whether gaming activities proposed by the Ysleta
del Sur Pueblo are allowed under Texas law, which
functions as surrogate federal law.” Id. “If the [Pueblo]
wishe[d] to vitiate [the restrictive gaming provisions]
of the Restoration Act,” we declared, “it will have to petition Congress to amend or repeal the Restoration Act
4

“The former applies to two speciﬁcally named Indian tribes
located in one particular state, and the latter applies to all tribes
nationwide.” Ysleta I, 36 F.3d at 1335.

App. 7
rather than merely comply with the procedures of
IGRA.” Id.5
C.
The Tribe was not a party in Ysleta I, but, “particularly with regard to the sections concerning gaming,”
its Restoration Act is almost identical to the Pueblo’s.
Id. at 1329 n.3. We thus suggested in Ysleta I that the
Restoration Act—and not IGRA—would govern the legality of any gaming operations of the Tribe. Despite
the Restoration Act’s restrictions, the Tribe maintained a casino on its reservation after Ysleta I. And
in 2001, the Tribe sued Texas, seeking declaratory relief that its gaming was lawful under IGRA. See Alabama-Coushatta Tribes of Tex. v. Texas, 208 F. Supp. 2d
670, 672 (E.D. Tex. 2002). Texas counterclaimed, asking the district court permanently to enjoin the Tribe’s
gaming activities based on Section 207 of the Restoration Act. Id.
Relying on Ysleta I, the district court held that the
Restoration Act governed the legality of the Tribe’s
gaming activities. Id. at 677–78. And because those
activities violated Texas law, the court permanently
enjoined them in 2002. Id. at 681. This court afﬁrmed,
explaining that it was “bound by the determination [in
Ysleta I] that the Restoration Act precludes [the Tribe]
5

Though Ysleta I arose in the context of the Pueblo’s trying
to conduct IGRA class III gaming, Ysleta I does not suggest that
the conﬂict between the Restoration Act and IGRA is limited to
class III gaming.

App. 8
from conducting all gaming activities prohibited by
Texas law on tribal lands.” Alabama Coushatta Tribe
of Tex. v. Texas, No. 02-41030, 2003 WL 21017542, at *1
(5th Cir. Apr. 16, 2003) (per curiam) (unpublished).6
D.
The Tribe ceased all gaming for twelve years. But
in 2015, it started the process outlined by IGRA to secure NIGC’s approval to offer class II gaming. As IGRA
requires, see 25 U.S.C. § 2710, the Tribe adopted an ordinance authorizing class II bingo gaming—which
Texas law permits in several forms7—and submitted it
to NIGC’s Chairman for approval.8 The Tribe concedes
that by seeking that approval, the Tribe was requesting NIGC’s formal administrative determination of
whether, contrary to Ysleta I, the tribe fell within
IGRA’s ambit.
The Chairman approved the ordinance via letter,
explaining that “[n]othing in the IGRA’s language or
its legislative history indicates that the Tribe is

6

We further ruled that Ysleta I’s holding that “the tribe was
precluded from seeking relief under the IGRA” was binding, contrary to the Tribe’s assertion that it was dictum. Alabama Coushatta Tribe of Tex., 2003 WL 21017542, at *1. We explained that
the Ysleta I panel was required to decide that question “because
the Restoration Act placed greater limits on the tribe’s ability to
conduct gaming operations” than did IGRA. Id.
7
See, e.g., 16 Tex. Admin. Code §§ 402.100–.709.
8
See 29 U.S.C. § 2710(b)(1)(B).

App. 9
outside the scope of NIGC’s jurisdiction.”9 He then determined that the Tribe’s reservation—established
through the Restoration Act—counts as “Indian lands”
under IGRA. Those ﬁndings, the Chairman continued,
demonstrate that the Tribe’s “lands are eligible for
gaming under IGRA.” The Chairman thus concluded
that the Tribe’s ordinance was “consistent with the requirements of IGRA and NIGC regulations” and approved it.10
Despite initially observing that the Restoration
Act and IGRA potentially overlap,11 the Chairman did
not carefully consider whether the Restoration Act limited the jurisdictional reach of IGRA. He opined, instead, that “the Tribe possesses sufﬁcient legal
jurisdiction over its Restoration Act lands” for IGRA to
apply. In other words, the Chairman determined that
the Restoration Act does not constitute a “Federal law”
that is a “speciﬁc[ ] prohibit[ion]” on the Tribe’s proposed gaming. 25 U.S.C. § 2710(b)(1)(A).
With NIGC’s approval in hand, the Tribe began to
develop Naskila Entertainment Center (“Naskila”), a
class II gaming facility offering electronic bingo.
9

Letter from Jonodev O. Chaudhuri, Chairman, Nat’l Indian
Gaming Comm’n, to Nita Battise, Chairperson, AlabamaCoushatta Tribe of Tex. (Oct. 8, 2015).
10
Id. The Chairman noted that the Department of the Interior interpreted IGRA as impliedly repealing the Restoration Act,
but the Chairman did not adopt that conclusion.
11
See id. (noting that the Restoration Act “applies state gaming laws to the Tribe’s lands, with a qualiﬁcation,” thus raising
the question “how to interpret the interface between IGRA and
the Restoration Act”).

App. 10
Before it opened, the Tribe and Texas forged a prelitigation agreement specifying that the Tribe could operate Naskila pending a state inspection.
Texas
committed to “advise the Tribe * * * whether the gambling operation meets the requirements of Texas law
federalized in the Restoration Act” and reserved the
right to seek various forms of relief if it did not.
Upon inspection, the state determined that the
electronic bingo at Naskila violated various provisions
of Texas gaming law. Then the state revived the
decades-old case—in which the district court had permanently enjoined the Tribe’s gaming activities that
had violated the Restoration Act—by ﬁling a motion
for contempt, averring that the gaming at Naskila violated the 2002 injunction.12 Texas also sought a declaration “that IGRA does not apply to the Tribe because
IGRA did not repeal the Restoration Act, and, accordingly,” the Tribe “may not conduct Class II IGRA gaming on its lands.” The Tribe, in turn, moved for relief
from the 2002 injunction, contending that the
“[NIGC’s] authoritative interpretation” of the Restoration Act and IGRA “both constitutes a change in law
and eliminates the sole legal basis for the injunction.”
Texas moved for summary judgment on issues related to its motion for contempt, and the Tribe sought
partial summary judgment on whether its bingo
12

The Tribe was the plaintiff (as it had sought a declaratory
judgment that its gaming activities were lawful under IGRA), and
Texas was the defendant. When Texas reopened the case, the
court granted its motion to realign the parties, making Texas the
plaintiff.

App. 11
operations are class II gaming under IGRA. The district court granted Texas’s motion “with respect to the
State’s request for a declaration * * * that the Restoration Act, and consequently, Texas law, applies to the
Tribe’s gaming activities.” The court refused to extend
Chevron deference13 to the NIGC’s letter concluding
that IGRA applied, and it denied the Tribe’s motion for
relief from the permanent injunction.
The Tribe appeals, asking us to decide whether the
district court abused its discretion by refusing to defer
to the NIGC’s determination that IGRA applies to the
Tribe’s gaming. The district court stayed its ruling
pending appeal.14
II.
District courts may “relieve a party * * * from a ﬁnal judgment, order, or proceeding” if “applying it prospectively is no longer equitable.” FED. R. CIV. P. 60(b),
60(b)(5). Where, as here, “the relief sought is dissolution or modiﬁcation of an injunction, the district court
may grant a Rule 60(b)(5) motion when the party seeking relief can show a signiﬁcant change in statutory or
decisional law.” Cooper v. Tex. Alcoholic Beverage
Comm’n, 820 F.3d 730, 741 (5th Cir. 2016) (cleaned up).
The “signiﬁcant change” in this case, according to the
13

See Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc.,
567 U.S. 837 (1984).
14
We have jurisdiction under 28 U.S.C. § 1292(a)(1), which
allows for immediate appeal of interlocutory orders “refusing to
dissolve or modify injunctions.”

App. 12
Tribe, is the NIGC’s determination that the Tribe’s
lands are eligible for gaming under IGRA, combined
with Brand X and City of Arlington.
We review for abuse of discretion the denial of a
Rule 60(b)(5) motion for relief from judgment. Moore
v. Tangipahoa Par. Sch. Bd., 864 F.3d 401, 405 (5th Cir.
2017). “A district court abuses its discretion if it:
(1) relies on clearly erroneous factual ﬁndings; (2) relies on erroneous conclusions of law; or (3) misapplies
the law to the facts.” In re Volkswagen of Am., Inc., 545
F.3d 304, 310 (5th Cir. 2008) (en banc) (citation omitted). “It is not enough that granting the motion may
have been permissible; instead, denial of relief must
have been so unwarranted as to constitute an abuse of
discretion.” Moore, 864 F.3d at 405 (internal quotation
marks and citation omitted). While review is highly
deferential, “we review de novo any questions of law
underlying the district court’s decision.” Frew v. Janek,
780 F.3d 320, 326 (5th Cir. 2015) (internal quotation
marks and citation omitted).
III.
This case turns on whether a judicial precedent—
holding that the Restoration Act and IGRA conﬂict and
that the former, not the latter, applies to the Tribe’s
gaming activity—or a later contrary agency interpretation should control. Brand X supplied the framework: “A court’s prior judicial construction of a statute
trumps an agency construction otherwise entitled to
Chevron deference only if the prior court decision holds

App. 13
that its construction follows from the unambiguous
terms of the statute and thus leaves no room for agency
discretion.” Brand X, 545 U.S. at 982 (emphasis
added). We must thus decide whether Ysleta I is “a judicial precedent holding that the statute unambiguously forecloses the agency’s interpretation.” Id. at
982–83.
A.
Brand X ’s rule that only a prior judicial interpretation adhering to the unambiguous terms of the statute trumps an agency construction “follows from
Chevron itself.” Id. at 982. “Chevron’s premise is that
it is for agencies, not courts, to ﬁll statutory gaps.” Id.
(citation omitted). So to be faithful to that principle,
“judicial interpretations contained in precedents” must
be held “to the same demanding Chevron step one
standard that applies if the court is reviewing the
agency’s construction on a blank slate.” Id. That
means that a judicial interpretation should prevail
over a later conﬂicting agency interpretation if the
“court, employing traditional tools of statutory construction, ascertain[ed] that Congress had an intention on the precise question at issue.” Chevron, 467
U.S. at 843 n.9.15

15

Brand X, 545 U.S. at 985, offers the rule of lenity as an
example of a “rule of construction” that a court might have applied
which “requir[ed] it to conclude that the statute was unambiguous to reach its judgment.”

App. 14
Consequently, a prior judicial decision need not
“say in so many magic words that its holding is the
only permissible interpretation of the statute in order
for that holding to be binding on an agency.” Exelon
Wind 1, L.L.C. v. Nelson, 766 F.3d 380, 398 (5th Cir.
2014) (quoting Fernandez v. Keisler, 502 F.3d 337, 347
(4th Cir. 2007)).16 To the contrary, where “the exercise
of statutory interpretation makes clear the court’s
view that the plain language of the statute was controlling and that there existed no room for contrary
agency interpretation,” the court’s interpretation
should prevail. Id. (quoting Fernandez, 502 F.3d at
347–48).17
Instead of requiring the prior decision to have
called the relevant statute “unambiguous,” reviewing
courts have looked for the contrary—whether the decision called the statute “ambiguous.” For example, this
court recently held that an agency’s interpretation
could prevail over a prior judicial interpretation because the latter had “expressly recognized that the
court decided to come down on one side of a complex
16

See also Silva-Trevino v. Holder, 742 F.3d 197, 201–03
(5th Cir. 2014) (upholding a prior judicial interpretation in the
face of a conﬂicting agency interpretation even though the prior
decision did not say that the statute was “unambiguous” because
the ﬁrst court was “conﬁdent” that “Congress ha[d] spoken directly to the statutory question at hand” based on the text of the
statute and Congress’s use of the language in other statutes).
17
See also Council for Urological Interests v. Burwell, 790
F.3d 212, 221 (D.C. Cir. 2015) (citation omitted) (“[A] statute may
foreclose an agency’s preferred interpretation despite such textual ambiguities if its structure, legislative history, or purpose
makes clear what its text leaves opaque.”).

App. 15
debate.”18 And where other circuits have deferred to an
agency’s interpretation under Brand X, those courts
have “emphasize[d] that their prior decisions also
noted ambiguity in the text at issue.” See Exelon Wind
1, 766 F.3d at 398 (collecting citations).19
B.
Ysleta I did not ﬁnd “ambiguity in the text at issue.” Id. Instead, after applying canons of construction and legislative history to § 107(a) and (c) of the
Pueblo’s Restoration Act—which corresponds to
§ 207(a) and (c) in the Tribe’s—this court concluded
that “the Restoration Act and IGRA establish * * * fundamentally different regimes.” Ysleta I, 36 F.3d at
1334. Indeed, this court was left with “the unmistakable conclusion that Congress—and the Tribe—intended for Texas’ gaming laws and regulations to
operate as surrogate federal law on the Tribe’s reservation in Texas.” Id. In other words, this court summarized, “(1) the Restoration Act and IGRA establish
18

Acosta v. Hensel Phelps Constr. Co., 909 F.3d 723, 738 (5th
Cir. 2018) (internal quotation marks omitted) (quoting Melerine
v. Avondale Shipyards, Inc., 659 F.2d 706, 710 (5th Cir. Unit A
Oct. 1981) (discussing the “complex dispute” among courts)).
19
A plurality of the Supreme Court has likewise held that,
under Brand X, a court need not have said that the statute it was
interpreting was “unambiguous.” Instead, “[i]f a court, employing
traditional tools of statutory construction, ascertains that Congress had an intention on the precise question at issue, that intention is the law and must be given effect.” United States v.
Home Concrete & Supply, LLC, 566 U.S. 478, 488 (2012) (plurality opinion) (quoting Chevron, 467 U.S. at 843 n.9).

App. 16
different regulatory regimes with regard to gaming,
[and] (2) the Restoration Act prevails over IGRA when
gaming activities proposed by [the Pueblo or Tribe] are
at issue.” Id. at 1332.
Additionally, we cited evidence that Congress did
not intend for IGRA to apply to all Indian gaming.20
Moreover, we speciﬁcally rejected the theory that “to
the extent that a conﬂict between the two exists, IGRA
impliedly repeals the Restoration Act.” Ysleta I, 36
F.3d at 1335. Repudiating that interpretation, we cited
(1) the presumption against implied repeals and (2) the
canon that a speciﬁc statute controls over a general
statute. Id. With respect to the second, we noted that
the Restoration Act was “clearly” the speciﬁc statute,
“whereas IGRA is a general one.” Id.
The Tribe counters that, for two reasons, Ysleta I
does not foreclose the NIGC’s determination that
IGRA applies to the Tribe. First, the Tribe emphasizes
that Ysleta I’s holding “was based on non-textual cues
from legislative history and canons of construction”
and thus could not have “follow[ed] from the unambiguous terms of the statute.” Brand X, 545 U.S. at 982.
That reasoning disregards the fact that the Brand X
inquiry stems from Chevron step one and requires the
reviewing court to apply “traditional tools of statutory
interpretation”—like the canons and legislative
20

See Ysleta I, 36 F.3d at 1335 (citing later enactments expressly excluding certain tribes from IGRA’s coverage as evidence
of “a clear intention on Congress’ part that IGRA is not to be the
one and only statute addressing the subject of gaming on Indian
lands”).

App. 17
history—to determine whether Congress has spoken to
the precise issue. See Chevron, 467 U.S. at 843 n.9.
And when “the canons supply an answer, Chevron
leaves the stage.” Epic Sys. Corp. v. Lewis, 138 S. Ct.
1612, 1630 (2018) (internal quotation marks and citation omitted).
Second, the Tribe asserts that Ysleta I “never had
occasion to determine whether the Restoration Act
constitutes a federal law that speciﬁcally prohibits
[c]lass II gaming on Indian lands under IGRA.” That
misses what Ysleta I did hold—that the Restoration
Act’s gaming provisions, and not IGRA, provide the
framework for deciding the legality of any and all gaming by the Pueblo and the Tribe on their Restoration
Act lands. Ysleta I, 36 F.3d at 1332.21
In sum, Brand X teaches that a court should not
defer to an agency’s interpretation of a statute if a “judicial precedent hold[s] that the statute unambiguously forecloses the agency’s interpretation.” Brand X,
545 U.S. at 982–83. That requires us to apply Chevron
step one to a prior judicial interpretation and to
21

The Tribe suggests that the Restoration Act’s application
of Texas laws to the Tribe’s gambling is somewhat empty because
Texas does not “prohibit” gaming as deﬁned in California v. Cabazon Band of Mission Indians, 480 U.S. 202 (1987). This court
expressly rejected that theory in Ysleta I, 36 F.3d at 1333–34,
holding that “Congress did not enact the Restoration Act with an
eye toward Cabazon Band.” Instead, we were “left with the unmistakable conclusion that Congress—and the [Pueblo]—intended for Texas’ gaming laws and regulations to operate as
surrogate federal law on the [Pueblo’s] reservation in Texas.” Id.
at 1334.

App. 18
determine whether that court employed traditional
tools of statutory interpretation and found that Congress spoke to the precise issue. That is what Ysleta I
did in holding that “the Restoration Act prevails over
IGRA when gaming activities proposed by [the Pueblo
or Tribe] are at issue.” Ysleta I, 36 F.3d at 1332. Consequently, the NIGC’s decision that IGRA applies to
the Tribe does not displace Ysleta I. We thus reafﬁrm
that the Restoration Act and the Texas law it invokes—
and not IGRA—govern the permissibility of gaming
operations on the Tribe’s lands.22 IGRA does not apply
to the Tribe, and the NIGC does not have jurisdiction
over the Tribe.
The district court did not abuse its discretion in
denying relief from the permanent injunction. The order denying the motion for relief from judgment is AFFIRMED.

22
The Tribe alternatively contends that Ysleta I should be
overruled. The rule of orderliness forbids us from reaching that
issue. See Jacobs v. Nat’l Drug Intelligence Ctr., 548 F.3d 375,
378 (5th Cir. 2008) (citations omitted) (“[O]ne panel of [this] court
may not overturn another panel’s decision, absent an intervening
change in the law, such as by a statutory amendment, or the Supreme Court, or [the] en banc court.”).

App. 19
[SEAL]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
LUFKIN DIVISION
§
§
Plaintiff,
§
v.
§
ALABAMA COUSHATTA §
TRIBE OF TEXAS,
§
Defendant.
§
STATE OF TEXAS,

CIVIL ACTION
NO. 9:01-CV-299

MEMORANDUM OPINION AND ORDER
Pursuant to 28 U.S.C. § 636(c), the Local Rules
for the United States District Court for the Eastern
District of Texas, and order of the District Court, this
proceeding is before the undersigned United States
Magistrate for all matters, including trial and entry of
judgment. Pending before the Court for purposes of
this order are:
- the State of Texas’ First Amended Motion for
Contempt for Violation of the June 25, 2002, Injunction,
and Alternatively for Equitable Declaratory and Injunctive Relief (doc. #74) and Motion for Summary Judgment of Contempt and to Enforce the Court’s June 25,
2002, Permanent Injunction (doc. #96); and
- the Alabama Coushatta Tribe of Texas’ Motion
for Relief from Judgment (doc. #76) and Motion for
Summary Judgment (doc. #99).

App. 20
I.

Background

A.

The Original Complaint and Injunction

On November 21, 2001, the Alabama-Coushatta
Tribe of Texas (“The Tribe”) ﬁled a complaint for declaratory and injunctive relief (doc. #1) against the
State of Texas (“The State”) and a handful of its ofﬁcials seeking injunctive and declaratory relief under
the provisions of the Ysleta del Sur Pueblo and Alabama-Coushatta Indian Tribes of Texas Restoration
Act (“The Restoration Act”), the Indian Gaming Regulatory Act of 1988 (“IGRA”), and case law. Speciﬁcally,
the Tribe sought injunctive relief allowing the Tribe to
govern gaming activities on its Indian lands, free from
interference. In the original complaint, the Tribe cited
the imminent threat presented by Texas potentially interfering in the Tribe’s exercise of its sovereign and
statutory rights to offer certain gaming activities on
Tribal lands. The Tribe also cited background information about its circumstances at the time, including
a 46% unemployment rate, poor health conditions, and
a median household income for the Tribe of $10,809.
See Complaint (doc. #1), at p. 6. The Tribe stated
that it is responsible for stewardship of its 4,593 acre
Reservation, the external boundaries of which fall
within Polk County, Texas. The land lies in the Big
Thicket area and is generally unsuitable for raising
crops or cattle. The Tribe claims that it was wrongfully
dispossessed of over two million acres of its original
Reservation, but acknowledges that it was seeking a
declaration of its rights only regarding the current
acreage held by the United States in trust for the

App. 21
beneﬁt of the Tribe. The complaint goes on to explain
the background regarding the Restoration Act of 1987
and the resulting sovereign authority of federally recognized tribes to govern gaming activities.
By means of the Restoration Act of 1987, Indian
tribes were restored to federally recognized status.
Through the Restoration Act, all rights or privileges
lost to the tribes under the Termination Act of 1954,
codiﬁed in Title 25, United States Code, were restored
to the tribes, including the tribes’ authority to manage
their own affairs, govern themselves, regulate internal
matters and substantive law, and have territorial
boundaries. See Complaint (doc. #1), at ¶ 17. In this
case, the Tribe avers that certain members of Congress
threatened to block passage of the Restoration Act unless the Tribe agreed to language which would forever
prevent it from engaging in gaming activities on its
lands. Id. at ¶ 18. The Tribe claims that under duress,
it was coerced into passing a tribal resolution supporting such language, which if passed into law, would have
precluded gaming. Id. Congress passed the governing
Restoration Act in 1987, and the Tribe’s Resolution
was incorporated into the Act. See 25 U.S.C.S. § 737(a)1
(LexisNexis 2010 & Supp. 2017).
1

In the course of researching the Restoration Act, the Court
discovered that the publishers of the United States Code Service
(LexisNexis) and United States Code Annotated (West) opted to
omit the statutory language of the relevant Restoration Act provisions found in Title 25 from their respective publications. The
Restoration Act is, however, still in effect and the full authoritative source can be found at Pub. L. No. 100-89, 101 Stat. 666
(August 18, 1987). For the sake of efﬁciency and consistency, the

App. 22
The complaint also discussed the United States
Supreme Court’s decision in California v. Cabazon
Band of Mission Indians, 480 U.S. 202 (1987), which
the Tribe contends should be applied to Texas public
policy to allow for the Tribe to have sovereign and inherent authority over its gaming activities.
Complaint, at ¶ 19-21. In 1999, the General Council for
the Tribe voted for the Tribe to offer gaming activities
as a source to generate badly-needed tribal government revenues. Id. at ¶ 23. The Tribe constructed and
opened an Entertainment Facility for members of the
Tribe’s private gaming club. Id. at ¶ 24. The Entertainment Facility maintained a number of gaming devices, including random number generators, electronic
ticket dispensers, electronic pull tabs, spinning reel
slots, and video lottery devices. Id. The Tribe cited a
number of other gaming activities that are protected
in Texas, including the State Lottery, a horse racing industry, an extensive “slot parlor” market, charitable
carnival or casino nights, high-stakes bingo, rafﬂes, casino cruises. Id. at ¶ 26. The Tribe also claimed that
the State had embraced a policy of “willful blindness”
when it came to non-enforcement as thousands of “eightliner” games were being used in hundreds of establishments throughout Texas, despite the State’s ofﬁcial
policy against allowing such private, non-governmental
“lottery” games. Id. at ¶ 27. The complaint notes that
Court will cite the provisions found in Title 25 of the United
States Code Service (LexisNexis 2010 & Supp. 2017) because that
publication still includes the statutory language and because all
relevant documents in this case to date cite the Restoration Act
as codiﬁed in Title 25.

App. 23
the Texas State Lottery and Texas State Horse Racing
Commission have the regulatory/discretionary authority over gambling/gaming devices. Id. at ¶ 28. In conclusion, the Tribe ﬁled their initial complaint seeking
a declaration and injunctive relief from the court permitting it to possess authority to regulate gaming activities on its own Indian lands and to authorize and
regulate forms of gaming on its own lands. See id. at
¶¶ 35-41.
After the Tribe ﬁled the original complaint, the following course of events ensued. The State ﬁled an answer with a competing motion for injunctive relief. The
presiding judge at the time, The Honorable John Hannah, Jr., stayed the case pending a ruling by the United
States Court of Appeals for the Fifth Circuit in a related case2, Texas v. [Ysleta] del Sur Pueblo.3 After the
Fifth Circuit handed down its January 17, 2002, order
afﬁrming the district court in the [Ysleta] case, the
2

The [Ysleta] del Sur Pueblo litigation is relevant for consideration because the [Ysleta] del Sur Pueblo Tribe is the only other
Texas tribe subject to the same Restoration Act, enacted on August 18, 1987. See 25 U.S.C.S. § 1300g et seq. (LexisNexis 2010
& Supp. 2017) and 25 U.S.C.S. § 731 et seq. (LexisNexis 2010 &
Supp. 2017), Pub. L. No. 100-89, 101 Stat. 666 (August 18, 1987)
(“An Act to provide for the restoration of the Federal trust relationship and Federal services and assistance to the [Ysleta] del Sur
Pueblo and Alabama and Coushatta Indian Tribes of Texas[.]”).
3
See State v. [Ysleta] del Sur Pueblo, No. 01-51129, 31
F. App’x 835, 2002 WL 243274 (5th Cir. 2002) (“We afﬁrm the
judgment of the district court essentially for the reasons stated in
its careful, thorough September 27, 2001, Memorandum Opinion.”) (as cited in Judge Hannah’s order, Alabama-Coushatta
Tribes of Texas v. Texas, 208 F. Supp. 2d 670, 674 (E.D. Tex.
2002)).

App. 24
Court lifted the stay in this case. Judge Hannah then
conducted a four (4) day hearing on the requested relief, and issued his ﬁndings of fact and memorandum
opinion after receiving the parties’ post-hearing proposed ﬁndings of fact and briefs.
Judge Hannah issued his ruling on June 25, 2002,
in a 22-page memorandum opinion and order in which
he granted relief to the State of Texas in the form of a
permanent injunction (doc. #36), Alabama-Coushatta
Tribes of Texas v. Texas, 208 F. Supp. 2d 670, 674 (E.D.
Tex. 2002). In sum, he held that “the Tribe should be
permanently enjoined from operating its casino because (1) under the plain language of the Restoration
Act, as codiﬁed in Title 25 of the United States Code,
Section 737(a), and Texas law the Tribe is prohibited
from conducting casino gaming and (2) the Tribe’s resolution not to engage in gaming in exchange for restoration of its federal trust status was “incorporated into
the Restoration Act.” Id. at 672. Judge Hannah carefully analyzed governing precedent, including the Restoration Act and its history, the Fifth Circuit’s decision
in [Ysleta] del Sur Pueblo v. State of Tex., 36 F.3d 1325,
cert. denied 514 U.S. 1016 (1995) [Ysleta] I), and the Supreme Court’s decision in Cabazon. See id. at 672-678.
He concluded that the Tribe’s activities in operating
the Entertainment Center (to include gaming activities) violated provisions of the Texas Penal Code which
prohibit certain manners of gambling and that the Entertainment Center was a public nuisance under law.
See id. at 678-79 (citing the applicable versions of TEX.
PENAL CODE §§ 47.02-47.04 and TEX. CIV. PRAC. & REM.

App. 25
CODE §§ 125.001 and 125.041(1))4 (governing common
and public nuisances as deﬁned by Texas Penal Code)).
Based on this conclusion, and after weighing the appropriate factors to consider before issuing injunctive
relief, Judge Hannah ordered the Tribe to cease and
desist in operating its gaming and gambling activities
on the Tribe’s reservation which violate state law. Id.
at 682.
On July 17, 2002, Judge Hannah entered ﬁnal
judgment and denied the Tribe’s request to stay his
ruling pending appeal (doc. #47, doc. #48). On September 11, 2002, while the appeal was pending, he also
granted the State’s request for an award of attorney’s
fees and awarded $62,828.50 in attorneys’ fees and
$3,816.00 in non-taxable litigation expenses to the
State as the prevailing party pursuant to the Texas
Civil Practice and Remedies Code. See Order (doc.
#52).
On April 16, 2003, the Fifth Circuit issued a per
curiam opinion in which a three-judge panel upheld
Judge Hannah’s decision. See Fifth Circuit Order (doc.
#53), 66 F. App’x 525 (5th Cir. 2003). The Fifth Circuit
concluded that it was bound by [Ysleta] I and further
noted that “[h]owever sympathetic we may be to the
Tribe’s argument, we may not reconsider [Ysleta], even
4

The Texas Legislature repealed Section 125.041 of the
Texas Civil Practice & Remedies Code in 2003. See Acts of 2003,
78th Leg., ch. 1202, § 14. The current provision defining a common
nuisance predicated on gambling is found in Section 125.0015.
See TEX. CIV. PRAC. & REM. CODE. ANN. § 125.0015(a)(5) (West.
Supp. 2017).

App. 26
if we believed that the case was wrongly decided.” Id.
at p. 4. The Court went on to conclude that “[ j]ust as
the district court concluded, we are bound by the determination that the Restoration Act precludes the
[Ysleta] del Sur Pueblo and the Alabama Coushatta
tribes from conducting all gaming activities prohibited
by Texas Law on tribal lands.” Id.
The United States Supreme Court denied the
Tribe’s petition for writ of certiorari on October 6, 2003.
See Letter (doc. #55), 540 U.S. 882 (2003). The Clerk
then shipped the case to the Federal Records Center in
2004, and Judge Hannah’s injunction and judgment remained in place for over thirteen years, with no activity in the case until ﬁlings in 2016, as discussed below.
B.

Developments After Judge Hannah’s Injunction

In 2015, the Tribe sought guidance from the National Indian Gaming Commission (NIGC)5 regarding
the Tribe’s Resolution No. 2015-038, adopted by the
Tribe as a Class II gaming ordinance. See October 8,
2015, letter from NIGC to Tribe (“NIGC letter”), Exhibit
A to Tribe’s Motion for Relief from Judgment (doc. #761). The NIGC issued its responsive letter on October
8, 2015, in which the NIGC considered whether the
5

In IGRA, Congress established the NIGC within the Department of the Interior as a three member commission to monitor gaming conducted on Indian lands and approve related tribal
resolutions and ordinances See 25 U.S.C.S. §§ 2704-2707 (LexisNexis 2015).

App. 27
Tribe’s lands are eligible for gaming. Id. The NIGC
considered the Restoration Act and IGRA. Id. The
NIGC noted that a similar question regarding the
[Ysleta] del Sur Pueblo’s gaming ordinance arose and
that the same jurisdictional analysis applies to the
Alabama Coushatta because they are governed by
nearly identical language under the Restoration Act.
The NIGC found that IGRA6 applied to the Tribe,
thus bringing the Tribe within the NIGC’s jurisdiction.
Id. Accordingly, the NIGC further determined that the
Tribe’s lands were eligible for gaming under IGRA. Id.
Relatedly, the NIGC concluded that the Restoration
Act did not bar the Tribe from conducting gaming on
its lands pursuant to IGRA. Id.
According to the Tribe, it began development of its
Naskila Entertainment Center (“Naskila”) to establish
a Class II gaming center for operating electronic bingo
gaming on its lands. See Motion for Relief (doc. #76),
at p. 6. The Tribe notiﬁed the State about Naskila, and,
after negotiations with the Tribe, the State in turn
agreed to permit the Tribe to operate Naskila pending
the Court’s ultimate determination of the impact of the
NIGC’s agency decision as it relates to the injunction
in this case and, if necessary, whether the gaming at
Naskila qualiﬁes as Class II gaming under IGRA. Id.
On June 27, 2016, June 28, 2016, and July 14,
2016, counsel for the parties ﬁled various motions to
substitute new attorneys and to realign the parties for
6

25 U.S.C.S. §§ 2701–2721 (LexisNexis 2015)

App. 28
purposes of the case style, which the Court granted.
See Orders (doc. #69, doc. #71). The docket activity
prompted the Clerk to reassign the case to the docket
of United States District Judge Michael H. Schneider,
as Judge Hannah passed away in 2003. On August 3,
2016, Judge Schneider in turn referred the proceeding
to the undersigned United States Magistrate Judge
for recommended disposition. See Order (doc. #67). On
September 13, 2016, the case was reassigned to Chief
United States District Judge Ron Clark upon Judge
Schneider’s retirement. Finally, the parties consented
to the undersigned magistrate judge for all matters,
including trial and entry of judgment pursuant to 28
U.S.C. § 636(c), and Judge Clark entered his corresponding Order of Reference (doc. #82) on November 7,
2016.
The parties then jointly requested the entry of a
scheduling order setting out certain deadlines. The
Court issued scheduling orders (doc. #73, doc. #91) culminating in a motion hearing held before the undersigned on May 11, 2017. See Minute Entry (doc. #113),
Transcript (doc. #115). At the hearing, the parties focused primarily on the legal issues at stake in their
competing motions. The Court then took the matter
under advisement with this opinion to follow. In the
interim, the undersigned reset a bench trial before the
Court a number of times pending the Court’s ruling,
the most current bench trial setting being scheduled
for February 28, 2018. See Fifth Amended Scheduling
and Discovery Order (doc. #124).

App. 29
C.

The Parties’ Motions and Competing Arguments

The State initiated the most recent contempt proceedings after the Tribe, through its attorneys, gave
the State advance notice of its intent to open Naskila
in May or June 2016. See First Amended Motion for
Contempt (doc. # 74), at p. 5. As referenced above, in
May 2016, the State and the Tribe entered into a “PreLitigation Agreement” requiring notice of opening and
allowing a physical inspection of the Naskila premises
by the State to determine whether the gaming devices
were operating in violation of Texas law, and therefore
in violation of federalized law under the Restoration
Act. Id. Naskila, operated by the Tribe, made a “soft”
opening on May 16, 2016, then reopened at 12:00 pm
on May 17, 2016, and has reportedly remained open
since that time. Id. A “grand opening” for Naskila was
then held on June 2, 2016. Id.
On June 15, 2016, the State conducted a physical
inspection of Naskila. Based on the inspection conducted
by Captain Daniel Guajardo, the State contends that
hundreds of gambling devices were employed at Naskila
at 540 State Park Road 56, Livingston, Texas. Id. See
also Declaration of Captain Daniel Guajardo, Exhibit
2 to First Amended Motion for Contempt (doc. #74-3).
Captain Guajardo states that on the date of inspection, he personally inserted cash directly into one of
the gambling devices, observed six different computer
servers from different vendors to generate chance, and
pushed a single button to play an electronic “bingo”
game which yielded a cash prize by voucher. Id. The

App. 30
State contends this “payment of cash consideration
into a game of chance which produces cash prizes is an
illegal lottery as deﬁned by Texas Penal Code § 47.01.”
See Guajardo Afﬁdavit, at ¶ 6. It also contends that
operation of electric bingo as a lottery could constitute
a violation of Sections 47.02 (gambling), 47.03(a)(1)
and (a)(5) (operating a gambling place or promoting
gambling), 47.04(a) (keeping of a gambling place), and
47.06(a) and (c) (possession, manufacture or transfer of
gambling device or gambling paraphernalia). See id.;
see also TEX. PENAL CODE ANN. §§ 47.02, 47.03 47.04,
47.06 (West 2011 & Supp. 2017).
Based on these alleged gambling violations of the
Texas Penal Code, the State contends that the Tribe is
violating Judge Hannah’s 2002 injunction. See First
Amended Motion for Contempt, at p. 7. The State also
seeks declaratory relief through a ﬁnding that IGRA
does not apply to the Tribe because IGRA did not repeal the Restoration Act, and, accordingly, that as a
Restoration Act Tribe, the Alabama-Coushatta Tribe of
Texas may not conduct Class II IGRA gaming on its
lands. Id.
The Tribe in turn ﬁled its Motion for Relief from
Judgment, which the Court construes as the companion motion ﬁled in response to the State’s motion for
contempt. The Tribe argues that the NIGC’s determination is entitled to deference under Chevron, U.S.A.,
Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837, (1984).
See Motion for Relief, at pp. 6-7. The Tribe further contends that the NIGC’s decision is a reasonable interpretation of IGRA and the Restoration Act. Id. at p. 10.

App. 31
The Tribe relatedly argues that IGRA’s text and history, along with the subsequent applicable case law,
support the NIGC’s decision. Id. at 12-16. Accordingly,
the Tribe contends that the Court should defer to the
NIGC’s determination and dissolve the 2002 injunction. Id. at pp. 16, 19-20.
The Tribe also avers that the Fifth Circuit’s decision in [Ysleta] I is distinguishable from the issues before the Court here because it was not a decision about
the text of IGRA. Id. at p. 17 (citing [Ysleta] I, 36 F.3d
at 1329-31). It argues that the NIGC’s decision is an
agency decision constituting a signiﬁcant change in
law providing the Court the authority to relieve the
Tribe of the injunction’s prospective effects. Id. at
p. 18. The Tribe further contends that, if the Restoration Act does in fact control, it can continue to offer
Class II bingo free from State oversight.
The State’s motion for contempt requests that the
Court order the Tribe to show cause as to whether
the Tribe violated Judge Hannah’s injunction by
conducting Class II gaming at Naskila. See First
Amended Motion for Contempt, at p. 12. The contempt
ﬁnding would necessarily require an evidentiary hearing about the activities at Naskila as well as any civil
contempt penalties, but is dependent upon the Court’s
determination of the preliminary issue regarding the
application of the Restoration Act versus IGRA.
On February 8, 2017, the parties also ﬁled competing motions for summary judgment pursuant to
an agreed brieﬁng schedule. The State’s motion for

App. 32
summary judgment reasserts its position that the
Restoration Act applies to the Tribe, thus prohibiting
gaming on the Tribe’s lands. See State’s Motion for
Summary Judgment of Contempt (doc. #96), at pp. 1314. Predicated on a ﬁnding to this effect, the State
next argues that the second issue for resolution is
whether the Tribe’s current gaming activities violate
the Texas Penal Code’s prohibition on gambling. See
id. at p. 14.
The Tribe’s Motion for Partial Summary Judgment (doc. #99) again argues that IGRA, not the Restoration Act, governs the gaming activities conducted
on the Tribe’s land. See Motion (doc. #99), at p. 1. The
Tribe also argues that under IGRA, state law is inapplicable to the operation of Class II gaming and that
the electronic bingo games conducted at Naskila constitutes Class II gaming rather than Class III gaming,
contrary to the State’s contention that the Tribe is in
fact conducting Class III gaming. See id. at pp. 1, 9-13.
D.

Issues for Consideration

As referenced in the parties’ briefs, the Court is
tasked with determining two principal questions:
First, does IGRA, 25 U.S.C. 2701 et seq., apply to
the Tribe, as the NIGC’s October 2015 letter concluded,
or does the Tribe’s Restoration Act control, 25 U.S.C.
§§ 731–737, as the State argues?
Second, if IGRA controls, do the operations at
Naskila consist of “Class II” gaming?

App. 33
Both parties submit evidentiary support for their
competing positions on the second issue—whether the
Tribe is conducting Class II or Class III gaming on its
lands. In the Court’s view, however, this evidentiary
dispute need not be reached until the Court makes its
determination on whether the Restoration Act or IGRA
applies. This is because, as discussed herein, the application of the Restoration Act would govern all gaming under Texas law, whether Class II or Class III,
perhaps rendering moot any analysis of Class II versus
Class III gaming under IGRA. The only remaining issue would be the State’s request for contempt, which
would require certain evidentiary ﬁndings. At the May
11, 2017, motion hearing before the undersigned, the
parties agreed that the evidentiary issues regarding
the State’s contempt request and the classiﬁcation of
the gaming conducted at Naskila would be dependant
on the Court’s determination of the initial Restoration
Act versus IGRA issue. See Transcript of May 11,
2017, Hearing (doc. #115), at 40:20-41:23.7 The parties
7

“MR. ABRAMS:” * * * if the court concludes that the Restoration Act applies, there would need to be a hearing—
THE COURT: Sure.
MR. ABRAMS: —at which the parties offer evidence.
THE COURT: Okay.
MR. ABRAMS: And even if it were on the Class II,
Class III issue, there likely would need to be live evidence
about those issues, although, you know, we could determine that.
THE COURT: Okay. You agreed, counsel?
MR. ASHBY: Yes, we agree with that, your Honor.”
See doc. #115, at p. 41.

App. 34
also indicated that they were amenable to taking up
the evidentiary issues related to the State’s contempt
motion and the enforcement of the 2002 injunction, if
necessary, at an evidentiary hearing at a later date.
See id. at 41:25-43:6.
The parties briefed all issues thoroughly and the
Court has read and considered the numerous ﬁlings in
full. For the sake of brevity, the undersigned will not
summarize all of the responses, replies and sur-replies
but will refer to them as necessary below. The Court
appreciates the parties’ detailed framing of all of the
pertinent issues. However, given the procedural posture of the case and the parties’ discussion on the record at the motion hearing, the undersigned ﬁnds it
appropriate to focus the Court’s analysis on the initial
legal issue of whether the Restoration Act or IGRA applies to the Tribe’s situation at hand. The Court will
accordingly defer the questions of the Tribe’s alleged
contempt and the gaming classiﬁcations until after the
undersigned makes the underlying legal determination and the parties have the opportunity to present
their evidence on the secondary issues as needed.
II.

Discussion

A.

Standard of Review

In their motions, the parties request declaratory
relief in the form of a legal conclusion by the Court on
the issue of the Restoration Act’s continued applicability and the impact, if any, of IGRA and the NIGC’s recent opinion. The Court will accordingly consider this

App. 35
requested relief in the context of summary judgment
in a declaratory judgment action.8 See, e.g., Northﬁeld
Ins. Co. v. Rodriguez, 261 F. Supp. 3d 705, 708 (W.D.
Tex. 2017) (applying summary judgment standard of
review in declaratory judgment action involving interpretation of CGL insurance policy).
Summary judgment should be granted only if the
moving party can show that “there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” FED. R. CIV. P. 56(a).
This rule places the initial burden on the moving party
to identify those portions of the record which it believes
demonstrate the absence of a genuine issue of material
fact. See Celotex Corp. v. Catrett, 477 U.S. 317, 323, 106
S.Ct. 2548 (1986) (quoting Rule 56); Stults v. Conoco,
8

28 U.S.C. 2201(a) provides that “[i]n a case of actual controversy within its jurisdiction * * * any court of the United States
* * * may declare the rights and other legal relations of any interested party seeking such declarations, whether or not further relief is or could be sought.” 28 U.S.C.A. § 2201(a) (Westlaw through
Pub. L. No.115-90). Section 2201 is only a procedural provision
that extends to controversies in the jurisdiction of the federal
courts. Northﬁeld Ins. Co., at 708 (citing Gaar v. Quirk, 86 F.3d
451, 453-54 (5th Cir. 1996)). Therefore, the declaratory judgment
must have an independent basis for subject matter jurisdiction.
Id. Citing Lowe v. Ingalls Shipbuilding, Inc., 723 F.2d 1173, 1179
(5th Cir. 1984). The jurisdictional requirements are met in this
case under 28 U.S.C. 1362, which provides that the district courts
shall have original jurisdiction over civil actions brought by any
Indian tribe, and 28 U.S.C. § 1331 because the matter in controversy arises under federal statutes. See 28 U.S.C.A. §§ 1362,
1331 (Westlaw through Pub. L. No. 115-90); see also Complaint
(doc. #1), at ¶¶ 6-8 (jurisdiction) and ¶¶ 35-41 (Tribe’s original
claim for declaratory and injunctive relief ).

App. 36
Inc., 76 F.3d 651, 655-56 (5th Cir. 1996) (citations omitted).
B.

Applicable Statutory Framework

As the undersigned referenced above, two statutes
are integral to the history of the case and the Court’s
decision today: the Restoration Act and IGRA. Congress passed the Restoration Act in 1987, thereby restoring the federal trust relationship between the
United States and the Tribe. See Texas v. [Ysleta] I del
Sur Pueblo, No. 99-CV-320-KC, 2016 WL 3039991, at
*7 (W.D. Tex. May 27, 2016) (citing [Ysleta] I, 36 F.3d at
1329); see also 25 U.S.C.S. §§ 731 et seq. (LexisNexis
2010 & Supp. 2017) (“Alabama and Coushatta Indian
Tribes of Texas: Restoration of Federal Supervision”).
One provision of the Restoration Act states:
“All gaming activities which are prohibited by
the laws of the State of Texas are hereby prohibited on the reservation and on lands of the
tribe. Any violation of the prohibition provided in this subsection shall be subject to the
same civil and criminal penalties that are provided by the laws of the State of Texas. The
provisions of this subsection are enacted in
accordance with the tribe’s request in Tribal
Resolution No. T.C.-86-079 which was approved and certiﬁed on March 10, 1986.”
9

The Tribe’s Resolution No. T.C.-86-07 was approved and
certiﬁed by the Tribal Council on March 10, 1986, and provides
that “the Alabama-Coushatta Tribe remains ﬁrm in its commitment to prohibit outright any gambling or bingo in any form
on its Reservation[;]” * * * “the Tribe strongly believes that the

App. 37
25 U.S.C. § 737(a) (LexisNexis 2010 & Supp. 2017).
The Restoration Act also provides that “the courts of
the United States shall have exclusive jurisdiction
over any offense in violation of subsection (a) that is
committed by the tribe, or by any member of the tribe,
on the reservation or on the lands of the tribe.” Id. at
§ 737(c). “However, nothing in this section shall be construed as precluding the State of Texas from bringing
an action in the courts of the United States to enjoin
violations of the provisions of this section.” Id.
Approximately one year after passing the Restoration Act, in 1988 Congress enacted IGRA. IGRA set
forth a regulatory system consisting of three classes
of gaming with differing degrees of corresponding
regulations. See Texas v. [Ysleta] del Sur Pueblo, 2016
WL 3039991, at *7; see also 25 U.S.C.S. § 2703(6)-(8)
(LexisNexis 2015) (deﬁning Class I, Class II and Class
III gaming). Congress’ intent in passing IGRA was,
among other things, to “provide a statutory basis for
the operation of gaming by Indian tribes as a means of
promoting tribal economic development, self-sufﬁciency, and strong tribal governments;” and “to provide
a statutory basis for the regulation of gaming by an
Indian tribe[.]” 25 U.S.C.S. § 2702(1)-(2) (LexisNexis
controversy over gaming must not be permitted to jeopardize this
important legislation[;]” and requesting that the United States Senate and House of Representatives include language in the Act “which
would provide that all gaming, gambling, lottery, or bingo, as defined
by the laws and administrative regulations of the state of Texas,
shall be prohibited on the Tribe’s reservation or on Tribal land.”
See Alabama-Coushatta Tribes of Tex. v. Texas, 208 F. Supp. 2d
at 673-74 (quoting Alabama-Coushatta Tribal Resolution #86-07).

App. 38
2015). IGRA also created the NIGC and charged it with
“promulgat[ing] such regulations and guidelines as it
deems appropriate to implement the provisions of this
Act.” 25 U.S.C.S. § 2706(b)(10) (LexisNexis 2015).
C.

Analysis of the NIGC’s Letter Opinion

(1)

Chevron Deference Generally

Under the Chevron doctrine, “[w]hen a court reviews an agency’s construction of the statute which
it administers, it is confronted with two questions.”
Texas v. [Ysleta] del Sur Pueblo, at *9 (quoting City of
Arlington v. Fed. Communications Comm’n., 569 U.S.
290, 133 S. Ct. 1863, 1868 (2013)); see also Chevron,
467 U.S. at 842. First, always, is the question whether
Congress has directly spoken to the precise question at
issue. Chevron, at 842. If the intent of Congress is
clear, that is the end of the matter; for the court, as well
as the agency, must give effect to the unambiguously
expressed intent of Congress. Id. at 842-43. If, however, the court determines Congress has not directly
addressed the precise question at issue, the court does
not simply impose its own construction on the statute,
as would be necessary in the absence of an administrative interpretation. Id. at 843. Rather, if the statute is
silent or ambiguous with respect to the speciﬁc issue,
the question for the court is whether the agency’s answer is based on a permissible construction of the statute. Id.
Additionally, an agency’s interpretation of a statute it does not administer is ordinarily not entitled to

App. 39
deference. Texas v. [Ysleta] del Sur Pueblo, at *9 (citing
America’s Cmty. Bankers v. Fed. Deposit Ins. Corp., 200
F.3d 822, 833 (D.C. Cir. 2000), Passamaquoddy Tribe v.
Maine, 75 F.3d 784, 793-94 (1st Cir. 1996)). The types
of interpretations that may qualify for Chevron deference include “an agency’s interpretation of a statutory
ambiguity that concerns the scope of [its] regulatory authority (that is, its jurisdiction).” Id. Quoting City of
Arlington, 569 U.S. at 293, 133 S. Ct. at 1866. “No matter how it is framed, the question a court faces when
confronted with an agency’s interpretation of a statute
it administers is always, simply, whether the agency
has stayed within the bounds of its authority.” City of
Arlington, 569 U.S. at 297 (emphasis in original).
Within the Fifth Circuit, courts are “guided by the
two-step analysis” introduced in United States v. Mead
Corp., 533 U.S. 218 (2001). Texas v. [Ysleta] del Sur
Pueblo, at *10 (citing Knapp v. U.S. Dep’t of Agric., 796
F.3d 445, 454 (5th Cir. 2015)). Administrative implementation of a particular statutory provision qualiﬁes
for Chevron deference when it appears (1) that Congress delegated authority to the agency generally to
make rules carrying the force of law, and (2) that the
agency interpretation claiming deference was promulgated in the exercise of that authority. See id. Quoting
Knapp, at 454; see also Mead, 533 U.S. at 226-27; City
of Arlington, 569 U.S. at 307; Nat’l Cable & Telecomms.
Ass’n v. Brand X Internet Servs., 545 U.S. 967, 980
(2005); Amalgamated Transit Union v. Skinner, 894
F.2d 1362, 1364 (D.C. Cir. 1990) (“Where Congress prescribes the form in which an agency may exercise its

App. 40
authority * * * [courts] cannot elevate the goals of an
agency’s action, however reasonable, over that prescribed form.”).
(2)

The [Ysleta] del Sur Pueblo Litigation

Here, the Court takes much guidance from United
States District Judge Kathleen Cardone of the Western
District of Texas in her most recent ruling on the “protracted” gaming “saga” of the [Ysleta] del Sur Pueblo
(“Pueblo Tribe10”). See Texas v. [Ysleta] del [Sur] Pueblo,
at *2. She considered many of [the] same issues present here.
In the Pueblo Tribe’s case, similar arguments were
present regarding the Pueblo Tribe’s ongoing attempt
to conduct gaming at the Speaking Rock Casino on its
tribal lands. See id. at *3. The Pueblo Tribe’s situation
is almost identical to that of the Alabama Coushatta’s
as both tribes were subject to the Restoration Act as
explained infra. See id. at *6. The Pueblo Tribe sought
and obtained a letter opinion from the NIGC, dated
October 5, 2015,11 in which the NIGC considered a
10

The [Ysleta] del Sur Pueblo are referred to as both the
“Tigua” and the “Pueblo” in case law and the parties’ briefs. Both
designations appear correct historically, but because Judge Cardone’s opinion refers to the [Ysleta] del sur Pueblo entities in her
case collectively as the “Pueblo Defendants”, the Court will follow
suit. See [YSLETA] DEL SUR PUEBLO, http://www.ysletadelsurpueblo.
org (last visited February 1, 2018); Texas v. [Ysleta] del Sur Pueblo,
at *1.
11
Notably, only three (3) days prior to the NIGC’s letter to
the Alabama Coushatta in this case.

App. 41
gaming ordinance and resolution passed by the Pueblo
Tribe. Id. at *5. The NIGC approved the Pueblo Tribe’s
ordinance and concluded that the Pueblo Tribe’s lands
were eligible for gaming under IGRA because they
qualify as Indian lands. Id. The NIGC’s letter also
cited to and incorporated a 22-page letter from the
Solicitor for Indian Affairs with the Department of Interior (DOI) in support of the ﬁnding that IGRA governs gaming on the Pueblo Tribe’s reservation and
impliedly repealed provisions of the Restoration Act
“repugnant to IGRA.” Id. In sum, the DOI letter concluded that the Restoration Act does not prohibit the
Pueblo Tribe from gaming on its Indian lands under
IGRA12. Id. at *6. The DOI letter also opines that the
Fifth Circuit’s 1994 opinion in [Ysleta] I was wrongly
decided and, contrary to the Fifth Circuit’s holding in
that case, that IGRA applies to the Pueblo Tribe’s gaming activities. See id.
Similar to the Alabama Coushatta Tribe’s approach in this case, the Pueblo Tribe relied on the opinion letters from the NIGC and the DOI in arguing
that Judge Cardone should vacate the injunction precluding the Pueblo Tribe from conducting gaming on
its lands. See id. The Pueblo Tribe also relatedly

12

Based on the record, the DOI did not issue any letter opinion speciﬁc to the Alabama-Coushatta’s gaming operations, but
the NIGC incorporated the DOI’s letter from the [Ysleta] del Sur
Pueblo’s case [into its] ﬁndings in its October 8, 2015, letter to the
Alabama-Coushatta. See doc. #76-1, at p. 2. The DOI letter was
also brief ly discussed at the May 11, 2017, hearing in the context
of Chevron deference. See Transcript (doc. #115), at 32:21-33:9.

App. 42
contended that the NIGC and DOI letters should be
afforded Chevron deference. Id.
Judge Cardone held that “[w]hile the Pueblo Defendants urge the Court to defer to the NIGC and DOI
Letters, the Court does not afford the Letters Chevron
deference because there is no indication that Congress
intended for courts to defer to NIGC and DOI interpretations of anything beyond the respective statutes each
agency administers.” Id. at *10. She explained as follows:
“IGRA established the NIGC as an entity within
the DOI, and charged it with administering
IGRA. See 25 U.S.C. §§ 2704(a), 2706(b)(10)
(charging NIGC with, among other things,
“promulgat[ing] such regulations and guidelines as it deems appropriate to implement
the provisions of this chapter”). Likewise,
DOI is charged with, among other responsibilities, administering the Restoration Act. See
Restoration Act, Pub. L. No. 100-89, § 2, 101
Stat. 666 (“The Secretary of the Interior or his
designated representative may promulgate
such regulations as may be necessary to carry
out the provisions of this Act.”). Thus, NIGC’s
interpretations of the provisions of IGRA, and
DOI’s interpretations of the provisions of the
Restoration Act, are interpretations potentially within the scope of agency pronouncements accorded Chevron deference. See City
of Arlington, 135 [133] S. Ct. at 1866. Yet, the
NIGC and DOI Letters interpret not only the
agencies’ respective organic statutes, but also
the interplay of their organic statutes with

App. 43
other statutes and case law. See generally
Agency Letters. Therefore, the Court does not
defer to the contents of the NIGC and DOI Letters because an agency’s interpretation of a
statute it does not administer is ordinarily not
entitled to deference. See Am.’s Cmty. Bankers,
200 F.3d at 833; Passamaquoddy, 75 F.3d at
793-94.
Id. at *10 (emphasis added).
(3)

Application

This Court faces a similar situation here. The letter from the NIGC to the Tribe grounds its content in
analysis of both IGRA and the Restoration Act, along
with federal regulations promulgated under IGRA.
See NIGC Letter (doc. #76-1), see also Texas v. [Ysleta]
del Sur Pueblo, at *11. The NIGC letter to the [Tribe]
interprets the Restoration Act: “the Restoration Act
must be taken into consideration as part of this ordinance review;” “we must ﬁrst examine * * * whether
the Tribe’s Restoration Act lands are exempt from
IGRA’s domain.” See NIGC Letter, at p. 2. Although
IGRA does speciﬁcally task the NIGC with enforcing
and interpreting IGRA as noted above, there is no indication that Congress delegated similar authority to
IGRA to do the same for the Restoration Act. The
NIGC also relies on the DOI letter at issue in the [Ysleta] del Sur Pueblo case and notes that “because the
Tribe and Pueblo share the same Restoration Act, with
nearly identical language, that same jurisdictional
analysis applies to the Alabama-Coushatta’s portion of

App. 44
the Restoration Act.” Id. The NIGC letter to the Tribe
further relies on the DOI letter for the conclusion that
“IGRA impliedly repeals the portions repugnant to
IGRA.” Id. Therefore, the NIGC’s opinion at issue here
is dependant upon the very same analysis employed by
the NIGC and the DOI in the Pueblo Tribe’s case, to
which Judge Cardone declined to afford Chevron deference. The Court is unpersuaded that the NIGC’s
opinion in this case is distinguishable to the extent
that it is entitled to deference. In fact, it relies on identical analysis to that employed by the NIGC and the
DOI in the Pueblo case.
Like Judge Cardone, this Court “cannot take it
upon itself to assume, without any evidence, that Congress intended to entrust the NIGC with reconciling
IGRA and the Restoration Act.” See Texas v. [Ysleta]
del Sur Pueblo, at *10 (internal quotations omitted).
Thus, the undersigned must also conclude that the
NIGC’s letter to the Tribe and ﬁndings therein do not
merit Chevron deference on this basis. Id.
Judge Cardone further concluded that to the extent the Pueblo Tribe asked her to “defer to the NIGC’s
* * * conclusion that IGRA impliedly repealed the Restoration Act, the Chevron framework remains untenable.” Id. at *11. Whether IGRA impliedly repealed the
Restoration Act is “a pure question of statutory construction for the courts to decide,” and not an issue that
appears to “implicate [ ] agency expertise in a meaningful way.” Id. Quoting Immigration and Naturalization Serv. v. Cardoza-Fonseca, 480 U.S. 421, 446-47
(1987) and Drakes v. Zimski, 240 F.3d 246, 250 (3rd

App. 45
Cir.), cert. denied 540 U.S. 1008 (2003). Judge Cardone
concluded that the court should not defer to the NIGC’s
and DOI’s respective interpretations of the interplay
among several statutes and case law. Id. at *11. Despite the Tribe’s arguments to the contrary, addressed
infra, the undersigned is not persuaded that this case
should yield a different result and accordingly concludes that the agency letter did not in effect repeal the
Restoration Act governing the Alabama Coushatta.
At the hearing in this matter, the Tribe argued
that in City of Arlington, the Supreme Court rejected
the Chevron deference analysis employed in Judge
Cardone’s opinion. See Transcript, at p. 29. In City of
Arlington, the United States Supreme Court considered “whether a court must defer under Chevron to an
agency’s interpretation of a statutory ambiguity that
concerns the scope of the agency’s statutory authority
(that is, jurisdiction).” City of Arlington, 569 U.S. at
296-97. After explaining the “jurisdictional” issue
for Chevron purposes, Justice Scalia stated that once
the labels of jurisdictional and nonjurisdictional are
“sheared away, it becomes clear that the question in
every case is, simply, whether the statutory text forecloses the agency asserted authority, or not.” Id. at 301
(internal quotation omitted).
The Tribe avers that the NIGC’s decision reﬂects
a judgment regarding the scope of its own authority—
its regulatory jurisdiction—and, therefore, that it
is unequivocally entitled to Chevron deference under
City of Arlington. See Motion for Relief, at p. 8. The
Court concurs that the NIGC has the authority to

App. 46
administer and regulate Indian gaming laws because
that authority is provided by IGRA. See 25 U.S.C.S.
§§ 2705, 2710 (LexisNexis 2015). What the Tribe has
not accounted for, however, is the gap between the authority granted to IGRA under the NIGC and the provisions of the Restoration Act, which the NIGC does
not have the statutory authority to interpret or regulate. The Tribe attempts to explain this away by contending that the Restoration Act is a “contingent,
general regulation” of all gaming on some Indian lands
and not a “speciﬁc prohibition” of gaming on Indian
lands and, therefore, IGRA, rather than the Restoration Act, applies to the Tribe. See id. at p. 11. This
exercise in “speciﬁc” versus “general” statutory construction is unpersuasive. The fact remains that the
Restoration Act speaks directly to gaming by the Tribe.
See 25 U.S.C.S. § 737(a) (LexisNexis 2010 & Supp.
2017). The Fifth Circuit determined that the Restoration Act’s provisions on gaming apply to Restoration
Act tribes—including the Alabama-Coushatta—and
concluded that it, not IGRA governs gaming by the
Tribe. See [Ysleta] I, at 1336. It continues to uphold
this determination as the tribes present new challenges to the prohibition on gaming. See, e.g., id.; Tex.
v. [Ysleta] del Sur Pueblo, 69 F. App’x 659 (5th Cir.),
cert. denied, 540 U.S. 985 (2003); Tex. v. [Ysleta] del Sur
Pueblo, 431 F. App’x 326 (5th Cir. 2011); Alabama
Coushatta Tribe of Tex. v. Tex., 66 F. App’x 525 (5th
Cir.), cert. denied 540 U.S. 882 (2003).
The City of Arlington analysis does not require
a different conclusion, as argued by the Tribe. City of

App. 47
Arlington speaks to the scope of an agency’s delegated
statutory authority and its application of that authority. See City of Arlington, 569 U.S. at 300. It further
stands for the proposition that “Chevron [deference]
applies to cases in which an agency adopts a construction of a jurisdictional provision of a statute it administers.” Id. at 301. Judge Cardone’s analysis did not
run afoul of this deference because she rightly considered the issue of NIGC’s authority—or lack thereof—
under the Restoration Act, not IGRA, from which it derives its statutory authority. The Court concludes that
the City of Arlington in fact supports both Judge Cardone’s decision and the conclusion that the undersigned must reach herein. City of Arlington dealt with
a federal agency—the FCC—which relied on its broad
authority to implement the Communications Act when
it issued a Declaratory Ruling setting a 90 day period
for state and local governments to process applications
for wireless facilities. Id. at 294-95. In that case, the
Communications Act speciﬁcally empowered the FCC
with broad authority to prescribe rules and regulations
to carry out the provisions of the Communications Act.
See id. at 293; 47 U.S.C.A. § 201 (Westlaw through Pub.
L. No. 115-90). No such provision delegating this broad
authority to IGRA is available in the Restoration
Act, and the law remains that the Restoration Act, not
IGRA, applies to the Tribe. For these reasons, the
Court overrules the Tribe’s reliance on City of Arlington for the proposition that it somehow “rejected” the
governing law in this case.

App. 48
The Tribe relatedly argues that the NIGC’s opinion regarding the Tribe’s gaming ordinance, along with
City of Arlington and Brand X,13 constitute a change in
controlling law which would support the Court (1) giving deference to the NIGC decision and (2) dissolving
the 2002 injunction. Again, this line of reasoning is
ﬂawed because it presumes that the NIGC has the authority to interpret the Restoration Act in the ﬁrst
place, which it does not. The Tribe has not established
that Congress intended for the NIGC to interpret the
Restoration Act or promulgate regulations pursuant to
the Restoration Act. As discussed above, the NIGC’s
authority ﬂows from IGRA, not the Restoration Act.
(D) The Fifth Circuit’s Decision in [Ysleta] I:
Binding Precedent
Finally, the Court also agrees with Judge Cardone
in concluding that the undersigned is bound by the
Fifth Circuit’s decision in [Ysleta] I. See Texas v. [Ysleta]
del Sur Pueblo, at *14. As noted herein, in Ysleta I, the
Fifth Circuit analyzed the interplay between the Restoration Act and IGRA, as applied to the Pueblo Tribe.
[Ysleta] I, 36 F.3d at 1332-37. The court examined the
13

See Nat’l Cable & Telecommunications Ass’n v. Brand X
Internet Svcs., 545 U.S. 967 (2005). Brand X is distinguishable
for the same reasons as City of Arlington. In Brand X, the Supreme Court was also considering an FCC interpretation of the
Communications Act of 1934 and the Telecommunications Act of
1996, the very statutes from which its authority ﬂows. See Brand
X, 545 U.S. at 975-76, 983. Again, this is inapplicable to this case
because the NIGC’s authority does not ﬂow from the Restoration
Act, the governing statute.

App. 49
text and legislative histories of both acts, and concluded that the Restoration Act, and not IGRA, “would
govern the determination of whether gaming activities
proposed by the Ysleta del Sur Pueblo are allowed under Texas law, which functions as surrogate federal
law.” Id. at 1335. In reaching this conclusion, the Fifth
Circuit found that Congress had spoken to the issue of
whether the Restoration Act or IGRA governs gaming
on the Tribe’s reservation because IGRA did not impliedly repeal the Restoration Act, and because the two
statutes establish “fundamentally different regimes.”
See id. at 1334-35. The Fifth Circuit explained:
“With regard to gaming, the Restoration Act
clearly is a speciﬁc statute, whereas IGRA is
a general one. The former applies to two speciﬁcally named Indian tribes located in one
particular state, and the latter applies to all
tribes nationwide. Congress, when enacting
IGRA less than one year after the Restoration
Act, explicitly stated in two separate provisions of IGRA that IGRA should be considered
in light of other federal law. Congress never
indicated in IGRA that it was expressly repealing the Restoration Act. Congress also did not
include in IGRA a blanket repealer clause as
to other laws in conﬂict with IGRA. Finally,
we note that in 1993, Congress expressly
stated that IGRA is not applicable to one Indian tribe in South Carolina, evidencing in
our view a clear intention on Congress’ part
that IGRA is not to be the one and only statute addressing the subject of gaming on Indian lands.
Id. at 1335 (footnotes omitted; emphasis added).

App. 50
Thus, the Fifth Circuit identiﬁed a congressional
intent that IGRA did not repeal the Restoration Act
and that therefore the Restoration Act—and not
IGRA—applies to the Tribe’s gaming activity. Texas v.
[Ysleta] del Sur Pueblo, at *14 (citing [Ysleta] I, at 133435). This Court is bound by Fifth Circuit precedent on
this issue and, therefore, is not inclined to hold otherwise. See id. See also Law v. Hunt Co., Tex., 830 F.
Supp. 2d 211, 216 (N.D. Tex. 2011) (“this court will not
deviate from Fifth Circuit precedent unless there are
clear legal grounds to do so.”)14 Accordingly, the Restoration Act, and not IGRA, applies in this case. See id.
Texas law governing gaming, speciﬁcally the Texas Penal Code, accordingly applies to the Tribe’s gaming operations on its lands.

14

In its briefs, the Tribe cites a number of decisions from
other Circuits in support of the NIGC’s opinion and its applicability here. See, e.g., Commonwealth of Mass. v. Wampanoag Tribe
of Gay Head (Aquinnah), 853 F.3d 618 (1st Cir. 2017), cert. denied
___ S. Ct. ___, 2018 WL 311322 (Jan. 8, 2018); State of Rhode Island v. Narragansett Indian Tribe, 19 F.3d 685 (1st Cir. 1994),
cert. denied 513 U.S. 919 (1994); City of Duluth v. Fond du Lac
Band of Lake Superior Chippewa, 702 F.3d 1147 (8th Cir. 2013);
Gaming Corp. of Am. v. Dorsey & Whitney, 88 F.3d 536 (8th Cir.
1996). Although those opinions may bolster the Tribe’s position,
they are insufﬁcient to support a deviation from standing Fifth
Circuit precedent without clear legal grounds to do so. See, e.g.,
Law, 830 F. Supp. 2d at 216. Until the Fifth Circuit reverses itself or the Supreme Court clearly holds to the contrary, this Court
must follow and apply the Fifth Circuit’s determinations set forth
in [Ysleta] I.

App. 51
III. Concluding Statements and Order of the
Court
Given the complex history of this matter and its
importance to the Tribe, the undersigned must take
the time to express the Court’s understanding and
sympathy for the Tribe’s position. The Tribe is bearing
the brunt of a conﬂicting statutory scheme, the result
of which is arguably undesirable to its interests and,
many would say, unjust. Counsel for both sides have
done a thorough and excellent job in advocating for
their clients and presenting the best case possible, especially given the context and the complicated historical, legal, social and economic issues at stake. The fact
remains, however, that the Tribe submitted itself to the
gaming laws of the State when it certiﬁed Tribal Resolution No. T.C.-86-07 in exchange for passage of the
Restoration Act. This may have indeed taken effect
under duress, but that issue is not up for consideration
by this Court thirty years after the fact. The plain language of the Restoration Act stands, as does the Fifth
Circuit’s undisturbed interpretation of the application
of that Act to the restoration tribes of Texas. Until
Congress can be persuaded to amend or repeal the Restoration Act, the Court is obligated to abide by the
plain language of the statute and the Tribe must conform to the gaming laws and regulations of Texas as
provided by the Restoration Act. See Tex. v. [Ysleta] del
Sur Pueblo, 431 F. App’x 326, 327 (5th Cir. 2011) (per
curiam), citing [Ysleta] I, at 1335.

App. 52
Based on the ﬁndings legal conclusions stated
herein, the Court therefore ORDERS as follows:
- the State of Texas’ Amended First Motion for
Contempt for Violation of the June 25, 2002, Injunction,
and Alternatively for Equitable Declaratory and Injunctive Relief (doc. #74) and Motion for Summary Judgment of Contempt and to Enforce the Court’s June 25,
2002, Permanent Injunction (doc. #96) are GRANTED
IN PART. Those motions are granted with respect to
the State’s request for a declaration from the Court
that the Restoration Act and, consequently, Texas law,
applies to the Tribe’s gaming activities. At this time,
the Court defers ruling on the State’s other requests
for relief regarding contempt ﬁndings and damages.
The Court further ORDERS that the Tribe’s Motion for Relief from Judgment (doc. #76) and Motion for
Partial Summary Judgment (doc. #99) are DENIED.
Having concluded that the Restoration Act applies, the Court ﬁnds it unnecessary to reach the question of whether the activities conducted at Naskila
constitute Class II or Class III gaming under IGRA at
this juncture. To the extent that the parties’ motions
seek relief on this issue, that relief is denied as moot,
without prejudice to reassert. As indicated above, the
Court further defers any ﬁnding on the State’s contempt allegations and corresponding request for damages and fees until after conducting a hearing and
making proper evidentiary ﬁndings.

App. 53
It is so ordered.
SIGNED this the 6th day of February,
2018.
/s/ Keith F. Giblin
KEITH F. GIBLIN
UNITED STATES
MAGISTRATE JUDGE

App. 54
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-40116
-----------------------------------------------------------------------

STATE OF TEXAS,
Plaintiff–Appellee,
versus
ALABAMA-COUSHATTA TRIBE OF TEXAS,
Defendant–Appellant.
----------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Texas
----------------------------------------------------------------------------------------------------------

ON PETITION FOR REHEARING EN BANC
(Filed May 24, 2019)
(Opinion 918 F.3d 440 (Mar. 14, 2019))
Before SMITH, DUNCAN, and ENGELHARDT, Circuit Judges.
PER CURIAM:
Treating the petition for rehearing en banc as a
petition for panel rehearing, the petition for panel rehearing is DENIED. No judge in regular active service
having requested that the court be polled on rehearing

App. 55
en banc (FED. R. APP. P. 35 and 5TH CIR. R. 35), the petition for rehearing en banc is DENIED.*
ENTERED FOR THE COURT:
/s/ Jerry E. Smith
JERRY E. SMITH
United States Circuit Judge

* Judge Ho is recused and did not participate in the consideration of the petition for rehearing en banc.

App. 56
101 STAT. 666
PUBLIC LAW 100-89—AUG. 18, 1987
Public Law 100–89
100th Congress
An Act
To provide for the restoration of the Federal trust relationship and Federal services and assistance to
the Ysleta del Sur Pueblo and the Alabama and
Coushatta Indian Tribes of Texas, and for other
purposes,
Be it enacted by the Senate and House of Representatives of the United States of America in Congress
assembled,
SECTION 1. SHORT TITLE.
This Act may be cited as the “Ysleta del Sur Pueblo
and Alabama and Coushatta Indian Tribes of Texas
Restoration Act”.
SEC. 2. REGULATIONS.
The Secretary of the Interior or his designated
representative may promulgate such regulations as
may be necessary to carry out the provisions of this
Act.

App. 57
TITLE I—YSLETA DEL
SUR PUEBLO RESTORATION
SEC. 101. DEFINITIONS.
For purposes of this title—
(1) the term “tribe” means the Ysleta del Sur
Pueblo (as so designated by section 102);
(2) the term “Secretary” means the Secretary of the Interior or his designated representative;
(3) the term “reservation” means lands within
El Paso and Hudspeth Counties, Texas—
(A) held by the tribe on the date of the
enactment of this title;
(B) held in trust by the State or by the
Texas Indian Commission for the beneﬁt of
the tribe on such date;
(C) held in trust for the beneﬁt of the
tribe by the Secretary under section 105(g)(2);
and
(D) subsequently acquired and held in
trust by the Secretary for the beneﬁt of the
tribe.
(4)
Texas;

the term “State” means the State of

(5) the term “Tribal Council” means the governing body of the tribe as recognized by the Texas
Indian Commission on the date of enactment of
this Act, and such tribal council’s successors; and

App. 58
(6) the term “Tiwa Indians Act” means the
Act entitled “An Act relating to the Tiwa Indians
of Texas.” and approved April 12, 1968 (82 Stat.
93).
SEC. 102. REDESIGNATION OF TRIBE.
The Indians designated as the Tiwa Indians of
Ysleta, Texas, by the Tiwa Indians Act shall, on and after the date of the enactment of this title, be known
and designated as the Ysleta del Sur Pueblo. Any reference in any law, map, regulation, document, record,
or other paper of the United States to the Tiwa Indians
of Ysleta, Texas, shall be deemed to be a reference to
the Ysleta del Sur Pueblo.
SEC. 103. RESTORATION OF THE FEDERAL TRUST
RELATIONSHIP; FEDERAL SERVICES AND ASSISTANCE.
(a) FEDERAL TRUST RELATIONSHIP.—The Federal
trust relationship between the United States and the
tribe is hereby restored. The Act of June 18, 1934 (48
Stat. 984), as amended, and all laws and rules of law of
the United States of general application to Indians, to
nations, tribes, or bands of Indians, or to Indian reservations which are not inconsistent with any speciﬁc
provision contained in this title shall apply to the
members of the tribe, the tribe, and the reservation.
(b) RESTORATION OF RIGHTS AND PRIVILEGES.—All
rights and privileges of the tribe and members of
the tribe under any Federal treaty, statute, Executive

App. 59
order, agreement, or under any other authority of the
United States which may have been diminished or lost
under the Tiwa Indians Act are hereby restored.
(c) FEDERAL SERVICES AND BENEFITS.—Notwithstanding any other provision of law, the tribe and the
members of the tribe shall be eligible, on and after
the date of the enactment of this title, for all beneﬁts
and services furnished to federally recognized Indian
tribes.
(d)

EFFECT ON PROPERTY RIGHTS AND OTHER OBLIas otherwise speciﬁcally provided in
this title, the enactment of this title shall not affect any
property right or obligation or any contractual right or
obligation in existence before the date of the enactment of this title or any obligation for taxes levied before such date.

GATIONS.—Except

SEC. 104. STATE AND TRIBAL AUTHORITY.
(a) STATE AUTHORITY.—Nothing in this Act shall
affect the power of the State of Texas to enact special
legislation beneﬁting the tribe, and the State is authorized to perform any services beneﬁting the tribe that
are not inconsistent with the provisions of this Act.
(b) TRIBAL AUTHORITY.—The Tribal Council shall
represent the tribe and its members in the implementation of this title and shall have full authority and capacity—

App. 60
(1) to enter into contracts, grant agreements,
and other arrangements with any Federal department or agency, and
(2) to administer or operate any program or
activity under or in connection with any such contract, agreement, or arrangement, to enter into
subcontracts or award grants to provide for the administration of any such program or activity, or to
conduct any other activity under or in connection
with any such contract, agreement, or arrangement.
SEC. 105. PROVISIONS RELATING TO TRIBAL
RESERVATION.
(a) FEDERAL RESERVATION ESTABLISHED.—The reservation is hereby declared to be a Federal Indian reservation for the use and beneﬁt of the tribe without
regard to whether legal title to such lands is held in
trust by the Secretary.
(b) CONVEYANCE
tary shall—

OF

LAND

BY

STATE.—The Secre-

(1) accept any offer from the State to convey
title to any land within the reservation held in
trust, on the date of enactment of this Act by the
State or by the Texas Indian Commission for the
beneﬁt of the tribe to the Secretary, and
(2) hold such title, upon conveyance by the
State, in trust for the beneﬁt of the tribe.
(c) CONVEYANCE OF LAND BY TRIBE.—At the written request of the Tribal Council, the Secretary shall—

App. 61
(1) accept conveyance by the tribe of title to
any land within the reservation held by the tribe
on the date of enactment of this Act to the Secretary, and
(2) hold such title, upon such conveyance by
the tribe, in trust for the beneﬁt of the tribe.
(d) APPROVAL OF DEED BY ATTORNEY GENERAL.—
Notwithstanding any other provision of law or regulation, the Attorney General of the United States shall
approve any deed or other instrument which conveys
title to land within El Paso or Hudspeth Counties,
Texas, to the United States to be held in trust by the
Secretary for the beneﬁt of the tribe.
(e) PERMANENT IMPROVEMENTS AUTHORIZED.—Notwithstanding any other provision of law or rule of law,
the Secretary or the tribe may erect permanent improvements, improvements of substantial value, or any
other improvement authorized by law on the reservation without regard to whether legal title to such lands
has been conveyed to the Secretary by the State or the
tribe.
(f )

CIVIL AND CRIMINAL JURISDICTION WITHIN RESERVATION.—The State shall exercise civil and criminal
jurisdiction within the boundaries of the reservation
as if such State had assumed such jurisdiction with the
consent of the tribe under sections 401 and 402 of the
Act entitled “An Act to prescribe penalties for certain
acts of violence or intimidation, and for other purposes[,]” and approved April 11, 1968 (25 U.S.C. 1321,
1322).

App. 62
(g)

ACQUISITION OF LAND BY THE TRIBE AFTER ENACTMENT—
(1) Notwithstanding any other provision of
law, the Tribal Council may, on behalf of the
tribe—
(A) acquire land located within El Paso
County, or Hudspeth County, Texas, after the
date of enactment of this Act and take title to
such land in fee simple, and
(B) lease, sell, or otherwise dispose of
such land in the same manner in which a private person may do so under the laws of the
State.
(2) At the written request of the Tribal.
Council, the Secretary may—
(A) accept conveyance to the Secretary
by the Tribal Council (on behalf of the tribe)
of title to any land located within El Paso
County, or Hudspeth County, Texas, that is acquired by the Tribal Council in fee simple after the date of enactment of this Act, and
(B) hold such title, upon such conveyance by the Tribal Council, in trust for the
beneﬁt of the tribe.
SEC. 106. TIWA INDIANS ACT REPEALED.
The Tiwa Indians Act is hereby repealed.

App. 63
SEC. 107. GAMING ACTIVITIES.
(a) IN GENERAL.—All gaming activities which are
prohibited by the laws of the State of Texas are hereby
prohibited on the reservation and on lands of the tribe.
Any violation of the prohibition provided in this subsection shall be subject to the same civil and criminal
penalties that are provided by the laws of the State of
Texas. The provisions of this subsection are enacted in
accordance with the tribe’s request in Tribal Resolution No. T.C.-02-86 which was approved and certiﬁed
on March 12, 1986.
(b) NO STATE REGULATORY JURISDICTION.—Nothing in this section shall be construed as a grant of civil
or criminal regulatory jurisdiction to the State of
Texas.
(c) JURISDICTION OVER ENFORCEMENT AGAINST MEMBERS.—Notwithstanding section 105(f), the courts of
the United States shall have exclusive jurisdiction
over any offense in violation of subsection (a) that is
committed by the tribe, or by any member of the tribe,
on the reservation or on lands of the tribe. However,
nothing in this section shall be construed as precluding
the State of Texas from bringing an action in the courts
of the United States to enjoin violations of the provisions of this section.
SEC. 108. TRIBAL MEMBERSHIP.
(a) IN GENERAL.—The membership of the tribe
shall consist of—

App. 64
(1) the individuals listed on the Tribal Membership Roll approved by the tribe’s Resolution No.
TC-5-84 approved December 18, 1984, and approved by the Texas Indian Commission’s Resolution No. TIC-85-005 adopted on January 16, 1985;
and
(2) a descendant of an individual listed on
that Roll if the descendant—
(i) has 1/8 degree or more of TiguaYsleta del Sur Pueblo Indian blood, and
(ii)

is enrolled by the tribe.

(b) REMOVAL FROM TRIBAL ROLL.—Notwithstanding subsection (a)—
(1) the tribe may remove an individual from
tribal membership if it determines that the individual’s enrollment was improper; and
(2) the Secretary, in consultation with the
tribe, may review the Tribal Membership Roll.
TITLE II—ALABAMA AND COUSHATTA
INDIAN TRIBES OF TEXAS
SEC. 201. DEFINITIONS.
For purposes of this title—
(1) the term “tribe” means the Alabama and
Coushatta Indian Tribes of Texas (considered as one
tribe in accordance with section 202);
(2) the term “Secretary” means the Secretary of
the Interior or his designated representative;

App. 65
(3) the term “reservation” means the Alabama
and Coushatta Indian Reservation in Polk County,
Texas, comprised of—
(A) the lands and other natural resources
conveyed to the State of Texas by the Secretary
pursuant to the provisions of section 1 of the Act
entitled “An Act to provide for the termination of
Federal supervision over the property of the Alabama and Coushatta Tribes of Indians of Texas,
and the individual members thereof; and for other
purposes.” and approved August 23, 1954 (25
U.S.C. 721);
(B) the lands and other natural resources
purchased for and deeded to the Alabama Indians
in accordance with an act of the legislature of the
State of Texas approved February 3, 1854; and
(C) lands subsequently acquired and held in
trust by the Secretary for the beneﬁt of the tribe;
(4)

the term “State” means the State of Texas;

(5) the term “constitution and bylaws” means
the constitution and bylaws of the tribe which were
adopted on June 16, 1971; and
(6) the term “Tribal Council” means the governing body of the tribe under the constitution and bylaws.

App. 66
SEC. 202. ALABAMA AND COUSHATTA INDIAN
TRIBES OF TEXAS CONSIDERED AS ONE
TRIBE.
The Alabama and Coushatta Indian Tribes of
Texas shall be considered as one tribal unit for purposes of this title and any other law or rule of law of
the United States.
SEC. 203. RESTORATION OF THE FEDERAL TRUST
RELATIONSHIP: FEDERAL SERVICES AND ASSISTANCE.
(a) FEDERAL TRUST RELATIONSHIP.—The Federal
recognition of the tribe and of the trust relationship
between the United States and the tribe is hereby
restored. The Act of June 18, 1934 (48 Stat. 984), as
amended, and all laws and rules of law of the United
States of general application to Indians, to nations,
tribes, or bands of Indians, or to Indian reservations
which are not inconsistent with any speciﬁc provision
contained in this title shall apply to the members of
the tribe, the tribe, and the reservation.
(b) RESTORATION OF RIGHTS AND PRIVILEGES.—All
rights and privileges of the tribe and members of the
tribe under any Federal treaty, Executive order, agreement, statute, or under any other authority of the
United States which may have been diminished or lost
under the Act entitled “An Act to provide for the termination of Federal supervision over the property of the
Alabama and Coushatta Tribes of Indians of Texas,
and the individual members thereof; and for other

App. 67
purposes” and approved August 23, 1954, are hereby
restored and such Act shall not apply to the tribe or to
members of the tribe after the date of the enactment of
this title.
(c) FEDERAL BENEFITS AND SERVICES.—Notwithstanding any other provision of law, the tribe and the
members of the tribe shall be eligible, on and after
the date of the enactment of this title, for all beneﬁts
and services furnished to federally recognized Indian
tribes.
EFFECT ON PROPERTY RIGHTS AND OTHER OBLIGATIONS.—Except as otherwise speciﬁcally provided in
this title, the enactment of this title shall not affect any
property right or obligation or any contractual right or
obligation in existence before the date of the enactment of this title or any obligation for taxes levied before such date.
(d)

SEC. 204. STATE AND TRIBAL AUTHORITY.
(a) STATE AUTHORITY.—Nothing in this Act shall
affect the power of the State of Texas to enact special
legislation benefitting the tribe, and the State is authorized to perform any services beneﬁtting the tribe that
are not inconsistent with the provisions of this Act.
(b)

CURRENT CONSTITUTION AND BYLAWS TO REMAIN IN EFFECT.—Subject to the provisions of section
203(a) of this Act, the constitution and bylaws of
the tribe on ﬁle with the Committee on Interior and
Insular Affairs is hereby declared to be approved for

App. 68
the purposes of section 16 of the Act of June 18, 1934
(48 Stat. 987; 25 U.S.C. 476) except that all reference
to the Texas Indian Commission shall be considered as
reference to the Secretary of the Interior.
(c)

AUTHORITY AND CAPACITY OF TRIBAL COUNprovision contained in this title shall affect
the power of the Tribal Council to take any action under the constitution and bylaws described in subsection (b). The Tribal Council shall represent the tribe
and its members in the implementation of this title
and shall have full authority and capacity—

CIL.—No

(1) to enter into contracts, grant agreements, and other arrangements with any Federal
department or agency;
(2) to administer or operate any program or
activity under or in connection with any such contract, agreement, or arrangement, to enter into
subcontracts or award grants to provide for the administration of any such program, or activity, or to
conduct any other activity under or in connection
with any such contract, agreement, or arrangement; and
(3) to bind any tribal governing body selected under any new constitution adopted in accordance with section 205 as the successor in
interest to the Tribal Council.
SEC. 205. ADOPTION OF NEW CONSTITUTION
AND BYLAWS.
Upon written request of the tribal council, the Secretary shall hold an election for the members of the

App. 69
tribe for the purpose of adopting a new constitution
and bylaws in accordance with section 16 of the Act of
June 18, 1934 (25 U.S.C. 476).
SEC 206. PROVISIONS RELATING TO TRIBAL
RESERVATION.
(a) FEDERAL RESERVATION ESTABLISHED.—The reservation is hereby declared to be a Federal Indian reservation for the use and beneﬁt of the tribe without
regard to whether legal title to such lands is held in
trust by the Secretary.
(b) CONVEYANCE
tary shall—

OF

LAND

BY

STATE.—The Secre-

(1) accept any offer from the State to convey
title to any lands held in trust by the State or the
Texas Indian Commission for the beneﬁt of the
tribe to the Secretary, and
(2) shall hold such title, upon conveyance by
the State, in trust for the beneﬁt of the tribe.
(c) CONVEYANCE OF LAND BY TRIBE.—At the written request of the Tribal Council, the Secretary shall—
(1) accept conveyance by the tribe of title to
any lands within the reservation which are held
by the tribe to the Secretary, and
(2) hold such title, upon such conveyance by
the tribe, in trust for the beneﬁt of the tribe.
(d) APPROVAL OF DEED BY ATTORNEY GENERAL.—
Notwithstanding any other provision of law or regulation, the Attorney General of the United States shall

App. 70
approve any deed or other instrument from the State
or the tribe which conveys title to lands within the reservation to the United States.
(e) PERMANENT IMPROVEMENTS AUTHORIZED.—Notwithstanding any other provision of law or rule of law,
the Secretary or the tribe may erect permanent improvements, improvements of substantial value, or any
other improvement authorized by law on the reservation without regard to whether legal title to such lands
has been conveyed to the Secretary by the State or the
tribe.
(f)

CIVIL AND CRIMINAL JURISDICTION WITHIN RESERVATION.—The State shall exercise civil and criminal
jurisdiction within the boundaries of the reservation
as if such State had assumed such jurisdiction with the
consent of the tribe under sections 401 and 402 of the
Act entitled “An Act to prescribe penalties for certain
acts of violence or intimidation, and for other purposes”
and approved April 11, 1968 (25 U.S.C. 1321, 1322).
SEC. 207. GAMING ACTIVITIES.
(a) IN GENERAL.—All gaming activities which are
prohibited by the laws of the State of Texas are hereby
prohibited on the reservation and on lands of the tribe.
Any violation of the prohibition provided in this subsection shall be subject to the same civil and criminal
penalties that are provided by the laws of the State of
Texas. The provisions of this subsection are enacted in
accordance with the tribe’s request in Tribal Resolution No. T.C.-86-07 which was approved and certiﬁed
on March 10, 1986.

App. 71
(b) NO STATE REGULATORY JURISDICTION.—Nothing in this section shall be construed as a grant of civil
or criminal regulatory jurisdiction to the State of Texas.
(c)

JURISDICTION OVER ENFORCEMENT AGAINST
MEMBERS.—Notwithstanding section 206(f ), the courts
of the United States shall have exclusive jurisdiction
over any offense in violation of subsection (a) that is
committed by the tribe, or by any member of the tribe,
on the reservation or on lands of the tribe. However,
nothing in this section shall be construed as precluding
the State of Texas from bringing an action in the courts
of the United States to enjoin violations of the provisions of this section.
Approved August 18, 1987.
------------------------------------------------------------------------------------------------------------------------------

LEGISLATIVE HISTORY—H.R. 318:
HOUSE REPORTS: No. 100-36
(Comm. on Interior and Insular Affairs).
SENATE REPORTS: No. 100-90
(Select Comm. on Indian Affairs).
CONGRESSIONAL RECORD, Vol. 133 (1987):
Apr. 21, considered and passed House.
July 23, considered and passed Senate, amended.
Aug. 3, House concurred in Senate amendments.

App. 72
Calendar No. 960
99TH CONGRESS }
2nd Session }

SENATE

{ REPORT
{ 99—470

PROVIDING FOR THE RESTORATION OF
FEDERAL RECOGNITION TO THE YSLETA
DEL SUR PUEBLO AND THE ALABAMA
AND COUSHATTA INDIAN TRIBES OF TEXAS,
AND FOR OTHER PURPOSES
-----------------------------------------------------------------------

SEPTEMBER 23 (legislative day, SEPTEMBER 15), 1986—
Ordered to be printed
-----------------------------------------------------------------------

Mr. ANDREWS, from the Select Committee on
Indian Affairs, submitted the following
REPORT
[To accompany H R 1344]
The Select Committee on Indian Affairs, to which
was referred the bill (H.R. 1344) providing for the restoration of Federal recognition to the Ysleta del Sur
Pueblo and the Alabama and Coushatta Indian Tribes
of Texas, and for other purposes, having considered the
same, reports favorably thereon with an amendment
and recommends that the bill as amended do pass.
The amendment is an amendment in the nature of
a substitute.

App. 73
PURPOSE

H.R. 1344 was introduced in the House of Representatives on February 28, 1985, by Congressman
Coleman of Texas. The purpose of H.R. 1344 is to restore Federal recognition or supervision to two Indian
tribes located within the State of Texas. By Act of August 23, 1954, the Federal trust relationship with the
Alabama and Coushatta Tribe was terminated with a
proviso authorizing the transfer of tribal lands to the
State of Texas. The lands so conveyed were to be held
in trust by the State of Texas for the beneﬁt of the
tribes or their members. By the Act of April 12, 1968,
legislation was enacted designating the descendants of
the Tiwa Indians living in El Paso, Texas, of the Ysleta
del Sur Pueblo, as Tiwa Indians of Ysleta, Texas, and
provided that the responsibility, if any, of the United
States for the said Indians was transferred to the State
of Texas
H.R. 1344 will restore Federal recognition to the
Alabama and Coushatta Indian Tribes as one tribal
unit for purposes of this Act, and provides for recognition and restoration of the Federal trust relationship
between the United States and the Tiwa Indians, with
the proviso that such Indian group shall henceforth be
known as the Ysleta del Sur Pueblo. The bill also provides for taking of tribal or individually-owned Indian
lands into trust, and provides for expansion of the Indian land base in consultation with the State. The
State shall exercise civil and criminal jurisdiction as if
the State had assumed jurisdiction with the consent of

App. 74
the tribes under the provisions of the Indian Civil
Rights Act of 1968 (25 U.S.C. 1321, 1322).
BACKGROUND

The Pueblo at Ysleta del Sur was established in
1680 following the Pueblo Indian revolt against the
Spanish[.] The revolt forced the Spanish to retreat
from Santa Fe to El Paso, and the Spanish forced a
large number of Tiwa Indians from Isleta Pueblo to accompany them. The Indians were settled at Ysleta del
Sur and in 1682 the mission church was built, which
still stands today. In 1751 Spain granted the land of
Ysleta Pueblo to its inhabitants as communal property,
measuring one league in all directions from the church
doors.
On May 9, 1871, the Texas legislature passed an
Act to incorporate the Town of Ysleta in El Paso
County, and through ensuing actions of the newly created town, nearly all of the 23,000 acres of the Ysleta
Spanish grant were patented to non-Indians. In May
of 1967 the Texas legislature enacted legislation which
authorized the State to accept a transfer of Federal
trust responsibilities to the Tigua Indian Tribe, and by
Act of April 12, 1968, Congress transferred to the State
the responsibility, if any, of the United States for the
said Indians.
Texas now holds a 100 acre reservation in trust for
the tribe and, through the Texas Indian Commission,
provides a superintendent, as well as administrative
and economic development funding for the tribe. A

App. 75
recent opinion of the Texas Attorney General has
thrown in doubt the continuation of this trust relationship between the State and tribe.
The Alabama-Coushattas are a state recognized
tribe of approximately 500 full blood Indians residing
on a 4,600 acre reservation near Livingston, Texas.
The State of Texas purchased lands in 1854 for a permanent home for the Alabama and Coushatta Indians
(in part because of the tribes assistance to Sam Houston in Texas’ war for independence) and since then the
State has stood in the role of trustee to the tribes. A
Federal trust relationship in 1928 when the United
States purchased additional reservation lands for the
tribe and, from 1928 to 1954, Texas and the United
States maintained a joint trust responsibility to the
tribe. The 1954 Act of Congress terminated the trust
relationship of the United States with the tribe, but
the relationship with the state continued.
In 1983 the Texas Attorney General issued an
Opinion (No. JM–17) in which he concluded that the
tribe’s trust relationship with the State violated the
Equal Rights Amendment to the State Constitution,
thus throwing in jeopardy the continued trust status
of the tribe’s lands and its continued funding from the
State.
LEGISLATIVE HISTORY

H.R. 1344 was introduced in the House by Congressman Coleman of Texas and was referred to the
Committee on Interior and Insular Affairs for

App. 76
consideration. The Committee held hearings on October 17, 1985; the bill was reported out of Committee on
December 15, 1985; and was passed by the House and
sent to the Senate on December 16, 1985.
H.R 1344 was referred to the Select Committee on
Indian Affairs for consideration. The Committee held
hearings on H.R 1344 on June 25, 1986. H.R 1344 was
considered by the Select Committee at a business
meeting on September 15, 1986, and was ordered reported out of Committee with an amendment in the
nature of a substitute.
COMMITTEE RECOMMENDATIONS
AND TABULATION OF VOTE

The Select Committee on Indian Affairs, in open
business session on September 15, 1986, with a
quorum present, by unanimous vote recommends the
Senate pass H.R. 1344, as amended in the nature of a
substitute.
COMMITTEE AMENDMENTS

The Committee recommends an amendment in
the nature of a substitute[.]
SECTION-BY-SECTION ANALYSIS

Section 1. This section cites this Act as the “Ysleta
del Sur Pueblo and Alabama and Coushatta Indian
Tribes of Texas Restoration Act”.

App. 77
Section 2. This section authorizes the Secretary of
the Interior to promulgate regulations to implement
this act.
Title I. Ysleta del Sur Pueblo Restoration
Section 101. This section deﬁnes certain terms for
the purpose of this bill.
Section 102. This section states that from now on,
the Tiwa Indians of Ysleta, Texas, shall be known as
the Ysleta del Sur Pueblo.
Section 103. This section restores Federal Recognition to the Ysleta del Sur Pueblo as an Indian tribe
and states that any rights of the tribe and its members
which may have been lost under the Tiwa Indian Act
is hereby restored. This Section also makes all beneﬁts
available to Federally recognized Indian tribes available to the Ysleta del Sur Pueblo. This section further
provides that nothing in this Act shall affect any property right or contractual obligation in existence before
the enactment of this Act.
Section 104. Subsection (a) provides that nothing
in this section shall affect the power of the State of
Texas to enact special legislation, and the State of
Texas is authorized to perform any services that would
beneﬁt the Tribe that are not inconsistent with the provisions of this Act.
Subsection (b) provides that the Tribal Council
shall represent the tribe in the implementation of this

App. 78
title and shall be legally entitled to enter into contracts
and administer programs for the Tribe.
Section 105. Subsection (a), (b) and (c) provide
that the reservation is hereby declared to be a Federal
Indian reservation and also provides that the Secretary shall accept any offer by the State to convey title
to any land within the reservation held in trust on the
date of enactment of this Act by the State for the beneﬁt of the tribe. The Secretary shall hold such land in
trust for the beneﬁt of the Tribe and take in trust any
land held by the tribe upon written request by the
tribe.
Subsection (d) provides that the United States Attorney General shall approve any deed from the State
or the tribe which conveys title to land within El Paso
or Hudspeth Counties, Texas to the United States to be
held in trust by the Secretary for the beneﬁt of the
tribe.
Subsection (e) provides that the Secretary shall be
able to erect permanent improvements on the land notwithstanding the fact that title to such land has not
been transferred to the Secretary by the State or the
tribe.
Subsection (f) provides that the State shall exercise civil and criminal jurisdiction within the boundaries of the reservation as if such State had assumed
jurisdiction with the consent of the tribe under the Act
of April 11, 1968.

App. 79
[Subsections] (g), (h), (i) and (j) of this section provides for the Secretary to negotiate with the tribe for
the proposal of a plan for the enlargement of the reservation. Upon approval of such plan by the tribe, the
Secretary shall submit such plan, in the form of proposed legislation, to the Congress. These subsections
also require consultation with local governments and
other interested parties before such plan is sent to
Congress[.]
Section 106. This section repeals the Tiwa Indian
Act.
Section 107. This section provides that gambling,
lottery or bingo as deﬁned by the laws and administrative regulations of the State of Texas is prohibited on
the tribe’s reservation and on tribal lands. The provisions of Section 107 are also applicable to any lands
acquired after the date of enactment of the Act and
without regard to whether such lands are located
within or outside of El Paso and Hudspeth Counties,
Texas, if they are taken into trust by the Secretary and
made a part of the tribe’s reservation[.] The prohibition contained in this section will also apply to any
lands outside the reservation which might be acquired
by the tribe or a member thereof and be taken into
trust. With regard to tribal lands not taken into trust
and therefore not made a part of the tribe’s reservation,
the laws and administrative regulations of the State of
Texas related to gaming, gambling, lottery or bingo
shall be applicable. This section also provides [penalties] for violations of these provisions[.] This section also
provides that nothing in this section shall be construed

App. 80
as a grant of civil regulatory jurisdiction to the State
of Texas[.] This provision is a restatement of the law
as provided in the Act of August 15, 1953 (67 Stat. 588,
P L. 83–280), as amended by the Act of April 11, 1968
(82 Stat. 77, P.L. 90–284), and should be read in the
context of the provisions of Section 105(f ).
Section 108. Provides that the tribe’s membership
shall consist of individuals listed on the Tribal Membership Roll approved by the tribe’s Resolution No.
TC–5–84 approved December 18, 1984, and approved
by the Texas Indian Commission’s Resolution No. TIC–
85–005 adopted on January 16, 1985; and a descendant
of an individual listed on that Roll if the said descendant (i) has 1/8 degree or more of Tigua-Ysleta del Sur
Pueblo Indian blood, and (ii) is enrolled by the tribe.
Subsection (b) allows the tribe to remove an individual
from tribal membership where such enrollment was
improper. Subsection (b) further provides that the Secretary, in consultation with the tribe, may review the
Tribal Membership Roll and if said Secretary so determines that an individual enrolled by the tribe does not
meet the criteria for membership set out in the tribe’s
Resolution No. TC–5–84, may, but only after affording
the individual or the tribe [an] administrative appeal,
declare such individual ineligible for Federal services
provided to Indians because of their status as Indians.
However, nothing in this section is intended to limit
the authority of the tribe to determine its membership
criteria or the eligibility or ineligibility of an individual
to membership in the tribe, for purposes other than eligibility for Federal Indian services.

App. 81
Title II: Alabama and Coushatta Indian Tribes of
Texas
Section 201. Deﬁnes certain terms for the purposes of the Act[.]
Section 202. Provides that the Alabama and
Coushatta Indian tribes shall be considered as one
tribal unit for the purposes of this title and any other
law.
Section 203. Provides that Federal recognition as
an Indian tribe is hereby restored to the tribe and all
rights which may have been lost under the August 23,
1954 Act which terminated the tribes are hereby restored.
This section further provides that the tribes and
its members shall be eligible to receive all beneﬁts provided to federally recognized Indian tribes[.] The section also provides that except as provided by this Act,
the enactment of this title shall not affect any property
or contractual rights in existence before the enactment
of this title.
Section 204. Subsection (a), provides that nothing
in this Act shall affect the power of the State of Texas
to enact special legislation which would beneﬁt the
tribe. Furthermore, the State of Texas is authorized to
perform any services for the beneﬁt of the tribe that
are not inconsistent with the provisions of this Act[.]
Subsection (b) provides that the current tribal constitution and bylaws of the tribe, on ﬁle with the Committee on Interior and Insular Affairs is hereby

App. 82
declared to have been approved pursuant to section 16
of the Act of June 18, 1934[.] In addition, all laws and
rules of law, speciﬁcally, the Act of April 11, 1968 (82
Stat 77) shall apply to members of the tribe, the tribe,
and the reservation.
Subsection (c) provides that the provisions of this
title shall not affect the powers of the Tribal Council.
This Council shall represent the tribe in the implementation of this title and shall have the power to enter
into contracts and administer tribal programs for the
tribe.
Section 205[.] Provides that upon written request
of the Tribal Council, the Secretary shall conduct an
election in accordance with section 16 of the Act of
June 18, 1934 for the purpose of adopting any new constitution and bylaws for the tribe.
Section 206. Provides that the reservation is
hereby declared to be a Federal Indian reservation for
the use and beneﬁt of the tribe without regard to
whether legal title to such lands is held in trust by the
Secretary. The Secretary is directed to accept any offer
from the State to convey title to any lands held in trust
by the State. The Secretary shall hold such land in
trust for the beneﬁt of the tribe.
The Secretary is also directed to take any land in
trust for the beneﬁt of the tribe which is held by the
tribe and located within the reservation.
This section also provides that the Attorney General of the United States shall approve any deed which

App. 83
conveys land from the State or the tribe of the United
States.
Lastly, this section provides that the State of Texas
shall exercise civil and criminal jurisdiction within the
boundaries of the reservation as if such State has assumed jurisdiction with the consent of the tribe under
the Act of April 11, 1968.
Section 207. This section provides that gaming,
gambling, lottery and bingo as deﬁned by the laws and
administrative regulations of the State of Texas is prohibited on the tribe’s reservation and on tribal lands.
The provisions of Section 207 are also applicable to any
lands acquired after the date of enactment of the Act
and without regard to whether such lands are located
within or outside of the reservation of Polk County,
Texas, if it is taken into trust by the Secretary and
made a part of the tribe’s reservation. The prohibition
contained in this section will also apply to any lands
outside the reservation which might be acquired by the
tribe or a member thereof and be taken into trust.
With regard to tribal lands not taken into trust and
therefore not made a part of the tribe’s reservation, the
laws and administrative regulations of the State of
Texas related to gaming, gambling, lottery or bingo
shall be applicable. This section also provides [penalties] for violation of these provisions. This section also
provides that nothing in the section shall be construed
as a grant of civil regulatory jurisdiction to the State
of Texas. This provision is a restatement of the law as
provided in the Act of August 15, 1953 (67 Stat. 588,
P.L. 83–280), as amended by the Act of April 11, 1968

App. 84
(82 Stat. 77, P.L. 90–284), and should be read in the
context of the provisions of Section 206(f ).
COST AND BUDGETARY CONSIDERATIONS

The cost estimate for H.R. 1344, as amended in the
nature of a substitute, as provided by the Congressional Budget Ofﬁce, is set forth below:
U.S. CONGRESS,
CONGRESSIONAL BUDGET OFFICE,
Washington, DC, September 16, 1986.
Hon. MARK ANDREWS,
Chairman, Select Committee on Indian Affairs, U.S.
Senate, Hart Senate Ofﬁce Building, Washington,
DC.
DEAR MR. CHAIRMAN: The Congressional Budget
Ofﬁce has reviewed H.R. 1344, the Ysleta del Sur
Pueblo and Alabama and Coushatta Indian Tribes of
Texas Restoration Act, as amended and ordered reported by the Senate Select Committee on Indian Affairs, September 15, 1986.
This bill would grant federal recognition to the Ysleta del Sur and the Alabama and Coushatta Indian
tribes. Although the bill does not speciﬁcally authorize
the appropriation of funds, it would make all members
of the tribes eligible for all services and beneﬁts available to federally recognized Indian tribes. Thus, while
no additional expenditures are mandated by the bill,
relevant federal agencies would be required to include
members of the tribes among those eligible for beneﬁts,

App. 85
and may seek additional funds in order to provide such
beneﬁts. The Bureau of Indian Affairs estimates that
the average annual cost of providing such services and
beneﬁts nationally is about $1,300 per eligible Indian.
If this average is applicable to the tribes recognized
under this bill, then the annual cost would be about $2
million.
If you wish further details on this estimate, we will
be pleased to provide them.
With best wishes,
Sincerely,
RUDOLPH G. PENNER, Director.
REGULATORY IMPACT STATEMENT

Paragraph 11(b) of rule XXVI of the Standing
Rules of the Senate requires each report accompanying
a bill to evaluate the regulatory and paperwork impact
that would be incurred in carrying out the bill. The
Committee believes that H.R. 1344, as amended, will
have a minimal impact on regulatory or paperwork requirements.
EXECUTIVE COMMUNICATIONS

The Committee has received the following Executive Communication regarding H.R. 1344.
U.S. DEPARTMENT OF THE INTERIOR,
OFFICE OF THE SECRETARY,
Washington, DC, August 29, 1986.

App. 86
Hon. MARK ANDREWS,
Chairman, Select Committee on Indian Affairs,
U.S. Senate, Washington, DC.
DEAR MR. CHAIRMAN: This is to present our views
on H.R. 1344, an act “To provide for the restoration of
Federal recognition to the Ysleta del Sur Pueblo and
the Alabama and Coushatta Indian Tribe of Texas, and
for other purposes.”
On October 17, 1985, we testiﬁed before the Committee on Interior and Insular Affairs in the House of
Representatives and recommended deferral of action
on H.R. 1344 pending our determination that the two
tribes meet existing criteria which would make them
eligible for Federal beneﬁts as tribes. Since that time,
additional information has been submitted to the Department and we do not now object to enactment of
H.R. 1344 provided that it is amended as described below.
H.R. 1344 would conﬁrm Federal recognition of
the Ysleta del Sur Pueblo and restore it to the Alabama
and Coushatta Indian Tribe of Texas. Since we view
the Federal relationship with the Ysleta del Sur Pueblo
as being very different than the Federal relationship
with the Alabama and Coushatta Tribe, this report will
address each title of the act independently.
Title I of H R. 1344 would conﬁrm Federal recognition of the Ysleta del Sur Pueblo including the trust
relationship between the United States and the tribe
and all their rights and privileges which were diminished or lost under the termination act. The tribe

App. 87
would be eligible for services extended to federally recognized Indian tribes. The State would continue to exercise civil and criminal jurisdiction in the reservation
and the State’s power to enact legislation beneﬁting
the tribe would not be affected. The existing tribal
council would have authority to enter into grant and
contract arrangements with Federal agencies and to
administer programs for the tribe. Land could be
taken in trust by the Secretary of the Interior (Secretary) for the beneﬁt of the tribe if located in El Paso or
Hudspeth Counties, Texas.
The Ysleta del Sur Pueblo (also known as the “Tiguas” or “Tiwas”) is a group of some 1,175 people who
live on a State reservation of approximately 100 acres
in El Paso County, Texas. Ancestors of these people
originally left the Ysleta Pueblo of New Mexico in 1680
following the Pueblo Indian revolt. The Federal Government has neither provided services to them as
Indians nor entered into a treaty or other governmentto-government arrangement. Therefore, our information regarding this group is largely based on the
legislative history of the Act of April 12, 1968 (Public
Law 90–287; 82 Stat. 93), which transferred the Federal responsibility for the tribe “if any” to the State of
Texas, and the information we have received from the
tribe and the Texas Indian Commission.
In our earlier statement we objected to the restoration of the Ysleta del Sur Pueblo because we viewed
H.R. 1344 as proposing to give this tribe a Federal status it never had. We further stated that the issue of
recognition would be best resolved by use of the

App. 88
existing Federal acknowledgment criteria under 25
CFR Part 83 that we use in determining whether any
group should be acknowledged as a federally recognized Indian tribe. Since that time, the tribe has submitted additional data. Based on our review of the
information submitted, it appears that the tribe meets
our mandatory criteria for Federal acknowledgment.
However, neither this documentation nor our evaluation of it has approached the level required of other Indian groups seeking Federal acknowledgment.
Although it continues to be our view that all
groups seeking initial eligibility for Federal beneﬁts as
an Indian tribe should complete our usual acknowledgment process, we would not object to enactment of an
amended Title I of H.R. 1344 because:
Of the unique circumstances involving the
1968 Act in which Congress stated that (A) the
tribe shall “be known and designated as Tiwa Indians of Ysleta, Texas”, (B) any Federal responsibility for them was transferred to the State of
Texas, and (C) that “none of the statutes of the
United States which affect Indians because of
their status as Indians shall be applicable to the
Tiwa Indians of Ysleta del Sur”, thereby precluding our acknowledgment of them under 25 CFR
Part 83;
The tribe’s relationship with the State of
Texas as a tribe for which the State has appropriated funds through that State’s Indian Affairs
Commission;

App. 89
The tribe’s acceptance as a Pueblo by the federally recognized Pueblos of New Mexico which
are among the most traditional of Indian tribes;
and
Our above-mentioned review of the information available to us at this time.
We have discussed with the tribe and the staff of
this Committee the need for some amendments to
meet our concerns regarding the tribe’s membership
criteria and the adoption of a constitution and bylaws.
For the ﬁrst time we are recommending a legislative
distinction between tribal membership and eligibility
for Federal services. We recommend that section 108
be amended to lock in the tribe’s current membership
requirements (which include a one-eighth degree descendancy requirement) as the basis for determining
tribal members to be Indians for purposes of Federal
law, including Federal Indian services and funding
purposes, but the tribe should remain able to change
its membership requirements in the future for tribal
purposes. The amendment should authorize the Secretary to review the tribal membership roll at any time
and, in consultation with the tribe, determine if a person is ineligible to be an Indian for purposes of Federal
law and Indian services, and those individuals determined ineligible are not to be counted by the tribe for
any formula funding purposes. The amendment
should not preclude the application to the tribe’s members of any additional requirements or restriction on
eligibility for Federal Indian beneﬁts that would otherwise be applicable.

App. 90
We realize this procedure is a departure from our
general policy of providing Federal services to federally
recognized Indians as determined by tribal membership, but we think that this solution meets our concern
of having to provide services to increasing numbers of
tribal members and still allows the tribe to determine
tribal membership. Moreover, we believe that the Congress should place some limit on the potential service
population of tribes being made eligible for Federal
beneﬁts for the ﬁrst time.
We would like to express our concern with the provision in Title I requiring the Secretary to submit a
plan for reservation enlargement, in the form of proposed legislation, to the Congress. The provision does
not indicate how any land acquisition would be ﬁnanced. We must emphasize that, in the current ﬁscal
climate, expenditures for land acquisition are an extremely low priority.
Title II of the act would restore Federal recognition to the Alabama and Coushatta Tribe including the
Federal trust relationship and all their rights and privileges which were diminished or lost under the termination act. The tribe would be eligible for services
extended to federally recognized tribes. The State
would continue to exercise civil and criminal jurisdiction in the reservation and the State’s power to enact
legislation beneﬁting the tribe would not be affected.
The tribe’s current constitution and bylaws would be
accepted by the Secretary and the tribal council would
have authority to represent the tribe and its members
in the implementation of H.R. 1344. If the tribal

App. 91
council requests an election to adopt a new constitution and bylaws, the Secretary would be required to
conduct the election[.] The tribe’s land may be taken
in trust by the Secretary for the beneﬁt of the tribe.
The tribe has some 500 members and a reservation of about 4,600 acres in Polk County, Texas. The
Federal trust responsibility was terminated under the
Act of August 23, 1954 (68 Stat. 768; 25 U.S.C. 721)
which transferred the trust duties from the Federal
Government to the State of Texas. Federal laws and
programs for Indians no longer applied to the tribe or
its members, except that its members were authorized
to attend the Bureau of Indian Affairs schools and go
to Indian Health Service hospitals. The tribe continued to operate under its approved constitution (with
amendments necessary because of the 1954 termination act) and until recently the State provided funds to
the tribe.
On March 22, 1983, the Attorney General of Texas
issued an opinion questioning the trust relationship
between the State and the Alabama and Coushatta
Tribe. The opinion held that as a result of the 1954
termination act, the tribe no longer exists and its lands
no longer constitute an Indian reservation. It is our
understanding that the tribe has received notice that
taxes are due on its land. It is apparent that the opinion impacts both tribes dealt with in H.R. 1344.
In our statement before the House of Representatives we said we needed more information to determine if the Alabama and Coushatta Tribe met the

App. 92
Administration’s restoration criteria.
We subsequently requested and received information from the
Texas Indian Commission which we ﬁnd veriﬁes that
the tribe does meet our restoration criteria.
We also had a concern about accepting the tribe’s
current constitution. By working with the tribe’s attorney and this Committee’s staff, we have agreed that
an amendment to H.R. 1344 providing that the tribe’s
constitution is subject to the Indian Civil Rights Act
and other applicable laws would meet this concern.
In conclusion, we do not object to enactment of
H.R. 1344 with the amendments described in this report.
The Ofﬁce of Management and Budget has advised that there is no objection to the presentation of
this report from the standpoint of the Administration’s
program.
Sincerely,
HAZEL E. ELBERT,
Acting Assistant Secretary.
CHANGES IN EXISTING LAW

In compliance with subsection 12 of rule XXIV of
the Standing Rules of the Senate, it is the opinion of
the Committee, that it is necessary to dispense with
the requirements of this subsection to expedite the
business of the Senate.

App. 93
Calendar No. 211
100TH CONGRESS }
1st Session }

SENATE

{
{

REPORT
100–90

TO PROVIDE FOR THE RESTORATION OF
FEDERAL RECOGNITION TO THE YSLETA
DEL SUR PUEBLO AND THE ALABAMA
AND COUSHATTA INDIAN TRIBES OF
TEXAS, AND FOR OTHER PURPOSES
-----------------------------------------------------------------------

JUNE 26 (legislative day, JUNE 23), 1987.—
Ordered to be printed
-----------------------------------------------------------------------

MR. INOUYE, from the Select Committee on
Indian Affairs, submitted the following
REPORT
[To accompany H.R. 318]
The Select Committee on Indian Affairs, to which
was referred the bill (H.R. 318) to provide for the restoration of Federal recognition to the Ysleta del Sur
Pueblo and the Alabama and Coushatta Indian Tribes
of Texas, and for other purposes, having considered the
same, reports favorably thereon with an amendment
and recommends that the bill (as amended) do pass.
The amendment is an amendment in the nature of
a substitute. The amendment is as follows:

App. 94
SECTION

1. SHORT TITLE.

This Act may be cited as the “Ysleta del Sur Pueblo
and Alabama and Coushatta Indian Tribes of Texas
Restoration Act”.
SEC.

2. REGULATIONS.

The Secretary of the Interior or his designated
representative may promulgate such regulations as
may be necessary to carry out the provisions of this
Act.
TITLE I—YSLETA DEL
SUR PUEBLO RESTORATION
SEC.

101.

DEFINITIONS.

For purposes of this title—
(1) the term “tribe” means the Ysleta del Sur
Pueblo (as so designated by section 102);
(2) the term “Secretary” means the Secretary of
the Interior or his designated representative;
(3) the term “reservation” means lands within El
Paso and Hudspeth Counties, Texas—
(A) held by the tribe on the date of the enactment of this title;
(B) held in trust by the State or by the Texas
Indian Commission for the beneﬁt of the tribe on
such date;

App. 95
(C) held in trust for the beneﬁt of the tribe
by the Secretary under section 105(g)(2); and
(D) subsequently acquired and held in trust
by the Secretary for the beneﬁt of the tribe.
(4)

the term “State” means the State of Texas;

(5) the term “Tribal Council” means the governing body of the tribe as recognized by the Texas Indian
Commission on the date of enactment of this Act, and
such tribal council’s successors; and
(6) the term “Tiwa Indians Act” means the Act
entitled “An Act relating to the Tiwa Indians of Texas.”
and approved April 12, 1968 (82 Stat. 93).
SEC.

102.

REDESIGNATION OF TRIBE.

The Indians designated as the Tiwa Indians of Ysleta, Texas, by the Tiwa Indians Act shall, on and after
the date of the enactment of this title, be known and
designated as the Ysleta del Sur Pueblo. Any reference
in any law, map, regulation, document, record, or other
paper of the United States to the Tiwa Indians of
Ysleta, Texas, shall be deemed to be a reference to the
Ysleta del Sur Pueblo.
SEC.

103. RESTORATION OF THE FEDERAL TRUST RELATIONSHIP: FEDERAL SERVICES AND ASSISTANCE.

(a) FEDERAL TRUST RELATIONSHIP.—The Federal trust relationship between the United States and
the tribe is hereby restored. The Act of June 18, 1934

App. 96
(48 Stat. 984), as amended, and all laws and rules of
law of the United States of general application to Indians, to nations, tribes, or bands of Indians, or to Indian
reservations which are not inconsistent with any speciﬁc provision contained in this title shall apply to the
members of the tribe, the tribe, and the reservation.
(b) RESTORATION OF RIGHTS AND PRIVILEGES.—
All rights and privileges of the tribe and members of
the tribe under any Federal treaty, statute, Executive
order, agreement, or under any other authority of the
United States which may have been diminished or lost
under the Tiwa Indians Act are hereby restored.
(c) FEDERAL SERVICES AND BENEFITS.—Notwithstanding any other provision of law, the tribe and
the members of the tribe shall be eligible, on and after
the date of the enactment of this title, for all beneﬁts
and services furnished to federally recognized Indian
tribes.
(d)

EFFECT ON PROPERTY RIGHTS AND OTHER
OBLIGATIONS.—Except as otherwise speciﬁcally provided in this title, the enactment of this title shall not
affect any property right or obligation or any contractual right or obligation in existence before the date of
the enactment of this title or any obligation for taxes
levied before such date.
SEC.

104.

STATE AND TRIBAL AUTHORITY.

(a) STATE AUTHORITY.—Nothing in this Act shall
affect the power of the State of Texas to enact special

App. 97
legislation beneﬁting the tribe, and the State is authorized to perform any services beneﬁting the tribe that
are not inconsistent with the provisions of this Act.
(b) TRIBAL AUTHORITY.—The Tribal Council
shall represent the tribe and its members in the implementation of this title and shall have full authority
and capacity—
(1) to enter into contracts, grant agreements, and other arrangements with any Federal
department or agency, and
(2) to administer or operate any program or
activity under or in connection with any such contract, agreement, or arrangement, to enter into
subcontracts or award grants to provide for the administration of any such program or activity, or to
conduct any other activity under or in connection
with any such contract, agreement, or arrangement.
SEC.

105.
TION.

PROVISIONS RELATING TO TRIBAL RESERVA-

(a) FEDERAL RESERVATION ESTABLISHED.—The
reservation is hereby declared to be a Federal Indian
reservation for the use and beneﬁt of the tribe without
regard to whether legal title to such lands is held in
trust by the Secretary.
(b) CONVEYANCE OF LAND BY STATE.—The Secretary shall—

App. 98
(1) accept any offer from the State to convey
title to any land within the reservation held in
trust on the date of enactment of this Act by the
State or by the Texas Indian Commission for the
beneﬁt of the tribe to the Secretary, and
(2) hold such title, upon conveyance by the
State, in trust for the beneﬁt of the tribe.
(c) CONVEYANCE OF LAND BY TRIBE.—At the
written request of the Tribal Council, the Secretary
shall—
(1) accept conveyance by the tribe of title to
any land within the reservation held by the tribe
on the date of enactment of this Act to the Secretary, and
(2) hold such title, upon such conveyance by
the tribe, in trust for the beneﬁt of the tribe.
(d)

APPROVAL

DEED BY ATTORNEY GENany other provision of law or
regulation, the Attorney General of the United States
shall approve any deed or other instrument which conveys title to land within El Paso or Hudspeth Counties,
Texas, to the United States to be held in trust by the
Secretary for the beneﬁt of the tribe.
OF

ERAL.—Notwithstanding

(e) PERMANENT IMPROVEMENTS AUTHORIZED.—
Notwithstanding any other provision of law or rule of
law, the Secretary or the tribe may erect permanent
improvements, improvements of substantial value, or
any other improvement authorized by law on the reservation without regard to whether legal title to such
lands has been conveyed to the Secretary by the State
or the tribe.

App. 99
(f)

CIVIL AND CRIMINAL JURISDICTION WITHIN
RESERVATION.—The State shall exercise civil and
criminal jurisdiction within the boundaries of the reservation as if such State had assumed such jurisdiction
with the consent of the tribe under sections 401
and 402 of the Act entitled “An Act to prescribe penalties for certain acts of violence or intimidation, and
for other purposes.” and approved April 11, 1968
(25 U.S.C. 1321, 1322).
(g) ACQUISITION
ENACTMENT.—

OF

LAND

BY THE

TRIBE AFTER

(1) Notwithstanding any other provision of
law, the Tribal Council may, on behalf of the
tribe—
(A) acquire land located within El Paso
County, or Hudspeth County, Texas, after the
date of enactment of this Act and take title to
such land in fee simple, and
(B) lease, sell, or otherwise dispose of
such land in the same manner in which a private person may do so under the laws of the
State.
(2) At the written request of the Tribal
Council, the Secretary may—
(A) accept conveyance to the Secretary
by the Tribal Council (on behalf of the tribe)
of title to any land located within El Paso
County, or Hudspeth County, Texas, that is acquired by the Tribal Council in fee simple after the date of enactment of this Act, and

App. 100
(B) hold such title, upon such conveyance by
the Tribal Council, in trust for the beneﬁt of
the tribe.
SEC.

106.

TIWA INDIANS ACT REPEALED.

The Tiwa Indians Act is hereby repealed.
SEC.

107.

GAMING ACTIVITIES.

(a) IN GENERAL.—All gaming activities which
are prohibited by the laws of the State of Texas are
hereby prohibited on the reservation and on lands of
the tribe. Any violation of the prohibition provided in
this subsection shall be subject to the same civil and
criminal penalties that are provided by the laws of the
State of Texas. The provisions of this subsection are
enacted in accordance with the tribe’s request in Tribal
Resolution No. T.C.–02–86 which was approved and
certiﬁed on March 12, 1986.
(b) NO STATE REGULATORY JURISDICTION.—
Nothing in this section shall be construed as a grant of
civil or criminal regulatory jurisdiction to the State of
Texas.
(c) JURISDICTION OVER ENFORCEMENT AGAINST
MEMBERS.—Notwithstanding section 105(f), the courts
of the United States shall have exclusive jurisdiction
over any offense in violation of subsection (a) that is
committed by the tribe, or by any member of the tribe,
on the reservation or on lands of the tribe. However,
nothing in this section shall be construed as precluding

App. 101
the State of Texas from bringing an action in the courts
of the United States to enjoin violations of the provisions of this section.
SEC.

108.

TRIBAL MEMBERSHIP.

(a) IN GENERAL.—The membership of the tribe
shall consist of—
(1) the individuals listed on the Tribal Membership Roll approved by the tribe’s Resolution
No. TC–5–84 approved December 18, 1984, and
approved by the Texas Indian Commission’s Resolution No. TIC–85–005 adopted on January 16,
1985; and
(2) a descendant of an individual listed on that
Roll if the descendant—
(i) has 1/8 degree or more of Tigua-Ysleta del
Sur Pueblo Indian blood, and
(ii)

is enrolled by the tribe.

(b) REMOVAL FROM TRIBAL ROLL.—Notwithstanding subsection (a)—
(1) the tribe may remove an individual from
tribal membership if it determines that the individual’s enrollment was improper; and
(2) the Secretary, in consultation with the
tribe, may review the Tribal Membership Roll.

App. 102
TITLE II—ALABAMA AND
COUSHATTA INDIAN TRIBES OF TEXAS
SEC.

201.

DEFINITIONS.

For purposes of this title—
(1) the term “tribe” means the Alabama and
Coushatta Indian Tribes of Texas (considered as
one tribe in accordance with section 202);
(2) the term “Secretary” means the Secretary of the Interior or his designated representative;
(3) the term “reservation” means the Alabama and Coushatta Indian Reservation in Polk
County, Texas, comprised of—
(A) the lands and other natural resources conveyed to the State of Texas by the
Secretary pursuant to the provisions of section 1 of the Act entitled “An Act to provide for
the termination of Federal supervision over
the property of the Alabama and Coushatta
Tribes of Indians of Texas, and the individual
members thereof; and for other purposes.”
and approved August 23, 1954 (25 U.S.C. 721);
(B) the lands and other natural resources purchased for and deeded to the Alabama Indians in accordance with an act of the
legislature of the State of Texas approved February 3, 1854; and
(C) lands subsequently acquired and
held in trust by the Secretary for the beneﬁt
of the tribe;

App. 103
(4)
Texas;

the term “State” means the State of

(5) the term “constitution and bylaws”
means the constitution and bylaws of the tribe
which were adopted on June 16, 1971; and
(6) the term “Tribal Council” means the governing body of the tribe under the constitution and
bylaws.
SEC.

202. ALABAMA AND COUSHATTA INDIAN TRIBES OF
TEXAS CONSIDERED AS ONE TRIBE.
The Alabama and Coushatta Indian Tribes of
Texas shall be considered as one tribal unit for purposes of this title and any other law or rule of law of
the United States.
SEC.

203. RESTORATION OF THE FEDERAL TRUST RELA-

TIONSHIP; FEDERAL SERVICES AND ASSISTANCE.

(a) FEDERAL TRUST RELATIONSHIP.—The Federal recognition of the tribe and of the trust relationship between the United States and the tribe is hereby
restored. The Act of June 18, 1934 (48 Stat. 984), as
amended, and all laws and rules of law of the United
States of general application to Indians, to nations,
tribes, or bands of Indians, or to Indian reservations
which are not inconsistent with any speciﬁc provision
contained in this title shall apply to the members of
the tribe, the tribe, and the reservation.

App. 104
(b) RESTORATION OF RIGHTS AND PRIVILEGES.—
All rights and privileges of the tribe and members of
the tribe under any Federal treaty, Executive order,
agreement, statute, or under any other authority of the
United States which may have been diminished or lost
under the Act entitled “An Act to provide for the termination of Federal supervision over the property of the
Alabama and Coushatta Tribes of Indians of Texas,
and the individual members thereof; and for other purposes” and approved August 23, 1954, are hereby restored and such Act shall not apply to the tribe or to
members of the tribe after the date of the enactment of
this title.
(c) FEDERAL BENEFITS AND SERVICES.—Notwithstanding any other provision of law, the tribe and
the members of the tribe shall be eligible, on and after
the date of the enactment of this title, for all beneﬁts
and services furnished to federally recognized Indian
tribes.
(d)

EFFECT ON PROPERTY RIGHTS AND OTHER
OBLIGATIONS.—Except as otherwise speciﬁcally provided in this title, the enactment of this title shall not
affect any property right or obligation or any contractual right or obligation in existence before the date of
the enactment of this title or any obligation for taxes
levied before such date.
SEC.

204.

STATE AND TRIBAL AUTHORITY.

(a) STATE AUTHORITY.—Nothing in this Act shall
affect the power of the State of Texas to enact special

App. 105
legislation beneﬁtting the tribe, and the State is authorized to perform any services beneﬁtting the tribe
that are not inconsistent with the provisions of this
Act.
(b)

CURRENT CONSTITUTION AND BYLAWS TO REMAIN IN EFFECT.—Subject to the provisions of section
203(a) of this Act, the constitution and by laws of the
tribe on ﬁle with the Committee on Interior and Insular Affairs is hereby declared to be approved for the
purposes of section 16 of the Act of June 18, 1934
(48 Stat. 987; 25 U.S.C. 476) except that all reference
to the Texas Indian Commission shall be considered as
reference to the Secretary of the Interior.
(c) AUTHORITY AND CAPACITY OF TRIBAL COUNCIL.—No provision contained in this title shall affect
the power of the Tribal Council to take any action under the constitution and bylaws described in subsection (b). The Tribal Council shall represent the tribe
and its members in the implementation of this title
and shall have full authority and capacity—
(1) to enter into contracts, grant agreements, and other arrangements with any Federal
department or agency;
(2) to administer or operate any program or
activity under or in connection with any such contract, agreement, or arrangement, to enter into
subcontracts or award grants to provide for the administration of any such program or activity, or to
conduct any other activity under or in connection
with any such contract, agreement, or arrangement; and

App. 106
(3) to bind any tribal governing body selected under any new constitution adopted in accordance with section 205 as the successor in
interest to the Tribal Council.
SEC.

205.
LAWS.

ADOPTION OF NEW CONSTITUTION AND BY-

Upon written request of the tribal council, the Secretary shall hold an election for the members of the
tribe for the purpose of adopting a new constitution
and bylaws in accordance with section 16 of the Act of
June 18, 1934 (25 U.S.C. 476).
SEC.

206.

PROVISIONS RELATING TO TRIBAL RESERVA-

TION.

(a) FEDERAL RESERVATION ESTABLISHED.—The
reservation is hereby declared to be a Federal Indian
reservation for the use and beneﬁt of the tribe without
regard to whether legal title to such lands is held in
trust by the Secretary.
(b) CONVEYANCE OF LAND BY STATE.—The Secretary shall—
(1) accept any offer from the State to convey
title to any lands held in trust by the State or the
Texas Indian Commission for the beneﬁt of the
tribe to the Secretary, and
(2) shall hold such title, upon conveyance by
the State, in trust for the beneﬁt of the tribe.

App. 107
(c) CONVEYANCE OF LAND BY TRIBE.—At the
written request of the Tribal Council, the Secretary
shall—
(1) accept conveyance by the tribe of title to any
lands within the reservation which are held by the
tribe to the Secretary, and
(2) hold such title, upon such conveyance by the
tribe, in trust for the beneﬁt of the tribe.
(d) APPROVAL OF DEED BY ATTORNEY GENERAL.—Notwithstanding any other provision of law or
regulation, the Attorney General of the United States
shall approve any deed or other instrument from the
State or the tribe which conveys title to lands within
the reservation to the United States.
(e) PERMANENT IMPROVEMENTS AUTHORIZED.—
Notwithstanding any other provision of law or rule of
law, the Secretary or the tribe may erect permanent
improvements, improvements of substantial value, or
any other improvement authorized by law on the reservation without regard to whether legal title to such
lands has been conveyed to the Secretary by the State
or the tribe.
(f)

CIVIL AND CRIMINAL JURISDICTION WITHIN
RESERVATION.—The State shall exercise civil and
criminal jurisdiction within the boundaries of the reservation as if such State had assumed such jurisdiction
with the consent of the tribe under sections 401 and
402 of the Act entitled “An Act to prescribe penalties
for certain acts of violence or intimidation, and for

App. 108
other purposes” and approved April 11, 1968 (25 U.S.C.
1321, 1322).
SEC.

207.

GAMING ACTIVITIES.

(a) IN GENERAL.—All gaming activities which
are prohibited by the laws of the State of Texas are
hereby prohibited on the reservation and on lands of
the tribe. Any violation of the prohibition provided in
this subsection shall be subject to the same civil and
criminal penalties that are provided by the laws of the
State of Texas. The provisions of this subsection are
enacted in accordance with the tribe’s request in Tribal
Resolution No. T.C.–86–07 which was approved and
certiﬁed on March 10, 1986.
(b) NO STATE REGULATORY JURISDICTION.—
Nothing in this section shall be construed as a grant of
civil or criminal regulatory jurisdiction to the State of
Texas.
(c)

JURISDICTION OVER ENFORCEMENT AGAINST
MEMBERS.—Notwithstanding section 206(f), the courts
of the United States shall have exclusive jurisdiction
over any offense in violation of subsection (a) that is
committed by the tribe, or by any member of the tribe,
on the reservation or on lands of the tribe. However,
nothing in this section shall be construed as precluding
the State of Texas from bringing an action in the courts
of the United States to enjoin violations of the provisions of this section.

App. 109
Amend the title so as to read:
“An Act to provide for the restoration of
the Federal trust relationship and Federal
services and assistance to the Ysleta del Sur
Pueblo and the Alabama and Coushatta Indian Tribes of Texas, and for other purposes.”.
PURPOSE

H.R. 318, was introduced in the House of Representatives on January 6, 1987, by Congressman Coleman of Texas. The purpose of H.R. 318 is to restore the
Federal trust relationship to two Indian tribes located
within the State of Texas. By the Act of August 23,
1954, the Federal trust [relationship] with the Alabama and Coushatta Tribe was terminated by transferring federal trust duties and trust lands to the State
of Texas. The lands so conveyed were to be held in trust
by the State of Texas for the beneﬁt of the tribes or
their members. By the Act of April 12, 1968, legislation
was enacted designating the descendants of the Tiwa
Indians living in El Paso, Texas, of the Ysleta del Sur
Pueblo, as Tiwa Indians of Ysleta, Texas, and provided
that the responsibility, if any, of the United States for
the said Indians was transferred to the State of Texas.
H.R. 318 will restore the Federal trust relationship to the Alabama and Coushatta Indian Tribes as
one tribal unit for purposes of this Act, and provides
for restoration of the Federal trust relationship between the United States and the Tiwa Indians, with
the [provision] that such Indian group shall henceforth

App. 110
be known as the Ysleta del Sur Pueblo. The bill also
provides for taking of tribal or individually owned Indian lands into trust, and provides for expansion of the
Indian land base in consultation with the State. The
State shall exercise civil and criminal jurisdiction as if
the State had assumed jurisdiction with the consent of
the tribes under the provisions of the Indian Civil
Rights Act of 1968 (25 U.S.C. 1321, 1322).
BACKGROUND

The Pueblo of Ysleta del Sur was established in
1680 following the Pueblo Indian revolt against the
Spanish. The revolt forced the Spanish to retreat from
Santa Fe to El Paso, and the Spanish forced a large
number of Tiwa Indians from Ysleta Pueblo to accompany them. The Indians were settled at Ysleta del Sur
and in 1682 the mission church was built, which still
stands today. In 1751 Spain granted the land of Ysleta
Pueblo to its inhabitants as communal property, measuring one league in all directions from the church
doors.
On May 9, 1871, the Texas legislature passed an
Act to incorporate the Town of Ysleta in El Paso
County, and through ensuing actions of the newly created town, nearly all of the 23,000 acres of the Ysleta
Spanish grant were patented to non-Indians. In May
of 1967, the Texas legislature enacted legislation which
authorized the State to accept a transfer of Federal
trust responsibilities to the Tigua Indian Tribe. By the
Act of April 12, 1968, Congress recognized the Tiwa

App. 111
people of the Ysleta del Sur Pueblo as a band of American Indians and transferred to the State of Texas any
responsibility that the United States had for them.
While the 1968 Tiwa Act speciﬁed that nothing in that
Act would make the tribe eligible for federal Indian
services nor would it make federal Indian statutes applicable to the tribe, it should be noted that the 1968
Tiwa Act was not a “termination” act. It was not enacted pursuant to the termination policy of the 1950s
as set forth in House Concurrent Resolution No. 108.
Rather, its purpose was to preserve the status quo between the tribe and the United States while clarifying
the status of the Indians of the Ysleta del Sur Pueblo
as a band of Indians recognized by the United States
and thereby enabling the State of Texas to acquire land
and provide services to them. The 1968 Tiwa Act thus
did not, as a practical matter, alter the relationship between the United States and the Tiwa Tribe. The Tribe
had not been subject to federal supervision and had received no federal Indian services before the 1968 Act,
and that status [continued] after its enactment.
Texas now holds a 100-acre reservation in trust for
the 1,124 member tribe and, through the Texas Indian
Commission, provides a superintendant, as well as administrative and economic development funding for
the tribe. A 1983 opinion of the Texas Attorney General (Opinion No. JM–17) which concluded that the
tribe’s trust relationship with the state violates the
Equal Rights Amendment to the state constitution has
cast doubt on the [continuation] of this trust relationship between the State and tribe.

App. 112
The Alabama-Coushattas are a state recognized
tribe of approximately 500 full blood Indians residing
on a [46,000] acre reservation near Livingston, Texas.
The State of Texas purchased roughly 1,200 acres of
land in 1854 for a permanent home for the Alabama
and Coushatta Indians (in part because of the tribes
assistance to Sam Houston in Texas’ war for independence) and since then the State has stood in the role of
trustee to the tribes. A Federal trust relationship was
[established] in 1928 when the United States purchased additional reservation lands for the tribe and,
from 1928 to 1954, Texas and the United States maintained a joint trust responsibility for the tribe. The
1954 Act of Congress terminated the trust relationship
of the United States with the tribe by transferring all
federal trust duties and lands to the State of Texas.
The trust relationship with the state has continued to
the present.
LEGISLATIVE HISTORY

H.R. 318, as introduced by Congressman Coleman
of Texas on January 6, 1987, was identical to the
bill favorably reported in the 99th Congress by the
Senate Select Committee on Indian Affairs. That bill,
H.R. 1344, was not acted on by the Senate prior to the
adjournment of the 99th Congress and was introduced
in the 100th Congress by Congressman Coleman.
H.R. 318 was referred to the Committee on Interior
and Insular Affairs for consideration. The bill was
passed by the House and sent to the Senate on April
21, 1987.

App. 113
H.R. 318 was referred to the Select Committee on
Indian Affairs for consideration. Because the Committee had held hearings on H.R. 1344 on June 25, 1986
and had compiled an extensive record on the bill in the
99th Congress, further hearings were not held on
H.R. 318.
COMMITTEE RECOMMENDATION
AND TABULATION OF VOTE

The Select Committee on Indian Affairs, in open
business session on June 17, 1987, with a quorum present, by unanimous vote recommends the Senate pass
H.R. 318, as amended in the nature of a substitute.
COMMITTEE AMENDMENTS

The Committee recommends an amendment in
the nature of a substitute. The amendments are in response to concerns raised by the State of Texas and
Senators Gramm and Bentsen of Texas. In addition,
the tribes have requested amendments to the bill to remove those concerns. Staff has worked closely with the
Department of Interior and with the tribes which have
resulted in a number of amendments, most of which
are technical, clarifying, or conforming in nature;
however, three of the amendments are substantial and
merit explanation. Those three substantive amendments are explained in the “Explanation Amendments”
section which follows.

App. 114
EXPLANATION OF AMENDMENTS

Subsections 105(g), 105(h), 105(i) and 105(j),
which directs the Secretary to establish a plan for an
enlarged Ysleta del Sur Pueblo reservation and submit
the plan to Congress in the form of proposed legislation
within 2 years, is stricken from H.R. 318 as passed
by the House of Representatives. A new subsection,
105(g), is added which permits the Ysleta del Sur Tribe
to acquire additional land within El Paso or Hudspeth
Counties in fee simple and permits the Secretary, upon
the request of the Tribe, to accept and hold title to
such lands in trust for the Tribe. Furthermore, if
the additional after-acquired lands are not taken into
trust by the Secretary, subsection 105(g) permits the
Tribe to sell, lease or otherwise dispose of those [lands]
free of federal restrictions on alienation. It should
be emphasized that the authorization to dispose of
those lands free of federal restraints applies only to
non-reservation, non-trust lands owned by the Tribe.
Sections 107 and 207 are stricken and new sections 107 and 207 are inserted. However, the central
purpose of these two sections—to ban gaming on the
reservations as a matter of federal law—remains unchanged. Both tribes, by formal tribal resolution, requested that this legislation incorporate their existing
law and custom that forbids gambling. The Committee’s amendments simply expand on the House version
to provide that anyone who violates the federal ban on
gaming contained in Sections 107 and 207 will be subject to the same civil and criminal penalties that are
provided under Texas law. New subsections 107(b) and

App. 115
207(b) were added to make it clear that Congress does
not intend, by banning gaming and adopting state penalties as federal penalties, to in any way grant civil or
criminal regulatory jurisdiction to the State of Texas.
New subsections 107(c) and 207(c) grant to the federal
courts exclusive jurisdiction over offenses committed
in violation of the federal gaming ban and make it
clear that the State of Texas may seek injunctive relief
in federal courts to enforce the gaming ban.
Section 108 was amended to address concerns
raised by the [Administration] that after a period of
years, the Pueblo could amend its membership criteria
and thereby expand the tribal service population.
Therefore, the ten-year period during which tribal
membership criteria would be ﬁxed by the Act [was]
deleted. The effect of deleting the time period is to permanently lock in the Tribe’s existing membership criteria. The Committee’s willingness to accommodate
the Administration on this issue is based upon the fact
that the membership criteria contained in H.R. 318 are
the Tribe’s own pre-existing criteria and the Tribe has
indicated to the Committee that it does not oppose the
amendment. The Committee recognizes that Indian
tribes possess the power to establish their own membership criteria. The Committee anticipates that if, at
some time in the future, the Tribe determines that it
must amend its membership criteria, it will petition
Congress to permit it to do so.

App. 116
SECTION-BY-SECTION ANALYSIS

Section 1. This section cites this Act as the “Ysleta
del Sur Pueblo and Alabama and Coushatta Indian
Tribes of Texas Restoration Act.”
Section 2. This section authorizes the Secretary of
the Interior to promulgate regulations to implement
the act.
Title I. Ysleta del Sur Pueblo Restoration
Section 101. This section deﬁnes certain terms for
the purpose of this bill.
Section 102. This section states that following the
date of enactment, the Tiwa Indians of Ysleta, Texas,
shall be known as the Ysleta del Sur Pueblo.
Section 103. This section restores the Federal
trust relationship to the Ysleta del Sur Pueblo as an
Indian tribe and states that any rights of the tribe and
its members which may have been lost under the
Tiwa Indian Act are hereby restored. This section also
makes all beneﬁts available to Federally recognized Indian tribes available to the Ysleta del Sur Pueblo. This
section further provides that nothing in this Act shall
affect any property right or contractual obligation in
existence before the enactment of this Act. This section
further provides that the Act of June 18, 1934 shall apply to the tribe. This Committee does not intend, however, that the tribe be required to submit a constitution
and bylaws to the Secretary for approval pursuant to
section 16 of such Act and intends that the tribe may

App. 117
continue to operate under its present system if it
chooses to do so.
Section 104. Subsection (a) provides that nothing
in this section shall affect the power of the State of
Texas to enact special legislation, and the State of
Texas is authorized to perform any services that would
beneﬁt the Tribe that are not inconsistent with the provisions of this Act.
Section (b) provides that the Tribal Council shall
represent the tribe in the implementation of this title
and shall be legally entitled to enter into contracts and
administer programs for the Tribe.
Section 105. Subsections (a), (b), and (c) provide
that the reservation is hereby declared to be a Federal
Indian reservation and also provides that the Secretary shall accept any offer by the State to convey title
to any land within the reservation held in trust on the
date of enactment of this Act by the State for the beneﬁt of the tribe. The Secretary shall hold such land in
trust for the beneﬁt of the tribe.
Section (d) provides that the United States Attorney General shall approve any deed from the State or
the tribe which conveys title to land within El Paso or
Hudspeth Counties, Texas to the United States to be
held in trust by the Secretary for the beneﬁt of the
tribe.
Section (e) provides that the Secretary shall be
able to erect permanent improvements on the land notwithstanding the fact that title to such land has not

App. 118
been transferred to the Secretary by the State or the
tribe.
Section (f ) provides that the State shall exercise
civil and criminal jurisdiction within the boundaries of
the reservation as if such State had assumed jurisdiction with the consent of the tribe under the Act of April
11, 1968.
Subsection (g) provides that the tribe may acquire
land in fee simple and authorizes the Secretary to accept such lands in trust if requested by the tribe. If
such fee lands are not taken into trust, the tribe is authorized to convey any interest in those lands free of
any federal restrictions on alienation.
Section 106. This section repeals the Tiwa Indian
Act.
Section 107. This section provides that gambling,
lottery or bingo as deﬁned by the laws and administrative regulations of the State of Texas is prohibited on
the tribe’s reservation and on tribal lands. The provisions of Section 107 are also applicable to any lands
acquired after the date of enactment of the Act and
without regard to whether such lands are located
within or outside of El Paso and Hudspeth Counties,
Texas, if they are taken into trust by the Secretary and
made part of the tribe’s reservation. The prohibition
contained in this section will also apply to any lands
outside the reservation which might be acquired by the
tribe or a member thereof and be taken into trust.
With regard to tribal lands not taken into trust and
therefore not made a part of the tribe’s reservation, the

App. 119
laws and administrative regulations of the State of
Texas related to gaming, gambling, lottery or bingo
shall be applicable. This section also provides penalties for violations of these provisions which are the
same as the penalties provided by Texas law. This section also provides that nothing in this section shall be
construed as a grant of civil or criminal regulatory jurisdiction to the State of Texas. This provision is a restatement of the law as provided in the Act of August
15, 1953 (67 Stat. 588, P.L. 83–280), as amended by the
Act of April 11, 1968 (82 Stat. 77, P.L. 90–284), and
should be read in the context of the provisions of Section 105(f). This section also provides that the Federal
courts shall have exclusive jurisdiction over violations
of the federal ban on gaming established by this section and further authorizes the State of Texas to seek
injunctive relief in Federal court to enforce the federal
ban on gaming.
Section 108. Provides that the tribe’s membership
shall consist of individuals listed on the Tribal Membership Roll approved by the tribe’s Resolution No.
TC–5–84 approved December 18, 1984, and approved
by the Texas Indian Commission’s Resolution No.
TIC–85–005 adopted on January 16, 1985; and a descendant of an individual listed on that Roll if the said
descendant (i) has 1/8 degree or more of Tigua-Ysleta
del Sur Pueblo blood, and (ii) is enrolled by the tribe.
Subsection (b) allows the tribe to remove an individual
from tribal membership where such enrollment was
improper. Subsection (b) further provides that the

App. 120
Secretary, in consultation with the tribe, may review
the Tribal Membership Roll.
Title II: Alabama and Coushatta Indian Tribes of
Texas
Section 201. Deﬁnes certain terms for the purposes of the Act.
Section 202. Provides that the Alabama and
Coushatta Indian tribes shall be considered as one
tribal unit for the purposes of this title and any other
law.
Section 203. Provides that the Federal trust relationship is hereby restored to the tribe and all rights
which may have been lost under the August 23, 1954
Act which terminated the tribe are hereby restored.
This section further provides that the tribe and its
members shall be eligible to receive all beneﬁts provided to federally recognized Indian tribes. This section also provides that except as provided by this Act,
the enactment of this title shall affect any property or
contractual rights in existence before the enactment of
this title.
Section 204. Subsection (a) provides that nothing
in this Act shall affect the power of the State of Texas
to enact special legislation which would beneﬁt the
tribe. Furthermore, the State of Texas is authorized to
perform any services for the beneﬁt of the tribe that
are not inconsistent with the provisions of this Act.

App. 121
Subsection (b) provides that the current tribal constitution and bylaws of this tribe, on ﬁle with the Committee on Interior and Insular Affairs is hereby
declared to have been approved pursuant to section 16
of the Act of June 18, 1934. In addition, all laws and
rules of law, speciﬁcally, the Act of April 11, 1968
(82 Stat. 77) shall apply to members of the tribe, the
tribe, and the reservation.
Subsection (c) provides that the provisions of this
title shall not affect the powers of the Tribal Council.
The Tribal Council shall represent the tribe in the implementation of this title and shall have the power to
enter into contracts and administer tribal programs
for the tribe.
Section 205. Provides that upon written request
of the Tribal Council, the Secretary shall conduct an
election in accordance with section 16 of the Act of
June 18, 1934 for the purpose of adopting any new constitution and bylaws for the tribe.
Section 206. Provides that the reservation is
hereby declared to be a Federal Indian reservation for
the use and beneﬁt of the tribe without regard to
whether legal title to such lands is held in trust by the
Secretary. The Secretary is directed to accept any offer
from the State to convey title to any lands held in trust
by the State. The Secretary shall hold such land in
trust for the beneﬁt of the tribe.
The Secretary is also directed to take any land in
trust for the beneﬁt of the tribe which is held by the
tribe and located within the reservation.

App. 122
This section also provides that the Attorney General of the United States shall approve any deed which
conveys land from the State or the tribes to the United
States.
Lastly, this section provides that the State of Texas
shall exercise civil and criminal jurisdiction within the
boundaries of the reservation as if such state had assumed jurisdiction with the consent of the tribe under
the Act of April 11, 1968.
Section 207. This section provides that gaming,
gambling, lottery and bingo as deﬁned by the laws and
administrative regulations of the State of Texas is prohibited on the tribe’s reservation and on tribal lands.
The provisions of Section 207 are also applicable to any
lands acquired after the date of enactment of the Act
and without regard to whether such lands are located
within or outside of the reservation of Polk County,
Texas, if it is taken into trust by the Secretary and
made a part of the tribe’s reservation. The prohibition
contained in this section will also apply to any lands
outside the reservation which might be acquired by the
tribe or a member thereof and be taken into trust.
With regard to tribal lands not taken into trust and
therefore not made a part of the tribe’s reservation, the
laws and administrative regulations of the State of
Texas related to gaming, gambling, lottery or bingo
shall be applicable. This section also provides penalties for violation of these provisions which are the
same as the penalties provided by Texas law. This section also provides that nothing in the section shall be
construed as a grant of civil or criminal regulatory

App. 123
jurisdiction to the State of Texas. This provision is a
restatement of the law as provided in the Act of August
15, 1953 (67 Stat. 588, P.L. 83–280), as amended by the
Act of April 11, 1968 (82 Stat. 77, P.L. 90–284), and
should be read in the context of the provisions of Section 206(f). This section also provides that the Federal
courts shall have exclusive jurisdiction over violations
of the federal ban on gaming established by this section and further authorizes the State of Texas to seek
injunctive relief in Federal court to enforce the federal
ban on gaming.
The intent of the Act is to provide for the restoration of the Federal trust relationship and Federal services and assistance to the Ysleta del Sur Pueblo and
the Alabama and Coushatta Indian Tribes of Texas.
The headings and the subheadings have been changed
to reﬂect this intent.
COST AND BUDGETARY CONSIDERATIONS

The cost estimate for H.R. 318, as amended in the
nature of a substitute, as provided by the Congressional Budget Ofﬁce, is set forth below. Although the
letter is dated May 15, 1987, the cost estimate remains
the same as on the date the bill was ordered reported.
U.S. CONGRESS,
CONGRESSIONAL BUDGET OFFICE,
Washington, DC, May 15, 1987.

App. 124
Hon. DANIEL K. INOUYE,
Chairman, Select Committee on Indian Affairs,
U.S. Senate, Washington, DC.
DEAR MR. CHAIRMAN: The Congressional Budget
Ofﬁce has reviewed H.R. 318, the Ysleta del Sur Pueblo
and Alabama and Coushatta Indian Tribes of Texas
Restoration Act, as amended and ordered reported by
the Senate Select Committee on Indian Affairs, May
14, 1987.
This bill would grant federal recognition to the Ysleta del Sur and the Alabama and Coushatta Indian
Tribes. Although the bill does not speciﬁcally authorize the appropriation of funds, it would make tribe
members eligible for all services and beneﬁts available
to federally recognized Indian tribes. Thus, while no
additional expenditures are mandated by the bill, relevant federal agencies would be required to include
close to 2,000 tribe members among those eligible for
beneﬁts and may need to seek additional funds in order to provide such beneﬁts. CBO estimates that the
average annual cost of services and beneﬁts provided
nationally is about $3,000 per eligible Indian. However, the tribes are already eligible for and receiving
some federal services and beneﬁts, and added services
resulting from federal recognition are likely to entail
annual expenditures of less than $1 million.
On March 31, 1987, CBO completed a cost estimate of H.R. 318, as amended and reported by the
House Committee on Interior and Insular Affairs. The
estimated potential costs of both versions of the bill are
the same.

App. 125
Enactment of this bill would not affect the budgets
of state or local governments.
If you wish further details on this estimate, we will
be pleased to provide them.
With best wishes,
Sincerely,
EDWARD M. GRAMLICH,
Acting Director.
REGULATORY IMPACT STATEMENT

Paragraph 11(b) of rule XXVI of the Standing
Rules of the Senate requires each report accompanying
a bill to evaluate the regulatory and paperwork impact
that would be incurred in carrying out the bill. The
Committee believes that H.R. 318 will have a minimal
impact on regulatory or paperwork requirements.
EXECUTIVE COMMUNICATIONS

At the time this report was prepared the Committee
had not received Executive Communication on H.R. 318.
CHANGES IN EXISTING LAW

In compliance with subsection 12 of [rule] XXIV of
the Standing Rules of the Senate, it is the opinion of
the Committee, that it is necessary to dispense with
the requirements of this subsection to expedite the
business of the Senate.

App. 126
[SEAL] United States Department of the Interior
OFFICE OF THE SOLICITOR
Washington, D.C. 20240
IN REPLY REFER TO:

Michael Hoenig, General Counsel
National Indian Gaming Commission
90 K Street NE, Suite 200
Washington, DC 20002
Re:

Ysleta del Sur Pueblo Restoration Act

Dear Mr. Hoenig:
This letter responds to the National Indian Gaming
Commission (“NIGC”) Ofﬁce of General Counsel’s letter dated May 29, 2015,1 requesting our opinion regarding whether, in light of the Ysleta del Sur Pueblo
and Alabama and Coushatta Indian Tribes of Texas
Restoration Act (“Restoration Act” or “Act”),2 and the
Indian Gaming Regulatory Act (“IGRA”),3 the Ysleta
del Sur Pueblo (“Tribe” or “Pueblo”) can game pursuant
to the IGRA on the Tribe’s reservation and tribal lands.

1

Letter from Eric Shepard, General Counsel, Nat’l Indian
Gaming Comm’n, to Venus Prince, Deputy Solicitor—Indian Affairs (May 29, 2015) [hereinafter “2015 NIGC Letter”].
2
Pub. L. No. 100-89, 101 Stat. 666 (1987) (codiﬁed at 25
U.S.C. §§ 731 et seq. (Alabama and Coushatta Indian Tribes of
Texas), §§ 1300g et seq. (Ysleta del Sur Pueblo)). Title I of the
Restoration Act addresses the Pueblo; Title II of the Restoration
Act restores the Federal trust relationship with the Alabama and
Coushatta Indian Tribes of Texas. Id.
3
Indian Gaming Regulatory Act, Pub. L. No. 100-497, 102
Stat. 2467 (1988) (codiﬁed at 25 U.S.C. §§ 2701-2721).

App. 127
Applying the Department’s expertise in the ﬁeld of Indian affairs,4 this Ofﬁce concludes that the Restoration
Act did not divest the Tribe of jurisdiction over its reservation and tribal lands and, therefore, that the IGRA
applies to such lands. In addition, we conclude that the
IGRA impliedly repealed Section 107 of the Restoration Act, which concerns gaming.
I.

BACKGROUND

In order to answer your question, we must interpret
those provisions of the Restoration Act that concern jurisdiction, including jurisdiction over gaming. The
Restoration Act was enacted in the midst of a sea
change in gaming law; consequently, our analysis also
considers the evolution of the Act’s gaming provisions,
the evolution of gaming law in the State of Texas
(“Texas” or “State”) between 1987 and 1991, and the
enactment approximately one year after the Restoration Act of the IGRA. Finally, we evaluate the Tribe’s
current request in light of the long-running litigation
between the State and the Tribe over the Tribe’s attempts to game within the bounds of the Restoration
Act.
A. History of the Ysleta del Sur Pueblo
The Pueblo of Ysleta del Sur was established in
1680 following the Pueblo Indian revolt against the
4

See, e.g., Cherokee Nation v. United States, 73 Fed. Cl. 467,
479 n.7 (2006) (observing that “the Secretary [of the Interior] certainly has vast expertise in interpreting Indian statutes”).

App. 128
Spanish.5 When the Spanish retreated from Santa Fe,
New Mexico, to El Paso, Texas, they forced a large number of Tiwa Indians from Ysleta Pueblo to accompany
them.6 The Indians established a new Pueblo in Texas
called Ysleta del Sur and, in 1682, built a church for
their community.7 In 1751, Spain granted to the inhabitants of the Ysleta del Sur Pueblo land measuring one
league in all directions from the church doors.8 However, in 1871, the Texas Legislature enacted a statute
incorporating the Town of Ysleta in El Paso County,
and subsequent actions by the town resulted in nearly
all of the 23,000 acres of the Spanish land grant being
patented to non-Indians.9
From 1870 through the 1960s, the Tribe “continued to
reside in the area and maintain their ethnic identiﬁcation as well as their basic political system * * * * Also
during this time there is a record of increasing interactions between the [Tribe] and both the U.S. Government and the State of Texas.”10 In 1968, Congress
passed An Act Relating to the Tiwa Indians of Texas,11

5

S. Rep. No. 100-90, at 6 (1987) (hereinafter, “1987 Senate
Report”).
6
Id.
7
131 CONG. REC. H12012 (daily ed. Dec. 16, 1985) (statement
of Rep. Coleman).
8
1987 Senate Report, supra note 5, at 6.
9
Id. at 7.
10
131 CONG. REC. H12012 (statement of Rep. Coleman).
11
Pub. L. No. 90-287, 82 Stat. 93 (1968), repealed by Restoration Act, supra note 2, § 106.

App. 129
wherein Congress transferred all Federal trust responsibility for the Pueblo to the State of Texas.12
B. The Restoration Act
In the 1980s, the State of Texas concluded that its trust
relationship with the Tribe constituted a violation of
the Texas Constitution and determined that the State
could not continue to provide trust services to the
Tribe.13 In light of this determination, Congress acted
to restore the Federal trust relationship with the Tribe
and passed the Restoration Act in 1987.14 Through the
Restoration Act, Congress provided that the Tiwa Indians of Ysleta, Texas, would thereafter “be known and
designated as the Ysleta del Sur Pueblo,”15 and “restored” “[t]he Federal trust relationship between the
United States and the tribe.”16 In addition, the Restoration Act designated as “a Federal Indian reservation”
those lands within El Paso and Hudspeth Counties in
Texas that were held by the Tribe on the date of the
Act’s enactment, held in trust by the State or by the
Texas Indian Commission for the beneﬁt of the Tribe,
or held in trust by the Secretary for the beneﬁt of the
Tribe, as well as subsequently acquired lands acquired
and held in trust by the Secretary for the beneﬁt of the

12
13
14
15
16

Id.
1987 Senate Report, supra note 5, at 7.
Restoration Act, supra note 2.
Id. at § 102 (codiﬁed at 25 U.S.C. § 1300g-1).
Id. at § 103(a) (codiﬁed at 25 U.S.C. § 1300g-2(a)).

App. 130
Tribe,17 and mandated that the Secretary take certain
lands into trust for the beneﬁt of the Tribe.18 Furthermore, at Section 105(f ) the Act incorporates Public
Law 280,19 as amended by the Indian Civil Rights
Act,20 by providing that the State has civil and criminal
jurisdiction on the Tribe’s reservation “as if such State
had assumed such jurisdiction with the consent of the
tribe under” 25 U.S.C. §§ 1321-1322.21
The original version of the Restoration Act, introduced
in February 1985, contained no speciﬁc references to
gaming.22 However, the time between the bill’s introduction and its ﬁnal passage in 1987 was a period of

17

Id. at § 105(a) (codiﬁed at 25 U.S.C. § 1300g-4(a)) (establishing a Federal Indian reservation); at § 101(3) (codified at 25
U.S.C. § 1300g(3)) (deﬁning “reservation”).
18
Id. at § 105(b)(1) (codiﬁed at 25 U.S.C. § 1300g-4(b) (requiring that the Secretary (1) accept any offer by the State to convey to the United States land within the Tribe’s reservation held
in trust, and (2) hold such land in trust for the beneﬁt of the
Tribe).
19
Pub. L. 83-280, 67 Stat. 588 (1953)
20
Pub. L. 90-284, 82 Stat. 77 (1968).
21
Restoration Act, supra note 2, § 105(f) (codiﬁed at 25
U.S.C. § 1300g-4(f)).
22
H.R. 1344, 99th Cong. (1985).

App. 131
great uncertainty surrounding Indian gaming.23 The
Act was amended multiple times to address gaming.24

23

In February 25, 1986, the Ninth U.S. Circuit Court of Appeals held that the State of California and Riverside County could
not enforce their gaming laws on the reservations of the Cabazon
and Morongo Bands of Mission Indians. Cabazon Band of Mission
Indians v. County of Riverside, 783 F.2d 900 (1986). One year
later, the U.S. Supreme Court afﬁrmed. California v. Cabazon
Band of Mission Indians, 480 U.S. 202 (1987) [hereinafter, “Cabazon”]. The Fifth Circuit subsequently observed that the Cabazon
decision “led to an explosion in unregulated gaming on Indian reservations located in states that, like California, did not prohibit
gaming.” Ysleta del Sur Pueblo v. Texas, 36 F.3d 1325, 1330 (5th
Cir. 1994) [hereinafter “Ysleta del Sur”]; accord Wisconsin v. HoChunk Nation, 784 F.3d 1076, 1080 (7th Cir. 2015) (“The Court’s
decision in Cabazon led to a ﬂood of activity, and states and tribes
clamored for Congress to bring some order to tribal gaming.”).
24
Following a committee hearing [in] October 1985, the
House passed an amended version of the bill that would have allowed the Tribe to enact a gaming ordinance, but only if that ordinance mirrored the laws of Texas. H. Rep. No. 99-440, at 2-3
(1985) (amendments to H.R. 1344); 131 CONG. REC. H12012 (daily
ed. Dec. 16, 1985) (text of H.R. 1344 as passed by the House).
Nonetheless, “various state ofﬁcials and members of Texas’ congressional delegation were still concerned that H.R. 1344 did not
provide adequate protection against high stakes gaming operations on the Tribe’s reservation.” Ysleta del Sur, 36 F.3d at 1327.
As a result, the Tribe enacted Resolution No. TC-02-86, which
acknowledged the controversy over gaming and asked, in part,
that the bill be amended to prohibit “all gaming, gambling, lottery, or bingo, as deﬁned by the laws and administrative regulations of the State of Texas, * * * on the Tribe’s reservation or
tribal land.” Ysleta del Sur Pueblo Resolution No. TC-02-86, reprinted in Ysleta del Sur, 36 F.3d at 1328 n.2.
In accordance with the Tribe’s request, the bill was amended
again to prohibit “[a]ll gaming, gambling, lottery or bingo as deﬁned by the laws and administrative regulations of the State of
Texas * * * on the tribe’s reservation and on tribal lands.” 131

App. 132
When the Restoration Act was enacted in 1987, Texas
law generally prohibited gaming, with the exception of
charitable bingo on a local-option basis.25 In the Restoration Act, the ﬁrst sentence of Section 107(a) makes
the State’s substantive gaming laws applicable on the
Tribe’s lands. Similarly, the second sentence extends
to the Tribe’s lands the penalties provided in State
law for engaging in prohibited gaming. The ﬁnal sentence explains, at least in part, why Congress included
CONG. REC. S13635 (daily ed. Sept. 24, 1986) (text of H.R. 1344,
§ 107(a) as passed by the Senate). That version passed the Senate. Id. However, the very next day, before it could be reconciled
with the House version, the Senate vitiated its passage of the bill,
effectively killing any restoration of the Ysleta del Sur Pueblo and
the Alabama and Coushatta Tribes in the 99th Congress. 131
CONG. REC. S13735 (daily ed. Sept. 25, 1986).
A new version of the bill was introduced in January 1987, and
subsequently was passed by the House; it, like the earlier Senate
bill, would have expressly prohibited all gaming on the Tribe’s
reservation and tribal lands. 133 CONG. REC. H13735 (daily ed.
Apr. 21, 1987). Later that year, the bill was amended again by
the Senate, which deleted the express prohibition against gaming. 1987 Senate Report, supra note 5, at 3 (text of H.R. 318,
§ 107(a) as amended by the Senate). The Senate’s version of H.R.
318 ultimately was enacted, with the gaming provisions contained in Section 107. See Restoration Act, supra note 2, § 107.
25
Tex. Const. art. 3, § 47(b)-(c) (as amended 1980). The
Texas Constitution provided that “[the] Legislature shall pass
laws prohibiting the establishment of lotteries and gift enterprises in the State, as well as the sale of tickets in lotteries, gift
enterprises, or other evasions involving the lottery principle, established or existing in other States.” Id. at art. 3, § 47(a). In
addition, wagering on dog and horse racing in Texas had been illegal since 1937. Texas Legislative Council, Info. Rep. No. 87-2:
Analysis of Proposed Constitutional Amendments and Referenda
Appearing on the November 3, 1987, Ballot, at 75 (Sept. 1987).

App. 133
gaming provisions in the Act. Thus, through Section
107(a), Congress provided for a limited application of
State gaming law on the Tribe’s lands:
SEC. 107. GAMING ACTIVITIES
(a) IN GENERAL.—All gaming activities
which are prohibited by the laws of
the State of Texas are hereby prohibited on the reservation and on lands
of the tribe. Any violation of the prohibition provided in this subsection
shall be subject to the same civil and
criminal penalties that are provided
by the laws of the State of Texas. The
provisions of this subsection are enacted in accordance with the Tribe’s
request in Tribal Resolution No. T.C.02-86 which was approved and certiﬁed on March 12, 1986.26
Despite the application of Texas law, however, Section
107(b) expressly states that “[n]othing in this section
shall be construed as a grant of civil or criminal regulatory jurisdiction to the State of Texas.”27 In other
words, the Tribe retained civil and criminal regulatory
jurisdiction over its reservation and tribal lands, except to the extent expressly divested by the following
subsection of the Act.

26

Restoration Act, supra note 2, at § 107(a) (codiﬁed at 25
U.S.C. § 1300g-6(a)).
27
Id. at § 107(b) (codiﬁed at 25 U.S.C. § 1300g-6(b)).

App. 134
Finally, although another section of the Restoration
Act generally granted the State “civil and criminal jurisdiction within the boundaries of the reservation,28
Section 107(c) expressly provides that federal courts,
not state courts, are the forum in which the State may
seek to enforce alleged violations of Section 107(a):
(c) JURISDICTION OVER ENFORCEMENT
AGAINST MEMBERS.—Notwithstanding section
105(f), the courts of the United States shall
have exclusive jurisdiction over any offense in
violation of subsection (a) that is committed
by the tribe, or by any member of the tribe, on
the reservation or on lands of the tribe. However, nothing in this section shall be construed
as precluding the State of Texas from bringing
an action in the courts of the United States to
enjoin violations of the provisions of this section.29
C. Gaming in Texas
Almost immediately after the Restoration Act was
enacted, Texas began to open itself up to gaming. On
November 3, 1987—less than three months after the
Restoration Act was enacted—the people of Texas by
referendum ratiﬁed the Legislature’s enactment of the
Texas Racing Act, allowing for pari-mutuel dog and
28

Id. at § 105(f ) (codiﬁed at 25 U.S.C. § 1300g-4(f)) (granting
Texas civil and criminal jurisdiction equivalent to that granted by
Public Law 83-280, 67 Stat. 588 (1953), as amended by the Indian
Civil Rights Act, Pub. L. 90-284, 82 Stat. 77 (1968).
29
Id. at § 107(c) (codiﬁed at 25 U.S.C. § 1300g-6(c)).

App. 135
horse racing.30 Two years later, the Texas Constitution
was amended to allow for “charitable rafﬂes.”31 A more
momentous change occurred in 1991, when the Texas
Constitution was amended to permit certain lotteries.32 Texas now offers a variety of lottery games, including national Powerball and MegaMillions.33 Thus,
while charitable bingo was the only gaming permitted
in Texas at the time the Restoration Act was enacted,
a little more than four years later the State had
dramatically expanded gaming to include rafﬂes, parimutuel racing, and a state lottery. In Fiscal Year 2014,
Texas Lottery sales totaled almost $4.4 billion, returning more than $1.2 billion to the State’s coffers.34 In
addition, races at Texas racetracks generated more

30

The Texas Racing Act (“Racing Act”) was enacted by the
Texas Legislature in 1986. Id. However, the Racing Act provided
that wagering could be conducted pursuant to its provisions only
after it was ratiﬁed by the State’s voters. Id. On November 3,
1987, the voters in Texas approved the Racing Act by a wide margin. Bill Christine, Texas Voters Finally End a 50-year Ban Against
Betting on Horse Races, L.A. TIMES, Nov. 5, 1987, available at http://
articles.latimes.com/1987-11-05/sports/sp-18911_1_horse-racing-notes
(last visited July 9, 2015).
31
Tex. Const. art. 3, § 47(d) (as amended 1989).
32
Tex. Const. art. 3, § 47(3) (as amended 1991).
33
See Texas Lottery, Play the Games of Texas, http://www.
txlottery.org/export/sites/lottery/Games/index.html (last viewed
July 9, 2015).
34
Texas Lottery Commission, Summary of Financial Information (undated; audited through FY2014, unaudited through
March 2015), available at http://www.txlottery.org/export/sites/
lottery/Documents/financial/Monthly-Transfer-Document.pdf (last visited July 9, 2015).

App. 136
than $438 million in wagers during calendar year
2014.35
D. The Indian Gaming Regulatory Act
The expansion of State-sanctioned gaming in Texas
was not the only change to the legal landscape in the
years immediately following enactment of the Restoration Act. On October 19, 1988, a little more than one
year after it enacted the Restoration Act, Congress
enacted the IGRA. Among the IGRA’s stated purposes were to establish a new nationwide regulatory
framework for tribal gaming on Indian lands within
a tribe’s jurisdiction,36 and to promote “tribal economic

35

Texas Racing Commission, Texas Pari-Mutuel Racetracks
Wagering Statistics Comparison Report on Total Wagers Placed
in Texas & on Texas Races For the Period: 01/01/13—12/31/13 to
01/01/14—12/31/14 at 1 (undated), available at http://www.txrc.
texas.gov/agency/data/wagerstats/prevYr/20141231.pdf (last visited July 9, 2015).
36
See 25 U.S.C. §§ 2701-2702 (Congress’s ﬁndings and declaration of policy), § 2710 (governing tribal gaming ordinances);
S. Rep. No. 100-446, at 6 (1988) [hereinafter “1988 Senate IGRA
Report”] (IGRA “is intended to expressly preempt the ﬁeld in the
governance of gaming activities on Indian lands”); see also Wells
Fargo Bank v. Lake of the Torches, 658 F.3d 684, 687 (7th Cir.
2011) (ﬁnding that among the IGRA’s “stated goals was “to create
a comprehensive regulatory framework ‘for the operation of gaming by Indian tribes’ ” (quoting 25 U.S.C. § 2702(1)). Cf. Rhode Island v. Narragansett Indian Tribe, 19 F.3d 685, 689 (1st Cir.
1994) [hereinafter “Narragansett”] (“The Gaming Act is an expression of Congress’s will in respect to the incidence of gambling
activities on Indian lands.”)

App. 137
development, self-sufﬁciency, and strong tribal governments.”37
The vast majority of tribal gaming in the United States
is governed under the IGRA’s framework, which has
proven to be enormously successful. The IGRA helped
spur dramatic growth in Indian gaming, from annual
revenues of approximately $100 million in 1988 to approximately $28.5 billion in 2014.38 Recent scholarship
demonstrates that, as Congress intended, Indian gaming has helped strengthen tribal economies, increase
household income for reservation Indians, and reduce
reservation poverty and unemployment rates.39
E. Gaming by the Ysleta del Sur Pueblo
and Resulting Litigation
Just as the public policy of the State of Texas with regard to gaming evolved in the years after the Restoration Act was enacted, so, too, did the public policy of
Tribe. However, the Tribe’s efforts to pursue gaming
37

25 U.S.C. § 2702(1).
Compare 1988 Senate IGRA Report, supra note 36, at 22
(Indian gaming “generate[s] more than $100 million in annual
revenues to tribes”), with Nat’l Indian Gaming Comm’n, Gaming
Revenue Reports, available at http://www.nigc.gov/Gaming_Revenue_
Reports.aspx (last visited Aug. 21, 2015) (Indian gaming revenue
$28.5 billion in Fiscal Year 2014).
39
Randall K.Q. Akee et al., The Indian Gaming Regulatory
Act and Its Effects on American Indian Economic Development, 29
J. ECON. PERSPECTIVES 185, 185-87, 196-99 (2015). In addition,
the growth of Indian gaming in the wake of the IGRA has also
proved to be a boon to local and state governments. Id. at 199203.
38

App. 138
within the conﬁnes of the law have been thwarted at
every turn by the State of Texas.
1. Litigation over the Application of
the IGRA
On May 6, 1992, after Texas dramatically expanded
the scope of gaming under State law, and after Congress enacted the IGRA to provide a comprehensive
regulatory scheme for tribal gaming, the Tribe adopted
a bingo ordinance.40 The Tribe submitted Tribal Bingo
Ordinance 00492 to the NIGC for approval, and on October 19, 1993, the ordinance was approved by the
Chairman of the NIGC.41 In February 1992, the Tribe
petitioned the Governor of Texas, pursuant to the
IGRA, to begin negotiations to enter a class III gaming
compact.42 The Governor, however, refused on the
grounds that the State’s law and public policy prohibited her from negotiating such a compact.43 As a result,
the Tribe sued to compel the State under the provision
of the IGRA that allowed the Federal courts to order
a state to the negotiating table.44 The U.S. Court of
40

Ysleta del Sur Tribal Bingo Ordinance No. 00492 (as amended
on Oct. 16, 1992; April 15, 1993; July 22, 1993; and Oct. 5, 1993),
available at http://www.nigc.gov/Portals/0/NIGC%20Uploads/reading
room/gamingordinances/ysletadelsurpueblotrbe/ordappr101993.
pdf.
41
Letter from Anthony J. Hope, Chairman, NIGC, to Tom
Diamond, counsel to the Ysleta del Sur Pueblo (Oct. 19, 1993).
42
Ysleta del Sur, 36 F.3d at 1331.
43
Id.
44
25 U.S.C. § 2710(d)(7)(B)(iii), abrogated by Seminole Tribe
of Florida v. Florida, 517 U.S. 44 (1996).

App. 139
Appeals for the Fifth Circuit held that the Restoration
Act did not give the Tribe authority to bring such a suit
and that the IGRA did not apply.45
The question before the Fifth Circuit was whether the
IGRA permitted the Tribe to sue the State for refusing
to negotiate a Class III gaming compact.46 The Fifth
Circuit held that the Restoration Act, and not the
IGRA, governed the dispute and, ﬁnding nothing in
the Restoration Act that waived the State’s Eleventh
Amendment immunity, the court reversed and remanded with instructions to dismiss the Tribe’s suit.47
First, after a lengthy review of the Restoration Act’s
legislative history and the Cabazon decision,48 the
Fifth Circuit held that “Congress—and the Tribe—intended for Texas’ gaming laws and regulations to
operate as surrogate federal law on the Tribe’s reservation in Texas.”49 Next, after ﬁnding that the Restoration Act “establishes a procedure for enforcement of
§ 107(a) which is fundamentally at odds with the concepts of IGRA,” the Fifth Circuit held that the IGRA
did not effect a partial repeal of the Restoration Act.50
45

Ysleta del Sur, 36 F.3d 1325.
The Fifth Circuit’s opinion in Ysleta del Sur, which was ﬁled approximately seven months after the First Circuit ﬁled its opinion
in Narragansett, is discussed in greater depth in Part II, infra.
46
Ysleta del Sur, 36 F.3d at 1327.
47
Id. at 1327, 1335-36.
48
Id. at 1327-31.
49
Id. at 1334 (emphasis added).
50
Id. at 1334-35.

App. 140
The court observed that the IGRA did not expressly repeal conﬂicting sections of the Restoration Act, and
that “[t]he Supreme Court has indicated that ‘repeals
by implication are not favored.’ ”51 The court then observed that implied repeals are especially disfavored
when it is suggested that a general statute has impliedly repealed a speciﬁc statute,52 and opined that,
with regard to gaming, the Restoration Act is a speciﬁc
statute applying to two speciﬁc tribes in a particular
state, while the IGRA is a general statute.53 The court
further asserted that two provisions of the IGRA that
reference existing federal law demonstrate that * * *
the IGRA was not intended to trump statutes such as
the Restoration Act.54 Finally, the court noted that
Congress in 1993 expressly exempted the Catawba
Tribe of Indians (“Catawba”) in South Carolina from
the IGRA, thereby “evidencing in our view a clear intension on Congress’ part that IGRA is not to be the
one and only statute addressing the subject of gaming
on Indian lands.”55 Having concluded that the IGRA
does not effect an implied repeal of contrary provisions
51

Id. at 1335 (quoting Crawford Fitting Co. v. J.T. Gibbons,
Inc., 482 U.S. 437, 442 (1987)).
52
Id. (citing Crawford Fitting, 482 U.S. at 445).
53
Id.
54
Id. (citing 25 U.S.C. § 2701(5) (“the Congress ﬁnds that
* * * Indian tribes have the exclusive right to regulate gaming activity on Indian lands if the gaming activity is not speciﬁcally prohibited by Federal law”); id. § 2710(b)(1)(A) (tribes may engage in
Class II gaming if, inter alia, “such gaming is not otherwise speciﬁcally prohibited on Indian lands by Federal law”).
55
Id.

App. 141
of the Restoration Act, the Fifth Circuit wrote: “To borrow IGRA terminology, the Tribe has already made its
‘compact’ with the state of Texas, and the Restoration
Act embodies that compact.”56 The court suggested the
only way for the Tribe to game under IGRA would be
to petition Congress to amend or repeal the Restoration Act.57
2. Litigation under the Restoration Act
Meanwhile, the Tribe opened the Speaking Rock Casino and Entertainment Center (“Speaking Rock”) on
its reservation in 1993.58 Speaking Rock began as a
bingo hall, but evolved into “a full-scale casino offering
a wide variety of gambling activities played with cards,
dice, and balls.”59 In 1999, after Speaking Rock had
been open and operating for approximately six years,
the State sued under Section 107(c) of the Restoration
Act.60 On September 21, 2001, the district court issued
an injunction that “had the practical and legal effect of
prohibiting illegal as well as legal gaming activities by
56

Id. Having concluded that the IGRA did not apply, and
that the Restoration Act contained no language abrogating the
State’s Eleventh Amendment immunity from suit, the Fifth Circuit held that the Eleventh Amendment barred the Tribe’s suit
and remanded to the district court with instructions to dismiss.
Id. at 1335-36.
57
Id. at 1335.
58
State v. Ysleta del Sur Pueblo, No. EP-99-CV-320-KC, 2015
U.S. Dist. LEXIS 28026, at *6 (W.D. Tex. Mar. 6, 2015) (hereinafter, “State v. Ysleta del Sur Pueblo”).
59
Id.
60
Id. at 3.

App. 142
the [Tribe].”61 After an unsuccessful appeal, the Tribe
in February 2002 ceased operating those gaming activities prohibited by the injunction.62 In May 2002, at
the request of the Tribe, the district court modiﬁed its
injunction to allow the Tribe to offer certain speciﬁed
sweepstakes promotions, but denied the Tribe’s request to offer its own sweepstakes.63 The following
year, the Tribe requested permission to offer a sweepstakes promotion selling prepaid phone cards that
provided patrons access to “sweepstakes validation
terminal[s]”; that request, too, was denied by the district court.64
In 2008, upon discovering that the Tribe was operating
devices at Speaking Rock that “resembled traditional
eight-liner gambling devices and were operated by a
card purchased with cash,” the State accused the Tribe
of violating the injunction and made a motion that the
Tribe be held [in] contempt of court.65 The Tribe sought
further clariﬁcation of the injunction and a declaration
that its “Texas Reel Skill” sweepstakes game did not
violate the injunction.66 In August 2009, the district
court granted the State’s motion, issued a contempt order, and refused to declare that the Tribe’s “Texas Reel

61

Id. at *6-7 (internal quotation and citation omitted; alteration in original).
62
Id. at *8.
63
Id. at *9-10.
64
Id. at *11.
65
Id. at *11-12.
66
Id. at *12-13.

App. 143
Skill” game was legal.67 A week later, the Tribe sought
permission to operate yet another sweepstakes game,
which the district court denied in October 2010.68 The
Tribe, however, did not cease operation of its sweepstakes games, and by 2012 it had opened a second
sweepstakes operation at the Socorro Entertainment
Center (“Socorro”).69 The State made another motion
that the Tribe be held in contempt of court in September 2013, and amended that motion multiple times before withdrawing it in favor of a renewed motion for
contempt made on March 17, 2014.70 After holding a
two-day evidentiary hearing and accepting more than
a 1.5 million pages of documents into evidence,71 the
district court on March 6, 2015, held the Tribe in contempt and ordered that it cease all sweepstakes operations within sixty days or face civil penalties of
$100,000 per day, unless the Tribe submitted “a ﬁrm
and detailed proposal setting out a sweepstakes promotion that operates in accordance with federal and
Texas law,” the submission of which would result in a
stay of the contempt sanctions while the court considered the Tribe’s proposal and the State’s response.72

67
68
69
70
71
72

Id. at *12-14.
Id. at *14-15.
Id. at *15.
Id. at *15-16.
Id. at *16-17.
Id. at *118-20.

App. 144
On May 5, 2015, the Tribe submitted its proposal,73
which the State has opposed.74
F. The Tribe’s Amended Gaming Ordinance
and the NIGC Request
On August 17, 2015, the Tribe resubmitted75 to the
NIGC an amendment to its gaming ordinance.76 The
NIGC has asked the Solicitor’s Ofﬁce for clariﬁcation
as to the Tribe’s “eligibility to engage in Class II gaming under the [IGRA] in light of the [Restoration Act]
and the Fifth Circuit Court of Appeal’s interpretation
of it in Ysleta del Sur Pueblo v. State of Texas.”77
II.

ANALYSIS

Congress has not spoken directly to the issue of
whether the Restoration Act or the IGRA governs gaming on the Tribe’s reservation and tribal lands. The
Restoration Act neither expressly anticipates and provides for the possibility that subsequent legislation
73

State v. Ysleta del Sur Pueblo, ECF Docket No. 513 (May
5, 2015).
74
State v. Ysleta del Sur Pueblo, ECF Docket No. 514 (June
5, 2015).
75
The Pueblo previously submitted this amendment to the
NIGC Chairman on March 21, 2014; June 6, 2014; August 29,
2014; November 24, 2014; February 24, 2015; and May 19, 2015.
2015 NIGC Letter, supra note 1, at 1.
76
Letter from Randolph H. Barnhouse, Counsel for Ysleta
del Sur, to Jonodev Osceola Chaudhuri, Chairman, NIGC (Aug.
17, 2015).
77
2015 NIGC Letter, supra note 1, at 1 (footnotes omitted).

App. 145
might render certain sections of it obsolete, nor does it
expressly insulate its provisions from subsequently enacted contrary legislation. Likewise, the IGRA does
not make any direct or indirect references to the Restoration Act, the Tribe, or the State. As explained in
greater detail throughout our analysis, we recognize
that the Fifth Circuit in Ysleta del Sur held that the
Restoration Act, and not the IGRA, governs gaming on
the Tribe’s lands.78 However, the Department was not
a party to the Ysleta litigation and is not bound by the
Fifth Circuit’s interpretation of the Restoration Act.79
In interpreting a statute that we are charged with
administering, we seek to effect the intent of the

78

See generally Ysleta del Sur, 36 F.3d 1325 (5th Cir. 1994).
An agency charged with implementing a statute may
“choose a different construction” of the statute than that embraced by a circuit court, “since the agency remains the authoritative interpreter (within the limits of reason) of such statutes.
Nat’l Cable & Telecomms. Ass’n v. Brand X Internet Servs., 545
U.S. 967, 983 (2005). With regard to the Restoration Act, the Department is the executive agency charged with administering the
statute. Restoration Act, supra note 2, § 2 (“The Secretary of the
Interior or his designated representative may promulgate such
regulations as may be necessary to carry out the provisions of
this Act.”); cf. Passamaquoddy Tribe v. Maine, 75 F.3d 784, 794
(1996) (holding that administration of a tribe’s settlement act is a
“role that belongs to the Secretary of the Interior”). See also
Northern Arapahoe Tribe v. Hodel, 808 F.2d 741, 749 (10th Cir.
1987) (“Congress has delegated to the Secretary [of the Interior]
broad authority to manage Indian affairs” (citing 25 U.S.C. § 2)).
Therefore, the Department may choose a different interpretation
of the Restoration Act than the interpretation chosen by the Fifth
Circuit. Here, the Department does so.
79

App. 146
Congress that enacted the statute.80 Agency interpretation of a statute follows the same two-step analysis
that courts follow when reviewing an agency’s statutory interpretation. At the ﬁrst step, the agency must
answer “whether Congress has spoken directly to the
precise question at issue” and, if the statute is clear,
then the agency must give effect to “the unambiguously expressed intent of Congress.”81 If, however, the
statute is “silent or ambiguous,” as are both the Restoration Act and the IGRA, then the agency must base
its interpretation on a “reasonable construction” of the
statute.82
When confronted with a statute that was enacted for
the beneﬁt of Indians, as were both the Restoration Act
and the IGRA, if that statute contains ambiguities we
are guided by an additional principle:: “statutes passed
for the beneﬁt of * * * Indian tribes * * * are to be liberally construed, doubtful expressions being resolved
in favor of the Indians.”83
Employing both the standard rules of statutory construction and the Indian canon, and applying the

80

Wyoming v. United States, 279 F.3d 1214, 1230 (10th Cir.
2002) (“The question whether federal law authorize[s] certain federal agency action is one of congressional intent.”).
81
Chevron v. Natural Resources Defense Council, 467 U.S.
837, 842-43 (1984).
82
Id. at 840.
83
Bryan v. Itasca County, 426 U.S. 373, 392 (1976).

App. 147
Department’s expertise in the ﬁeld of Indian affairs,84
the Department interprets the IGRA as impliedly repealing the gaming provisions of the Restoration Act.
Therefore, we conclude that the IGRA, and not the Restoration Act, governs gaming on the Tribe’s reservation
and tribal lands.
Our interpretation contains four distinct subparts.
First, having analyzed both the text and the legislative
history of the IGRA, employing both the standard rules
of statutory construction and the Indian canon, we concur in your conclusion85 that Congress intended for the
IGRA to apply to the Tribe. Second, we conclude that
the Tribe possesses jurisdiction over its reservation
and tribal lands sufﬁcient to trigger the operation of
the IGRA and, therefore, that the IGRA governs gaming on the Tribe’s reservation and tribal lands. Third,
we conclude that Section 107 of the Restoration Act is
repugnant to the IGRA and, therefore, that the statutes cannot be harmonized. Finally, we conclude that
in this conﬂict the IGRA prevails and effects an implied repeal of Section 107 of the Restoration Act.

84

Cherokee Nation v. United States, 73 Fed. Cl. at 497 n.7
(2006) (observing that “the Secretary [of the Interior] certainly
has vast expertise in interpreting Indian statutes”).
85
See 2015 NIGC Letter, supra note 1, at 2. Although we
have not seen your analysis, we reach the same conclusion and,
therefore, concur.

App. 148
A. Both the text of the IGRA and its legislative history demonstrated that Congress
intended for the IGRA to apply to the
Tribe.
The IGRA “is an expression of Congress’s will in respect to the incidence of gambling activities on Indian
lands.”86 Among the IGRA’s “stated goals [was] to create a comprehensive regulatory framework ‘for the
operation of gaming by Indian tribes as a means of promoting tribal economic development, self-sufﬁciency,
and strong tribal governments.’ ”87 The text of IGRA,
itself, contains no express exemption for the Tribe, or
for any other tribe; rather, the IGRA is written broadly
to encompass all federally recognized Indian tribes.88
Thus, “[b]y its own terms, the [IGRA], if taken in isolation, applies to any federally recognized Indian tribe
that possesses powers of self-governance.”89 Therefore,
given IGRA’s broad purposes, and the fact that nothing
in the plain language of IGRA expressly excludes the
Tribe, we conclude that, on its face, IGRA applies to the
Tribe.

86

Narragansett, 19 F.3d at 689.
Wells Fargo Bank, 658 F.3d at 687 (quoting 25 U.S.C.
§ 2702(1)).
88
25 U.S.C. § 2703(5) (“The term ‘Indian tribe’ means any
Indian tribe, band, nation, or other organized group or community
of Indians which—(A) is recognized as eligible by the Secretary
for the special programs and services provided by the United
States to Indians because of their status as Indians, and (B) is
recognized as possessing powers of self-government.”)
89
Passamaquoddy, 75 F.3d at 788 (citing 25 U.S.C. § 2703(5)).
87

App. 149
The Fifth Circuit, however, pointed to two sections of
the IGRA that make reference to “other federal law,”
and that it believed demonstrated Congress’s intent
that the IGRA not supersede the gaming provisions of
the Restoration Act and similar statutes. Noting that
the IGRA was enacted scarcely a year after the Restoration Act, the court wrote that Congress “explicitly
stated in two separate provisions of the IGRA that
IGRA should be considered in light of other federal
law,”90 the Fifth Circuit interpreted these two sections
as providing that the IGRA does not apply where Congress had previously spoken to gaming, as it had in the
Restoration Act.91
We interpret these provisions differently than the
Fifth Circuit. The Senate Report on the IGRA explains
that this language instead “refers to gaming that utilizes mechanical devices as defined in 15 U.S.C. 1175.”92
90

Ysleta del Sur, 36 F.3d at 1335 (citing 25 U.S.C. § 2701(5)
(“The Congress ﬁnds that—(5) Indian tribes have the exclusive
right to regulate gaming activity on Indian lands if the gaming is
not speciﬁcally prohibited by Federal law and is conducted within
a State which does not, as a matter of criminal law and public
policy, prohibit such gaming activity” (emphasis added)); and 25
U.S.C. § 2701(b)(1)(A) (“An Indian tribe may engage in, or license
and regulate, class II gaming on Indian lands within such tribe’s
jurisdiction, if—(A) such Indian gaming is located within a State
that permits such gaming for any purpose by any person, organization or entity (and such gaming is not otherwise specifically
prohibited on Indian lands by Federal law)” (parenthetical in
original, emphasis added))).
91
Id.
92
1988 Senate IGRA Report, supra note 36, at 12. The 1988
Senate IGRA Report also explains that the IGRA was not intended to “supersede any speciﬁc restriction or speciﬁc grant of

App. 150
In other words, the language that the Fifth Circuit relied upon in ﬁnding that the text of the IGRA expressly
exempted tribes for whom prior Federal law addressed
gaming was, instead, intended to make clear that the
IGRA did not legalize certain games that were already
illegal as a matter of Federal law.
The legislative history of the IGRA contains no speciﬁc
evidence that Congress sought to exclude the Tribe
from the IGRA’s ambit. The 1988 Senate IGRA Report
contains no speciﬁc references to the Tribe, the State
of Texas, or the Restoration Act.93 That Report does
explain that Congress did not intend for the IGRA to
“supersede any speciﬁc restriction or grant of Federal
authority or jurisdiction to a State which may be encompassed in another Federal statute,” citing as a
speciﬁc example the Maine Indian Claims Settlement Act.94 However, the Restoration Act contains
Federal authority or jurisdiction to a State which may be encompassed in another Federal statute, including the Rhode Island
Claims Settlement Act and the [Maine] Indian Claim Settlement
Act (citations omitted). Id. This language does not change our
analysis. The Restoration Act expressly provides that it is not a
grant of Federal authority or jurisdiction with regard to gaming,
but is instead merely an extension of the State’s substantive gaming law with a speciﬁed federal court remedy. Restoration Act,
supra note 2, at § 107(a) (applying State’s substantive gaming
law), § 107(b) (no grant of jurisdiction to the State), § 107(c) (remedy in federal court).
93
See generally 1988 Senate IGRA Report, supra note 36.
94
Id. at 12 (citations omitted). The Maine Indian Claims
Settlement Act provides in part that any subsequently enacted
Federal laws “for the beneﬁt of Indians, Indian nations, or tribes
or bands of Indians, which would affect or preempt the application of the laws of the State of Maine, including application of the

App. 151
no “speciﬁc restriction * * * of Federal authority,” and
although Section 105(f ) provides for a general grant of
jurisdiction to the State, Section 107(c) speciﬁcally
states that that grant of jurisdiction does not give the
State jurisdiction over gaming.95
The Fifth Circuit concluded that Congress’s 1993 decision to exclude the Catawba in South Carolina from
the IGRA’s ambit was evidence of “a clear intention on
Congress’ part that IGRA is not to be the one and only
statute addressing the subject of gaming on Indian
lands.”96 However, the actions of the 103d Congress
shed no light whatsoever on the intentions of the 100th
Congress at the time that it enacted the IGRA; rather,
the fact that speciﬁc legislation was required to place
the Catawba outside the IGRA’s ambit in South Carolina strongly suggests that, absent an explicit act such
as that taken with the Catawba, a tribe must be presumed to fall within the IGRA’s ambit. Consequently,
because no act of Congress expressly places the Tribe

laws of the State to lands owned by or held in trust for Indians,
or Indian nations, tribes, or bands of Indians, as provided in this
subchapter and the Maine Implementing Act, shall not apply
within the State of Maine, unless such provision of such subsequently enacted Federal law is speciﬁcally made applicable
within the State of Maine.” 25 U.S.C. § 1735.
95
Compare Restoration Act, supra note 2, with Maine Indian
Claims Settlement Act, 25 U.S.C. § 1735. The Restoration Act—
enacted by the very same Congress that enacted the IGRA scarcely
a year later—contains no language whatsoever that would preserve its gaming provisions in the face of subsequently enacted
Federal law, such as the IGRA.
96
Ysleta del Sur, 36 F.3d at 1135.

App. 152
outside of the IGRA’s scope, we interpret the IGRA as
including the Tribe within its ambit.
Therefore, we conclude that the gaming on the Tribe’s
reservation and Indian lands falls within the ambit of
the IGRA.
B. The Tribe possesses and exercises jurisdiction over its reservation and tribal
lands sufﬁcient to trigger the operation
of the IGRA.
The IGRA is not applicable to all land owned by a tribe.
First, the IGRA provides for gaming only on “Indian
lands,” a category which includes: (1) land located
within the exterior boundaries of a tribe’s reservation;
and (2) trust land and restricted fee land over which a
tribe exercises governmental authority.97 Second, the
97

The IGRA deﬁnes “Indian lands” as “all lands within the
limits of any Indian reservation” and “any lands title to which is
either held in trust by the United States for the beneﬁt of any
Indian tribe or individual or held by any Indian tribe or individual
subject to restriction by the United States against alienation and
over which an Indian tribe exercises governmental power.” 25
U.S.C. § 2703(4). The NIGC’s regulations further deﬁne “Indian
lands” and specify that in order for land outside of a tribe’s reservation to qualify as Indian lands the tribe must exercise governmental authority over that land. 25 C.F.R. § 502.12 (deﬁning
“Indian lands” as “land within the limits of an Indian reservation,” “land over which an Indian tribe exercises governmental
power * * * [and is] [h]eld in trust by the United States for the
beneﬁt of any Indian tribe or individual,” or “land over which an
Indian tribe exercises governmental power * * * [and is] [h]eld by
an Indian tribe or individual subject to restriction by the United
States against alienation”).

App. 153
IGRA requires that a tribe possess legal jurisdiction
over the land.98 There is a presumption that tribes possess legal jurisdiction over land located within the exterior boundaries of their own reservations.99 Where
there is a question as to the tribe’s jurisdiction, courts
have found that a tribe must meet two requirements100:
First, the provisions of the IGRA related to Class I and
class II gaming require that a tribe must have jurisdiction over the land;101 second, the provision deﬁning the
elements of “Indian lands” requires that a tribe must
exercise governmental power over the land.102
Courts have found that possession of legal jurisdiction
over land is a threshold requirement to the exercise of
governmental power required for trust and restricted

98

25 U.S.C. § 2710(b)(1) (providing that, subject to enumerated criteria, “[a]n Indian tribe may engage in, or license and
regulate, class II gaming on Indian lands within such tribe’s jurisdiction”); id. at § 2710(d)(1)(A)(i) (providing that, subject to
enumerated criteria, “Class III gaming activities shall be lawful
on Indian lands only if such activities are—(A) authorized by an
ordinance or resolution that—(i) is adopted by the governing body
of the Indian tribe having jurisdiction over such lands”).
99
Letter from Michael J. Berrigan, Associate Solicitor, Division of Indian Affairs, to Jo-Ann Shyloski, Associate General
Counsel, NIGC, at 4-5 n.26 and decisions cited therein (Aug. 23,
2013) [hereinafter “2013 Wampanoag Opinion Letter], available
at http://www.nigc.gov/LinkClick.aspx?link=NIGC+Uploads%2findian
lands%2f20130823AquinnahSettlementActInterpretationsigned.
pdf&tabid=120&mid=957.
100
Narragansett, 19 F.3d at 701.
101
Id. (citing 25 U.S.C. § 2710(b)(1)).
102
Id. (citing 25 U.S.C. § 2703(4)).

App. 154
fee land.103 Whether a tribe possess legal jurisdiction
over a particular parcel of land often hinges on construing settlement or restoration acts that limit the
tribe’s jurisdiction104 or on a determination of which
tribe possesses jurisdiction over a particular parcel of
land.105 A showing of governmental power requires a
concrete manifestation of authority and is a factual inquiry.106 For trust or restricted fee land to qualify as
103

See Kansas v. United States, 249 F.3d 1213, 1229 (10th
Cir. 2001) (“[B]efore a sovereign may exercise governmental
power over land, the sovereign, in its sovereign capacity, must
have jurisdiction over that land.”); Narragansett, 19 F.3d at 70103 (1st Cir. 1994), superseded by statute, 25 U.S.C. § 1708(b),
as stated in Narragansett Indian Tribe v. Nat’l Indian Gaming
Comm’n, 158 F.3d 1335 (D.C. Cir. 1998); Miami Tribe of Oklahoma v. United States, 5 F. Supp. 2d 1213, 1217 (D. Kan. 1998)
(stating that a tribe must have jurisdiction in order to exercise
governmental power); Miami Tribe of Oklahoma v. United States,
927 F. Supp. 1419, 1423 (D. Kan. 1996) (“[T]he NIGC implicitly
decided that in order to exercise governmental power for purposes
of 25 U.S.C. § 2703(4), a tribe must ﬁrst have jurisdiction over the
land.”).
104
See, e.g., Narragansett, 19 F.3d at 701-02 (ﬁnding that
Narragansett Indian Tribe possessed the requisite jurisdiction to
trigger the IGRA in light of the tribe’s settlement act); 2013 Wampanoag Opinion Letter, supra note 99, at 5 n.31 and authorities
cited therein.
105
Letter from Lawrence S. Roberts, General Counsel, NIGC,
et al., to Tracie Stevens, Chairwoman, NIGC, at 10-13 (May 24,
2012) (determining that Muscogee (Creek) Nation had jurisdiction over land in question and that the Kialegee Tribal Town had
not demonstrated that it had legal jurisdiction), available at
http://www.nigc.gov/LinkClick.aspx?link=NIGC+Uploads%2freading
room%2fgameopinions%2fkialegeetribaltownopinion52412.pdf&tabid
=120&mid=957; 2013 Wampanoag Opinion Letter, supra note 99,
at 5-6 n.32 and authorities cited therein.
106
Narragansett, 19 F.3d at 703.

App. 155
Indian lands over which a tribe possess jurisdiction,
the two requirements of having jurisdiction and exercising governmental authority must both be met. Once
a tribe has established that its land qualiﬁes as Indian
lands and that the tribe possesses jurisdiction over
that land—making it eligible for Indian gaming—the
tribe has the exclusive right to regulate gaming on that
land, and a state can exten[d] its jurisdiction only
through a tribal-state compact.107
Approximately twenty years ago, the First Circuit in
Rhode Island v. Narragansett Indian Tribe108 determined whether a tribe’s settlement act prohibited
gaming. It created a two-step analysis, ﬁrst asking
whether the tribe possesses the requisite jurisdiction
for the IGRA to apply to the tribe’s lands; and next asking whether the tribe’s settlement act and the IGRA
can be read together, or whether the IGRA impliedly
repealed the settlement act’s gaming provisions.109
This ofﬁce has since used the Narragansett framework
to evaluate whether the Wampanoag Tribal Council
of Gay Head, Inc., Indian Claims Settlement Act of
1987 prohibited the Wampanoag Tribe of Gay Head

107

25 U.S.C. § 2701(5) (“The Congress ﬁnds that * * * Indian
tribes have the exclusive right to regulate gaming activity on Indian lands if the gaming activity is not speciﬁcally prohibited by
Federal law and is conducted within a State which does not, as a
matter of criminal law and public policy, prohibit such gaming
activity.”).
108
19 F.3d 685 (1st Cir. 1994).
109
Id.

App. 156
(Aquinnah) from gaming.110 Because the settlement
act at issue in Narragansett and the Restoration Act
at issue here raise similar questions with respect to
gaming and the application of the IGRA, we employ
that framework here.111
In applying the Narragansett court’s framework to
the present question, we begin by asking whether the
Ysleta del Sur Tribe possesses jurisdiction over its reservation and tribal lands sufﬁcient to trigger the application of the IGRA.112 To determine whether the
Tribe possesses the requisite jurisdiction for the IGRA
to apply, we must ﬁrst determine what the IGRA’s reference to “jurisdiction” means.113 A basic tenet of Indian law dictates that tribes retain attributes of
sovereignty, and therefore jurisdiction, over their lands
and members.114 In Narragansett, the court explained
that the jurisdiction required for the IGRA to apply is
110

2013 Wampanoag Opinion Letter, supra note 99, at 4-5
n.26 and decisions cited therein.
111
See generally id. In Narragansett, the First Circuit held
that the Narragansett Indian Tribe (“Narragansett Tribe”) possessed and exercised jurisdiction under its settlement act that
was sufﬁcient to trigger the application of the IGRA. 19 F.3d at
700-03. Upon concluding that the IGRA was triggered, the court
examined the interplay between the settlement act and the IGRA
and concluded that the IGRA effected an implied partial repeal of
portions of the settlement act. Id. at 703-05.
112
2013 Wampanoag Opinion Letter, supra note 99, at 7-15.
113
Id. at 7.
114
The U.S. Supreme Court has consistently recognized that
Indian tribes retain “attributes of sovereignty over both their
members and their territory.” Cabazon, 480 U.S. at 207 (quoting
United States v. Mazurie, 419 U.S. 544, 557 (1975)).

App. 157
derived from a tribe’s retained rights ﬂowing from
their inherent sovereignty.115 Against that backdrop,
we construe the IGRA’s language.
As noted above, statutory interpretation begins with
the plain meaning of the language itself. With respect
to class II gaming, the IGRA states that “[a]n Indian
tribe may engage in, or license and regulate, class II
gaming on Indian lands within such tribe’s jurisdiction.”116 With regard to class III gaming, the IGRA explains that “[a]ny Indian tribe having jurisdiction over
the Indian lands upon which a class III gaming activity is being conducted” must enter into a compact with
the state.117 It further requires that a gaming ordinance authorizing class III gaming be “adopted by the
governing body of the Indian tribe having jurisdiction
over such lands.”118 In each of the IGRA’s three references to its jurisdictional requirement, the statute
clearly states that a tribe must possess jurisdiction
over its lands.119
We, like the First Circuit, also view as important the
amount of jurisdiction a tribe must possess in order to
trigger application of the IGRA. Tribes possess aspects
of sovereignty not ceded by treaty or withdrawn by
115

19 F.3d at 701 (“We believe that jurisdiction is an integral
aspect of retained sovereignty.”).
116
25 U.S.C. § 2710(b)(1) (emphasis added).
117
Id. § 2710(d)(3)(A) (emphasis added).
118
Id. § 2710(d)(1)(A)(i) (emphasis added).
119
2013 Wampanoag Opinion Letter, supra note 99, at 8 n.57
and authorities cited therein.

App. 158
statute or by implication as a necessary result of their
dependent status.120 In other words, tribes are presumed to have jurisdiction over their land unless it has
been ceded or withdrawn. When Congress enacts a
status depriving a tribe of jurisdiction, it must do so
explicitly.121 Furthermore, “acts diminishing the sovereign rights of Indian [t]ribes should be strictly construed.”122 This statutory rule is bolstered by the
Indian canon of construction.
We require Congress’s explicit divestiture of tribal jurisdiction to avoid the IGRA’s application to Indian
lands, as did the Narragansett court.123 In other words,
120

Narragansett, 19 F.3d at 701 (citing United States v. Wheeler,
435 U.S. 313, 323 (1978)).
121
Id. at 702 (“Since the settlement Act does not unequivocally articulate an intent to deprive the Tribe of jurisdiction, we
hold that its grant of jurisdiction to the state is non-exclusive”
(emphasis added)); Letter from Michael J. Anderson, Acting Assistant Secretary—Indian Affairs, to Patricia A. Marks, Attorney,
Wampanoag Tribe of Gay Head, at 3 (Sept. 5, 1997) [hereinafter
“1997 AS-IA Letter”] (pointing to “long-standing Executive and
Congressional policies favoring the strengthening of tribal selfgovernment, and disfavoring the implicit erosion of tribal sovereignty” and explaining that “[i]n this context, the U.S. Supreme
Court has held that Congressional intent to delegate exclusive jurisdiction to a state must be clearly and speciﬁcally expressed”
(citing Bryan, 426 U.S. at 392)).
122
Narragansett, 19 F.3d at 702.
123
Id. at 702. The Assistant Secretary also has emphasized
this point. 1997 AS-IA Letter, supra note 121, at 4 (“Had Congress desired to defeat concurrent tribal jurisdiction on lands located outside of the Town of Gay Head, it would have either
provided for ‘exclusive’ state and local jurisdiction, or it would
have included limitations on tribal jurisdiction.”).

App. 159
unless a tribe has been completely divested of jurisdiction, the IGRA applies. A mere grant of state jurisdiction is not enough to ﬁnd the State has exclusive
jurisdiction over the land.124
Here, the Restoration Act does not confer upon the
State jurisdiction over gaming on the Tribe’s reservation and tribal lands, but instead merely provides that
“gaming activities which are prohibited by the laws of
the State of Texas are hereby prohibited on the reservation and on lands of the tribe.”125 This merely codiﬁed the distinction, set forth in Cabazon and afﬁrmed
in the IGRA, between regulated gaming activities,
which a tribe may engage in pursuant to the IGRA, and
prohibited gaming activities, which a tribe may engage
in only under the terms of a compact with a state. At
most, Section 107(a) functions as a choice-of-law provision, employing the State’s substantive gaming law to
set the bounds of permissible gaming on the Tribe’s
reservation and tribal lands. Under either reading of
the Restoration Act, Section 107(a) diminishes the
Tribe’s sovereign right to enact its own gaming laws;
however, it does not diminish the Tribe’s jurisdiction,
on its reservation and tribal lands, to regulate gaming

124

2013 Wampanoag Opinion Letter, supra note 99, at 9;
Narragansett, 19 F.3d at 702 (because the Settlement Act’s “grant
of jurisdiction to the state is non-exclusive,” the Narragansett
Tribe “retain[s] that portion of jurisdiction they possess by virtue
of their sovereign existence as a people—a portion sufﬁcient to
satisfy the Gaming Act’s ‘having jurisdiction’ prong.”).
125
Restoration Act, supra note 2, § 107(a).

App. 160
activities undertaken in accordance with the State’s
substantive gaming laws.
In addition, the application of the State’s gaming laws
on the Tribe’s reservation and tribal lands must be
strictly construed, under basic tenets of Indian law and
the Narragansett framework. No provision of the Restoration Act expressly, or even impliedly, divests the
Tribe of regulatory jurisdiction over its reservation and
tribal lands. In fact, Section 107(b) of the Act provides:
“Nothing in this section shall be construed as a grant
of civil or criminal regulatory jurisdiction to the State
of Texas.” Moreover, Section 107(c) of the Restoration
Act provides that Federal courts “have exclusive jurisdiction over” alleged violations of Section 107(a),
thereby impliedly divesting the Tribe only of its adjudicatory jurisdiction over gaming disputes that arise
under the Act. Therefore, the Tribe retains nearly complete civil and criminal regulatory jurisdiction over its
reservation and tribal lands, except for the narrow exception for Federal court jurisdiction provided in Section 107(c), which means that the State does not and
cannot have exclusive jurisdiction over those lands.126

126

Both the Assistant Secretary and this Ofﬁce have observed that the gaming provisions of the Restoration Act differed
markedly from those contained in the Massachusetts Indian Land
Claims Settlement act. 2013 Wampanoag Opinion Letter, supra
note 99, at 12-13 n.95; 1997 AS-IA Letter, supra note 121, at 5.
Neither letter contained an in-depth analysis of the Restoration
Act, and neither concluded that the Restoration Act completely
divested the Tribe of jurisdiction over gaming on its reservation
and tribal lands; rather, both letters simply observed that the differences in the two statutes provided a reason not to follow the

App. 161
In addition, the Restoration Act’s only grant of jurisdiction to the State, contained in Section 105(f), does
not suggest that such State jurisdiction is exclusive.
Instead, it merely provides that the State has civil and
criminal jurisdiction on the Tribe’s reservation and
Indian lands consistent with Public Law 280, as
amended by the Indian Civil Rights Act,127 which does
not extinguish the Tribe’s inherent jurisdiction, but instead merely authorizes the State to exercise jurisdiction concurrent with that of the Tribe.128 Section 105(f)
Fifth Circuit’s Ysleta del Sur opinion in their respective analyses
of the Massachusetts Indian Land Claims Settlement Act. Id.
Even if those Letters had concluded that the Restoration Act completely divested the Tribe of jurisdiction over its reservation and
tribal lands, they would not preclude us from reconsidering that
opinion in this Memorandum. See Chevron, 467 U.S. at 863-64
(“An initial agency interpretation is not instantly carved in stone.
On the contrary, the agency * * * must consider varying interpretations and the wisdom of its policy on a continuing basis.”).
We are aware of the Assistant Secretary’s statement that the
Restoration Act “speciﬁcally prohibits all gaming activities which
are prohibited by the laws of the State of Texas on the reservation
and lands of the Ysleta del Sur Pueblo.” 1997 AS-IA Letter, supra
note 121, at 5; 2013 Wampanoag Opinion Letter, supra note 99,
at 12-13 n.95 (quoting AS-IA Letter). This statement was not
made in a detailed analysis of the Restoration Act, itself, but rather, in the Assistant Secretary’s analysis of the Wampanoag
Tribal Council of Gay Head, Inc., Indian Claims Settlement Act
of 1987, and therefore is not dispositive here.
127
Restoration Act, supra note 2, § 105(f). Nothing in Section 105(f) suggests that the grant of jurisdiction to the State is
exclusive.
128
1-6 Cohen’s Handbook of Federal Indian Law § 6.04[3][c]
(2012) (“The nearly unanimous view among tribal courts, state
courts, lower federal courts, state attorneys general, the Solicitor’s Ofﬁce for the Department of the Interior, and legal scholars

App. 162
does not use the words “exclusive” or “complete” in
describing the jurisdiction conferred upon the State
in Section 105(f).129 It does, however, use the word
“exclusive” in Section 107(c) to describe the grant of
jurisdiction to the federal courts for resolution of gaming disputes arising from the provisions of Section
107(a).130 “Where ‘Congress includes particular language in one section of a statute but omits it in another
section of the same Act, it is generally presumed that
Congress acts intentionally and purposely in the disparate inclusion or exclusion.’ ”131
In sum, the Restoration Act does not grant the State
exclusive jurisdiction over the Pueblo’s land and does
not divest the Pueblo of its inherent jurisdiction. To
is that Public Law 280 left the inherent civil and criminal jurisdiction of Indian nations untouched” (internal citations omitted)).
129
See Narragansett, 19 F.3d at 702 (“omission of words such
as ‘exclusive’ or ‘complete’ ” in statute assigning jurisdiction was
“meaningful”); United States v. Cook, 922 F.2d 1026, 1032-33 (2d
Cir. 1991) (ﬁnding absence of terms “exclusive” or “complete” in
Federal statute’s grant of jurisdiction over offenses committed by
or against Indians meant the statute only extended to the state
jurisdiction concurrent with that of the Federal government).
130
Compare id. § 105(f) (no use of “exclusive” or “complete”),
with § 107(c) (“Notwithstanding section 105(f), the courts of the
United States shall have exclusive jurisdiction over any offense
in violation of subsection (a) * * * * Section 107(c), would have
been particularly important in the pre-IGRA environment in
which the Restoration Act was negotiated and ultimately enacted.
Because we conclude that the IGRA effects a partial implied repeal of the Restoration Act’s gaming provisions, Section 107(c) is
less relevant today.
131
Narragansett, 19 F.3d at 702 (quoting Rodriguez v. United
States, 480 U.S. 522, 525 (1987)).

App. 163
the contrary, the Act speciﬁcally declares that it is not
a grant of civil and criminal regulatory jurisdiction to
the State.132
C. Section 107 of the Restoration Act and
the IGRA are repugnant to each other.
Because the Tribe possesses sufﬁcient jurisdiction to
trigger application of the IGRA, we must determine
whether the IGRA effected an implied repeal of any
portion of the Restoration Act. When two federal statutes touch on the same subject matter, courts should
attempt to give effect to both if they can be harmonized.133 Therefore, “so long as the two statutes, fairly
construed, are capable of coexistence, courts should regard each as effective.”134 However, if portions of the
statutes are repugnant to each other, one must prevail

132

The second part of the Indian lands determination, whether
the tribe exercises governmental power, is a more fact-based determination than the jurisdictional question, and does not require
construction of the Restoration Act; therefore, we leave this determination to the NIGC. 2013 Wampanoag Opinion Letter,
supra note 99, at 14-15. Nonetheless, we note that, unlike the
settlement act at issue in Narragansett, which expressly limited
the Narragansett’s exercise of jurisdiction over its settlement
lands, see 25 U.S.C. § 1771e, the Restoration Act contains no language whatsoever limiting the Tribe’s exercise of governmental
power on its reservation or tribal lands.
133
Narragansett, 19 F.3d at 703.
134
Id. at 703 (citing Traynor v. Tumage, 485 U.S. 535, 54748 (1988); Pipeﬁtters Local 562 v. United States, 407 U.S. 385,
432 n.43 (1972); United States v. Tynen, 78 U.S. (11 Wall.) 88, 82
(1871)).

App. 164
over the other.135 Even where the two statutes are not
outright repugnant, “a repeal may be implied in cases
where the later statutes covers the entire subject ‘and
embraces new provisions, plainly showing that it was
intended as a substitute for the ﬁrst act.’ ”136 When a
later statute impliedly repeals a former statute, a partial repeal is preferred and only the parts of the former
statute that are in plain conﬂict with the later should
be nulliﬁed.137
We and the Fifth Circuit agree that the gaming provisions of the Restoration Act cannot be read in harmony
with the IGRA.138
The Fifth Circuit concluded that, by enacting the Restoration Act, “Congress * * * intended for Texas’ gaming laws and regulations to operate as surrogate
federal law on the Tribe’s reservation in Texas.”139 Approximately one year later, however, in enacting the
IGRA, Congress “expressly preempt[ed] the ﬁeld in the
governance of gaming activities on Indian lands”140
by creating a nationwide regulatory framework that
“struck a ‘ﬁnely-tuned balance between the interests of
the states and the tribes’ to remedy the Cabazon Band

135

Id. (citing Tynen, 78 U.S. (11 Wall.) at 92).
Id. at 703-04 (citing, inter alia, Posadas v. Nat’l City Bank,
296 U.S. 497, 503-04 (1936); Tynen, 78 U.S. (11 Wall.) at 92).
137
Id. at 704 n.19.
138
See Part II.A, supra.
139
Ysleta del Sur, 36 F.3d at 1334.
140
1988 Senate IGRA Report, supra note 36, at 6.
136

App. 165
prohibition on state regulation of Indian gaming.”141
If, as the Fifth Circuit concluded, Section 107(a)
was enacted to serve as surrogate federal law on the
Tribe’s reservation, and the IGRA was enacted to “expressly preempt the ﬁeld” and to “str[ike] a ‘ﬁnelytuned balance between the interests of the states and
the tribes,’ ” then Section 107(a) cannot be harmonized
with the IGRA.
Although the Department, too, concludes that the Restoration Act and the IGRA cannot be reconciled, we respectfully follow a different path than did the Fifth
Circuit. We interpret Section 107(a) as codifying the
distinction, set forth in Cabazon and enacted in the
IGRA, between civil/regulatory laws and criminal/
prohibitory laws. In Section 107(a), Congress ensured
that gaming prohibited by the State of Texas could not
take place on the Tribe’s reservation and tribal
lands.142 Under this interpretation, Section 107(a), in
and of itself, is not repugnant to the IGRA.
However, the Restoration Act and the IGRA provide for
different remedies for gaming conducted in violation of
141

Texas v. United States, 497 F.3d 491, 506-507 (5th Cir.
2007) (quoting United States v. Spokane Tribe of Indians, 139
F.3d 1297, 1301 (9th Cir. 1988)); see also Cheyenne River Sioux
Tribe v. South Dakota, 830 F. Supp. 523, 526 (D.S.D. 1993) (citing
1988 Senate IGRA Report, supra note 36), aff ’d 3 F.3d 273 (8th
Cir. 1993).
142
We are aware that the Fifth Circuit expressly rejected this
interpretation. Ysleta del Sur, 36 F.3d at 1333-34. As set forth
supra, the Department, as the agency with responsibility for implementing the Restoration Act, may adopt an alternative interpretation.

App. 166
their provisions. The Restoration Act provides that violations of Section 107(a) “shall be subject to the same
civil and criminal penalties that are provided by the
laws of the State of Texas.”143 Furthermore, the Restoration Act provides the State with an independent avenue for enforcement of a violation of Section 107(a), to
wit, an equitable action in Federal district court to enjoin gaming on the Tribe’s reservation or tribal lands
that violates Section 107(a).144 The IGRA and its implementing regulations, on the other hand, provide for
an entirely different enforcement scheme.145
Because the enforcement regime provided in Section
107 of the Restoration Act cannot be reconciled with
the enforcement regime provided in the IGRA, we conclude that the two statutes are repugnant to one another.

143

Restoration Act, supra note 2, § 107(a).
Id. § 107(c).
145
18 U.S.C. §§ 1166-1168 (IGRA criminal laws and penalties; 25 U.S.C. § 2706(b)(10) (NIGC has authority to promulgate
regulations for implementation of the IGRA; 25 U.S.C. § 2713
(civil penalties for violation of the IGRA); 25 C.F.R. Part 573
(Compliance and Enforcement); 25 C.F.R. Part 575 (Civil Fines).
144

App. 167
D. In the conﬂict between Section 107 of
the Restoration Act and the IGRA, the
IGRA prevails, thus impliedly repealing
Section 107.
As the Fifth Circuit noted in Ysleta del Sur, “repeals by
implication are not favored.”146 Nonetheless, when two
statutes cannot be reconciled, one must prevail over
the other.147 Here, our analysis diverges more sharply
from that of the Fifth Circuit.
The general rule, as set forth by the Narragansett
court, is that “where two acts are in irreconcilable conﬂict, the later act prevails to the extent of the impasse.”148 In the conﬂict between Section 107 of the
Restoration Act and the IGRA, this general rule suggests, absent good cause to the contrary, that the IGRA
prevails. In addition, in its analysis of the interplay
between the Restoration Act and the IGRA, not only
did the Fifth Circuit neglect to apply or even acknowledge the Indian canon, it also failed to employ or
even acknowledge “the general rule * * * that where
two acts are in irreconcilable conﬂict, the later act prevails to the extent of the impasse.”149 IGRA was enacted approximately one year after the Restoration
Act.

146

Ysleta del Sur, 36 F.3d at 1335 (quoting Crawford Fitting,
482 U.S. at 442).
147
Narragansett, 19 F.3d at 703.
148
Id. at 704.
149
Narragansett, 19 F.3d at 704 (citing Watt v. Alaska, 451
U.S. 259, 266 (1981)).

App. 168
The Fifth Circuit held that the Restoration Act prevails because it, being applicable to only two tribes in
a single state, is a speciﬁc statute and the IGRA, being
of nationwide application, is a general statute.150 However, the IGRA also is a speciﬁc statute because it is
speciﬁcally directed to the issue of Indian gaming,
while the Restoration Act is a general statute because
its primary purpose is to restore the Federal trust relationship, with gaming constituting only one part
of that statute. The district court in Narragansett
concluded as much with respect to the Rhode Island
Settlement Act.151 Moreover, where “the enacting Congress is demonstrably aware of the earlier law at the
time of the later law’s enactment, there is no basis for
indulging the presumption” that Congress did not intend its later statute to act upon the earlier one.152
In addition, our conclusion that the IGRA prevails preserves the core of both acts. The primary purpose of
the Restoration Act was to restore the Federal trust relationship and Federal services and assistance to the
Ysleta del Sur Pueblo and the Alabama and Coushatta
Indian Tribes of Texas.153 The Act’s gaming provisions
were enacted to ﬁll a legal and jurisdictional void that

150

Ysleta del Sur, 36 F.3d at 1335.
Rhode Island v. Narragansett Tribe of Indians, 816 F. Supp.
796, 804 (D.R.I. 1993) (holding that, for purposes of gaming, the
IGRA is a speciﬁc act and the tribe’s settlement act is a general
act), aff ’d 19 F.3d 685.
152
Narragansett, 19 F.3d at 704 n.21.
153
Restoration Act, supra note 2, Title.
151

App. 169
existed at that time, before the IGRA was enacted.154
Consequently, an interpretation of the two statutes
that ﬁnds that the IGRA impliedly repeals Section 107
of the Restoration Act nevertheless leaves the core of
the Restoration Act intact.155 Moreover, the IGRA ﬁlled
the legal and jurisdictional gap that existed at the time
the Restoration Act was enacted, further mitigating
any harm from ﬁnding an implied repeal of Section
107. On the other hand, the IGRA by its plain language was intended to apply to all Indian tribes,156 and
one of its stated purposes was “to expressly preempt
the ﬁeld in the governance of gaming activities on Indian lands[.]”157 Although Congress has expressly exempted certain tribes from the operation of the IGRA,158
154

See Part I.B, supra.
Cf. Narragansett, 19 F.3d at 704 (reading the IGRA and
the settlement act at issue such that the IGRA prevailed “leaves
the heart of the Settlement Act untouched”).
156
25 U.S.C. § 2703(5) (“The term ‘Indian tribe’ means any
Indian tribe, band, nation, or other organized group or community
of Indians which—(A) is recognized as eligible by the Secretary
for the special programs and services provided by the United
States to Indians because of their status as Indians, and (B) is
recognized as possessing powers of self-government” (emphasis
added).).
157
1988 Senate IGRA Report, supra note 36, at 6.
158
See, e.g., 25 U.S.C. § 9411 (the IGRA does not apply to the
Catawba Indian Tribe of South Carolina); 25 U.S.C. § 1708(b)
(Narragansett settlement lands are not “Indian lands” for purposes of the IGRA); see also Passamaquoddy, 75 F.3d 784 (holding
that savings clause in the Maine Indian Claims Settlement Act,
paired with the IGRA’s lack of any speciﬁc reference to any applicability in the State of Maine, effectively exempted tribes
within the State of Maine from operation of the IGRA).
155

App. 170
to ﬁnd such an exemption without any express statutory exemption would undermine the goal of a “comprehensive regulatory framework”159 the IGRA.
Finally, our conclusion that the IGRA effects an implied repeal of the gaming provisions of the Restoration Act is the only conclusion that is consistent with
the Indian canon of construction. When choosing between two reasonable interpretations of a statute enacted for the beneﬁt of Indians, the Indian canon itself
is not diapositive of the issue, but rather, it is an essential lens through which statute’s text, “the ‘surrounding circumstances,’ and the ‘legislative history’ are to
be examined.”160 The IGRA is a statute enacted for the
beneﬁt of Indians and Indian tribes.161 Although the
Fifth Circuit had previously recognized the role that
the Indian canon plays in interpreting statutes enacted for the beneﬁt of Indian tribes,162 it did not employ, or even acknowledge, the relevance of the Indian
canon to the determination of whether the IGRA
159

Wells Fargo Bank, 658 F.3d at 687.
Rosebud Sioux Tribe v. Kneip, 430 U.S. 584, 586 (1977)
(quoting Maltz v. Arnett, 412 U.S. 481, 505 (1973)).
161
25 U.S.C. § 2702(1) (among purposes of the IGRA is to
“promot[e] tribal economic development, self-sufficiency, and strong
tribal governments”); see also Artichoke Joe’s Cal. Grand Casino
v. Norton, 353 F.3d 712, 730 (9th Cir. 2003) (“IGRA is undoubtedly a statute passed for the beneﬁt of Indian tribes” (citing
IGRA’s declaration of policy contained in 25 U.S.C. § 2702(1))).
162
Seminole Tribe of Fla. v. Butterworth, 658 F.2d 310, 316
(1981) (“The Supreme Court * * * has stated that statutes passed
for the beneﬁt of dependent Indian tribes * * * are to be liberally
construed, doubtful expressions being resolved in favor of the Indians” (quoting Bryan, 426 U.S. at 392)).
160

App. 171
governs gaming on the Tribe’s reservation and tribal
lands. Therefore, we depart from the Fifth Circuit and
apply the construction that favors the Tribe.
We conclude that the IGRA effects an implied repeal of
Section 107 of the Restoration Act. In doing so, however, we note that our opinion does nothing to undermine the gaming prohibitions that currently exist in
Texas law. The State already provides for bingo, which
is the functional equivalent of the Class II gaming governed by the gaming ordinance that the Tribe submitted to the NIGC. Under the IGRA, the Tribe may not
engage in Class III gaming unless it ﬁrst reaches a
compact with the State. In other words, our conclusion
that the IGRA governs gaming on the Tribe’s reservation and tribal lands preserves the authority of both
the Tribe and the State to pursue their respective public policies toward gaming.
III. CONCLUSION
A comprehensive reading of the interplay between the
Restoration Act and the IGRA leads us to conclude that
the IGRA applies to the Ysleta del Sur Pueblo. The
Restoration Act was enacted in order to restore the
Federal trust relationship with the Ysleta del Sur
Pueblo and the Alabama and Coushatta Tribes in
Texas. Because it was enacted when there was a great
deal of uncertainty concerning the law of Indian gaming, section 107 of the Act was drafted to ﬁll any gap in
the law. That gap, however, was subsequently ﬁlled by

App. 172
the enactment of the IGRA, scarcely one year after the
Restoration Act.
Because Section 107 of the Restoration Act contains
enforcement provisions that are at odds with the
IGRA, the two statutes cannot be harmonized. In that
conﬂict, the IGRA prevails and effects an implied repeal of Section 107 of the Restoration Act. Our conclusion is consistent with the rule that favors the laterenacted statute, which in this case is the IGRA. In addition, an implied repeal of Section 107 leaves the core
of the Restoration Act intact, while an implied exception to the IGRA would undermine the national regulatory scheme at that statute’s core, and undermine its
goal of providing opportunities for tribal economic development. This interpretation is consistent with the
text of the IGRA, the legislative histories of both the
Restoration Act and the IGRA, and the Indian canon of
construction.
Therefore, in answer to your question, we conclude
that the Restoration Act does not prohibit the Ysleta
del Sur Pueblo from gaming on its Indian lands under
IGRA.
Sincerely,
/s/ Venus McGhee Prince
Venus McGhee Prince
Deputy Solicitor for
Indian Affairs

App. 173
[LOGO]
October 8, 2015
Nita Battise, Chairperson
Alabama-Coushatta Tribe of Texas
571 State Park Road 56
Livingston, TX 77351
RE: Alabama-Coushatta Tribe of Texas Class II Tribal
Gaming Ordinance and Resolution No. 2015-038.
Dear Chairperson Battise:
This letter responds to the request by the AlabamaCoushatta Tribe of Texas July 10, 2015, to the National
Indian Gaming Commission to review and approve the
Tribe’s Class II gaming ordinance. The gaming ordinance was adopted by Resolution No. 2015-038 by the
Alabama-Coushatta Tribal Council.
Resolution No. 2015-038 adopts the Tribal gaming ordinance, which was created to govern and regulate the
operation of Class II gaming on the Tribe’s Indian
lands. Because the Tribe’s ordinance permits it to conduct gaming on its Tribal Indian lands,1 as deﬁned by
the Ysleta del Sur Pueblo and Alabama and Coushatta
Indian Tribes of Texas Restoration Act (Restoration
Act)2 an analysis of whether the Tribe’s lands are eligible for gaming was necessary.

1

Alabama-Coushatta Tribe of Texas II Tribal Gaming Ordinance § 5.
2
25 U.S.C. §§ 731 et seq.

App. 174
Analysis
The Alabama-Coushatta’s ordinance permits it to
conduct gaming on its Tribal Indian lands.3 It deﬁnes
Indian Lands, Tribal Lands, or Tribal Indian lands as
all lands within the limits of the Tribe’s Reservation.
It additionally deﬁnes Tribal Indian lands “as lands
acquired by the Secretary in trust prior to October 17,
1988, or those lands acquired by the Secretary in trust
after October 17, 1988, that meet one or more of the
exceptions set forth in 25 U.S.C. § 2719. Finally, the
Tribe deﬁnes Reservation as it is deﬁned in the Tribe’s
Restoration Act.
As discussed in greater detail below, the Tribal
lands or Tribal Indian lands speciﬁed in the ordinance
amendment are Indian lands as deﬁned by IGRA and
are eligible for gaming under the Act. The Restoration
Act, however, provides a general grant of state jurisdiction over the Alabama-Coushatta’s lands, through
Public Law 280, and applies state gaming laws to the
Tribe’s lands, with a qualiﬁcation. Accordingly, the
Restoration Act must be taken into consideration as
part of this ordinance review.
Jurisdiction
Because a similar question regarding the Ysleta
del Sur Pueblo’s Restoration act arose when the
Pueblo submitted its ordinance to the NIGC for the
3

Alabama-Coushatta Tribe of Texas Class II Tribal Gaming
Ordinance § 5.

App. 175
Chairman’s approval, and the Secretary of the Interior
administers tribal restoration acts, the NIGC Ofﬁce of
General Counsel sought the Department of Interior,
Ofﬁce of the Solicitor’s opinion as to whether under
the Restoration Act the Pueblo can game pursuant to
IGRA on its Indian lands; speciﬁcally, whether the
Pueblo possesses sufﬁcient jurisdiction over its Restoration Act lands for IGRA to apply and if so, how to
interpret the interface between IGRA and the Restoration Act.4 Because the Tribe and Pueblo share the
same Restoration Act, with nearly identical language,
that same jurisdictional analysis applies to the Alabama-Coushatta’s portion of the Restoration Act.
As a preliminary analysis, we must examine the
scope of IGRA to determine whether the NIGC has jurisdiction over the Tribe’s Restoration Act lands or
phrased alternatively, whether the Tribe’s Restoration
Act lands are exempt from IGRA’s domain. Nothing in
the IGRA’s language or its legislative history indicates
that the Tribe is outside the scope of NIGC’s jurisdiction. As such, the NIGC has broad jurisdiction over the
Tribe’s land.
Next, we must look to the Ofﬁce of the Solicitor’s
opinion on the Ysleta del Sur Pueblo. On September
10, 2010, the Ofﬁce of the Solicitor concurred with our
conclusion that IGRA applies to the Pueblo and further
opined the Pueblo possesses sufﬁcient legal jurisdiction over its settlement lands for IGRA to apply, that
4

May 29, 2015, Letter to Deputy Solicitor, Indian Affairs Venus Prince from NIGC General Counsel, Eric N. Shepard.

App. 176
IGRA governs gaming on the Pueblo’s reservation, and
IGRA impliedly repeals the portions of the Restoration
Act repugnant to IGRA.5 Again, because the Tribe and
Pueblo share the same Restoration Act, with nearly
identical language, the Ofﬁce of the Solicitor’s analysis
applies to the Alabama-Coushatta. Therefore, the only
remaining questions are whether those lands qualify
as Indian lands as deﬁned in IGRA and whether they
are eligible for gaming.
Indian Lands
IGRA permits an Indian Tribe to “engage in, or license and regulate gaming on Indian lands with such
Tribe’s jurisdiction.”6 It deﬁnes Indian lands as all
lands with the limits of any Indian Reservation.7 In
1987, the Restoration Act established a reservation
for the Alabama-Coushatta,8 comprised of the Tribe’s
land holdings at that time.9 Because the Tribe has
a reservation—established a year before Congress
passed IGRA—it has IGRA-deﬁned Indian lands. Further, the Tribe identiﬁed in its ordinance that it authorizes gaming on its Tribal Indian lands—deﬁned
as all lands within the limits of its Reservation. The
5

September 10, 2015, Letter to NIGC General Counsel, Michael Hoenig, from Deputy Solicitor for Indian Affairs, Venus
McGhee Prince. (Attachment A.)
6
25 U.S.C. § 2710(b)(1).
7
25 U.S.C. § 2703(4)(A); 25 C.F.R. § 502.12(a): “Indian lands
means: (a) Land within the limits of an Indian reservation.”
8
25 U.S.C. § 736(a)
9
25 U.S.C. § 731(3).

App. 177
Alabama-Coushatta’s ordinance limits where it can operate a class II gaming facility to its Reservation. Accordingly, the Restoration Act lands qualify as Indian
lands under IGRA.
Finally, because the Tribe’s Restoration Act, which
created the reservation, pre-dates IGRA, an after-acquired land analysis is not necessary.10
Conclusion
In conclusion, because the Tribe possesses sufﬁcient legal jurisdiction over its Restoration Act lands,
IGRA applies. Further, because the lands qualify as
Indian lands under IGRA, the lands are eligible for
gaming under IGRA.
Thank you for bringing the amended gaming ordinance to our attention. The ordinance is approved, as
it is consistent with the requirements of IGRA and
NIGC regulations.
If you have any questions, please contact staff attorney Heather Corson at (202) 632-7003.
Sincerely,
/s/ Jonodev O. Chaudhuri
Jonodev O. Chaudhuri
Chairman
Enclosure

10

See generally 25 U.S.C. § 2719.

App. 178
cc: Fred Petti
Petti and Briones (via email, only:
fpetti@pettibriones.com)

App. 179
25 U.S.C.A. § 2701
§ 2701. Findings
The Congress ﬁnds that—
(1) numerous Indian tribes have become engaged in or have licensed gaming activities on Indian lands as a means of generating tribal
governmental revenue;
(2) Federal courts have held that section 81 of
this title requires Secretarial review of management contracts dealing with Indian gaming, but
does not provide standards for approval of such
contracts;
(3) existing Federal law does not provide clear
standards or regulations for the conduct of gaming
on Indian lands;
(4) a principal goal of Federal Indian policy is to
promote tribal economic development, tribal selfsufﬁciency, and strong tribal government; and
(5) Indian tribes have the exclusive right to regulate gaming activity on Indian lands if the gaming activity is not speciﬁcally prohibited by
Federal law and is conducted within a State which
does not, as a matter of criminal law and public
policy, prohibit such gaming activity.

App. 180
25 U.S.C.A. § 2702
§ 2702. Declaration of policy
The purpose of this chapter is—
(1) to provide a statutory basis for the operation
of gaming by Indian tribes as a means of promoting tribal economic development, self-sufﬁciency,
and strong tribal governments;
(2) to provide a statutory basis for the regulation
of gaming by an Indian tribe adequate to shield it
from organized crime and other corrupting inﬂuences, to ensure that the Indian tribe is the primary beneﬁciary of the gaming operation, and to
assure that gaming is conducted fairly and honestly by both the operator and players; and
(3) to declare that the establishment of independent Federal regulatory authority for gaming
on Indian lands, the establishment of Federal
standards for gaming on Indian lands, and the
establishment of a National Indian Gaming Commission are necessary to meet congressional
concerns regarding gaming and to protect such
gaming as a means of generating tribal revenue.

App. 181
25 U.S.C.A. § 2703
§ 2703. Deﬁnitions
For purposes of this chapter—
(1) The term “Attorney General” means the Attorney General of the United States.
(2) The term “Chairman” means the Chairman
of the National Indian Gaming Commission.
(3) The term “Commission” means the National
Indian Gaming Commission established pursuant
to section 2704 of this title.
(4)

The term “Indian lands” means—
(A) all lands within the limits of any Indian
reservation; and
(B) any lands title to which is either held in
trust by the United States for the beneﬁt of
any Indian tribe or individual or held by any
Indian tribe or individual subject to restriction by the United States against alienation and over which an Indian tribe exercises
governmental power.

(5) The term “Indian tribe” means any Indian
tribe, band, nation, or other organized group or
community of Indians which—
(A) is recognized as eligible by the Secretary
for the special programs and services provided by the United States to Indians because
of their status as Indians, and
(B) is recognized as possessing powers of
self-government.

App. 182
(6) The term “class I gaming” means social
games solely for prizes of minimal value or traditional forms of Indian gaming engaged in by individuals as a part of, or in connection with, tribal
ceremonies or celebrations.
(7)(A)

The term “class II gaming” means—

(i) the game of chance commonly known as
bingo (whether or not electronic, computer, or
other technologic aids are used in connection
therewith)—
(I) which is played for prizes, including
monetary prizes, with cards bearing numbers or other designations,
(II) in which the holder of the card covers such numbers or designations when
objects, similarly numbered or designated, are drawn or electronically determined, and
(III) in which the game is won by the
ﬁrst person covering a previously designated arrangement of numbers or designations on such cards,
including (if played in the same location) pull-tabs, lotto, punch boards, tip
jars, instant bingo, and other games
similar to bingo, and
(ii)

card games that—
(I) are explicitly authorized by the laws
of the State, or

App. 183
(II) are not explicitly prohibited by the
laws of the State and are played at any
location in the State,
but only if such card games are played
in conformity with those laws and regulations (if any) of the State regarding
hours or periods of operation of such
card games or limitations on wagers or
pot sizes in such card games.
(B) The term “class II gaming” does not include—
(i) any banking card games, including
baccarat, chemin de fer, or blackjack (21),
or
(ii) electronic or electromechanical facsimiles of any game of chance or slot machines of any kind.
(C) Notwithstanding any other provision of
this paragraph, the term “class II gaming” includes those card games played in the State of
Michigan, the State of North Dakota, the
State of South Dakota, or the State of Washington, that were actually operated in such
State by an Indian tribe on or before May 1,
1988, but only to the extent of the nature and
scope of the card games that were actually operated by an Indian tribe in such State on or
before such date, as determined by the Chairman.
(D) Notwithstanding any other provision of
this paragraph, the term “class II gaming” includes, during the 1-year period beginning on

App. 184
October 17, 1988, any gaming described in
subparagraph (B)(ii) that was legally operated on Indian lands on or before May 1, 1988,
if the Indian tribe having jurisdiction over the
lands on which such gaming was operated requests the State, by no later than the date
that is 30 days after October 17, 1988, to negotiate a Tribal-State compact under section
2710(d)(3) of this title.
(E) Notwithstanding any other provision of
this paragraph, the term “class II gaming” includes, during the 1-year period beginning on
December 17, 1991, any gaming described in
subparagraph (B)(ii) that was legally operated on Indian lands in the State of Wisconsin
on or before May 1, 1988, if the Indian tribe
having jurisdiction over the lands on which
such gaming was operated requested the
State, by no later than November 16, 1988, to
negotiate a Tribal-State compact under section 2710(d)(3) of this title.
(F) If, during the 1-year period described in
subparagraph (E), there is a ﬁnal judicial determination that the gaming described in subparagraph (E) is not legal as a matter of State
law, then such gaming on such Indian land
shall cease to operate on the date next following the date of such judicial decision.
(8) The term “class III gaming” means all forms
of gaming that are not class I gaming or class II
gaming.
(9) The term “net revenues” means gross revenues of an Indian gaming activity less amounts

App. 185
paid out as, or paid for, prizes and total operating
expenses, excluding management fees.
(10) The term “Secretary” means the Secretary
of the Interior.

25 U.S.C.A. § 2704
§ 2704. National Indian Gaming Commission
(a)

Establishment

There is established within the Department of the Interior a Commission to be known as the National Indian Gaming Commission.
(b) Composition; investigation; term of ofﬁce;
removal
(1) The Commission shall be composed of three fulltime members who shall be appointed as follows:
(A) a Chairman, who shall be appointed by the
President with the advice and consent of the Senate; and
(B) two associate members who shall be appointed by the Secretary of the Interior.
(2)(A) The Attorney General shall conduct a background investigation on any person considered for appointment to the Commission.
(B) The Secretary shall publish in the Federal Register the name and other information the Secretary
deems pertinent regarding a nominee for membership

App. 186
on the Commission and shall allow a period of not less
than thirty days for receipt of public comment.
(3) Not more than two members of the Commission
shall be of the same political party. At least two members of the Commission shall be enrolled members of
any Indian tribe.
(4)(A) Except as provided in subparagraph (B), the
term of ofﬁce of the members of the Commission shall
be three years.
(B)

Of the initial members of the Commission—
(i) two members, including the Chairman, shall
have a term of ofﬁce of three years; and
(ii) one member shall have a term of ofﬁce of one
year.

(5) No individual shall be eligible for any appointment to, or to continue service on, the Commission,
who—
(A) has been convicted of a felony or gaming offense;
(B) has any ﬁnancial interest in, or management
responsibility for, any gaming activity; or
(C) has a ﬁnancial interest in, or management
responsibility for, any management contract approved pursuant to section 2711 of this title.
(6) A Commissioner may only be removed from ofﬁce
before the expiration of the term of ofﬁce of the member by the President (or, in the case of associate

App. 187
member, by the Secretary) for neglect of duty, or malfeasance in ofﬁce, or for other good cause shown.
(c)

Vacancies

Vacancies occurring on the Commission shall be ﬁlled
in the same manner as the original appointment. A
member may serve after the expiration of his term of
ofﬁce until his successor has been appointed, unless
the member has been removed for cause under subsection (b)(6).
(d)

Quorum

Two members of the Commission, at least one of which
is the Chairman or Vice Chairman, shall constitute a
quorum.
(e)

Vice Chairman

The Commission shall select, by majority vote, one of
the members of the Commission to serve as Vice Chairman. The Vice Chairman shall serve as Chairman during meetings of the Commission in the absence of the
Chairman.
(f )

Meetings

The Commission shall meet at the call of the Chairman
or a majority of its members, but shall meet at least
once every 4 months.

App. 188
(g)

Compensation

(1) The Chairman of the Commission shall be paid at
a rate equal to that of level IV of the Executive Schedule under section 5315 of Title 5.
(2) The associate members of the Commission shall
each be paid at a rate equal to that of level V of the
Executive Schedule under section 5316 of Title 5.
(3) All members of the Commission shall be reimbursed in accordance with Title 5 for travel, subsistence, and other necessary expenses incurred by them
in the performance of their duties.

25 U.S.C.A. § 2705
§ 2705. Powers of Chairman
(a) The Chairman, on behalf of the Commission,
shall have power, subject to an appeal to the Commission, to—
(1) issue orders of temporary closure of gaming
activities as provided in section 2713(b) of this title;
(2) levy and collect civil ﬁnes as provided in section 2713(a) of this title;
(3) approve tribal ordinances or resolutions regulating class II gaming and class III gaming as
provided in section 2710 of this title; and

App. 189
(4) approve management contracts for class II
gaming and class III gaming as provided in sections 2710(d)(9) and 2711 of this title.
(b) The Chairman shall have such other powers as
may be delegated by the Commission.

25 U.S.C.A. § 2706
§ 2706. Powers of Commission
Effective: May 12, 2006
(a) Budget approval; civil ﬁnes; fees; subpoenas; permanent orders
The Commission shall have the power, not subject to
delegation—
(1) upon the recommendation of the Chairman,
to approve the annual budget of the Commission
as provided in section 2717 of this title;
(2) to adopt regulations for the assessment and
collection of civil ﬁnes as provided in section
2713(a) of this title;
(3) by an afﬁrmative vote of not less than 2 members, to establish the rate of fees as provided in
section 2717 of this title;
(4) by an afﬁrmative vote of not less than 2 members, to authorize the Chairman to issue subpoenas as provided in section 2715 of this title; and
(5) by an afﬁrmative vote of not less than 2 members and after a full hearing, to make permanent

App. 190
a temporary order of the Chairman closing a gaming activity as provided in section 2713(b)(2) of
this title.
(b) Monitoring; inspection of premises; investigations; access to records; mail; contracts; hearings; oaths; regulations
The Commission—
(1) shall monitor class II gaming conducted on
Indian lands on a continuing basis;
(2) shall inspect and examine all premises located on Indian lands on which class II gaming is
conducted;
(3) shall conduct or cause to be conducted such
background investigations as may be necessary;
(4) may demand access to and inspect, examine,
photocopy, and audit all papers, books, and records
respecting gross revenues of class II gaming conducted on Indian lands and any other matters necessary to carry out the duties of the Commission
under this chapter;
(5) may use the United States mail in the same
manner and under the same conditions as any department or agency of the United States;
(6) may procure supplies, services, and property
by contract in accordance with applicable Federal
laws and regulations;
(7) may enter into contracts with Federal, State,
tribal and private entities for activities necessary
to the discharge of the duties of the Commission and, to the extent feasible, contract the

App. 191
enforcement of the Commission’s regulations with
the Indian tribes;
(8) may hold such hearings, sit and act at such
times and places, take such testimony, and receive
such evidence as the Commission deems appropriate;
(9) may administer oaths or afﬁrmations to witnesses appearing before the Commission; and
(10) shall promulgate such regulations and
guidelines as it deems appropriate to implement
the provisions of this chapter.
(c)

Omitted

(d) Application of Government Performance
and Results Act
(1)

In general

In carrying out any action under this chapter, the
Commission shall be subject to the Government
Performance and Results Act of 1993 (Public Law
103-62; 107 Stat. 285).
(2)

Plans

In addition to any plan required under the Government Performance and Results Act of 1993
(Public Law 103-62; 107 Stat. 285), the Commission shall submit a plan to provide technical assistance to tribal gaming operations in accordance
with that Act.

App. 192
25 U.S.C.A. § 2707
§ 2707. Commission stafﬁng
(a)

General Counsel

The Chairman shall appoint a General Counsel to the
Commission who shall be paid at the annual rate of
basic pay payable for GS-18 of the General Schedule
under section 5332 of Title 5.
(b)

Staff

The Chairman shall appoint and supervise other staff
of the Commission without regard to the provisions of
Title 5 governing appointments in the competitive service. Such staff shall be paid without regard to the provisions of chapter 51 and subchapter III of chapter 53
of such title relating to classiﬁcation and General
Schedule pay rates, except that no individual so appointed may receive pay in excess of the annual rate of
basic pay payable for GS-17 of the General Schedule
under section 5332 of that title.
(c)

Temporary services

The Chairman may procure temporary and intermittent services under section 3109(b) of Title 5, but at
rates for individuals not to exceed the daily equivalent
of the maximum annual rate of basic pay payable for
GS-18 of the General Schedule.
(d)

Federal agency personnel

Upon the request of the Chairman, the head of any
Federal agency is authorized to detail any of the

App. 193
personnel of such agency to the Commission to assist
the Commission in carrying out its duties under this
chapter, unless otherwise prohibited by law.
(e)

Administrative support services

The Secretary or Administrator of General Services
shall provide to the Commission on a reimbursable basis such administrative support services as the Commission may request.

25 U.S.C.A. § 2708
§ 2708. Commission; access to information
The Commission may secure from any department or
agency of the United States information necessary to
enable it to carry out this chapter. Upon the request of
the Chairman, the head of such department or agency
shall furnish such information to the Commission, unless otherwise prohibited by law.

25 U.S.C.A. § 2709
§ 2709. Interim authority to regulate gaming
Notwithstanding any other provision of this chapter,
the Secretary shall continue to exercise those authorities vested in the Secretary on the day before October
17, 1988, relating to supervision of Indian gaming until
such time as the Commission is organized and prescribes regulations. The Secretary shall provide staff

App. 194
and support assistance to facilitate an orderly transition to regulation of Indian gaming by the Commission.

25 U.S.C.A. § 2710
§ 2710. Tribal gaming ordinances
(a) Jurisdiction over class I and class II gaming
activity
(1) Class I gaming on Indian lands is within the exclusive jurisdiction of the Indian tribes and shall not
be subject to the provisions of this chapter.
(2) Any class II gaming on Indian lands shall continue to be within the jurisdiction of the Indian tribes,
but shall be subject to the provisions of this chapter.
(b) Regulation of class II gaming activity; net
revenue allocation; audits; contracts
(1) An Indian tribe may engage in, or license and regulate, class II gaming on Indian lands within such
tribe’s jurisdiction, if—
(A) such Indian gaming is located within a State
that permits such gaming for any purpose by any
person, organization or entity (and such gaming is
not otherwise speciﬁcally prohibited on Indian
lands by Federal law), and
(B) the governing body of the Indian tribe adopts
an ordinance or resolution which is approved by
the Chairman.

App. 195
A separate license issued by the Indian tribe shall be
required for each place, facility, or location on Indian
lands at which class II gaming is conducted.
(2) The Chairman shall approve any tribal ordinance
or resolution concerning the conduct, or regulation of
class II gaming on the Indian lands within the tribe’s
jurisdiction if such ordinance or resolution provides
that—
(A) except as provided in paragraph (4), the Indian tribe will have the sole proprietary interest
and responsibility for the conduct of any gaming
activity;
(B) net revenues from any tribal gaming are not
to be used for purposes other than—
(i) to fund tribal government operations or
programs;
(ii) to provide for the general welfare of the
Indian tribe and its members;
(iii) to promote tribal economic development;
(iv)

to donate to charitable organizations; or

(v) to help fund operations of local government agencies;
(C) annual outside audits of the gaming, which
may be encompassed within existing independent
tribal audit systems, will be provided by the Indian tribe to the Commission;
(D) all contracts for supplies, services, or concessions for a contract amount in excess of $25,000

App. 196
annually (except contracts for professional legal or
accounting services) relating to such gaming shall
be subject to such independent audits;
(E) the construction and maintenance of the
gaming facility, and the operation of that gaming
is conducted in a manner which adequately protects the environment and the public health and
safety; and
(F)

there is an adequate system which—
(i) ensures that background investigations
are conducted on the primary management ofﬁcials and key employees of the gaming enterprise and that oversight of such ofﬁcials and
their management is conducted on an ongoing
basis; and
(ii)

includes—
(I) tribal licenses for primary management ofﬁcials and key employees of the
gaming enterprise with prompt notiﬁcation to the Commission of the issuance of
such licenses;
(II) a standard whereby any person
whose prior activities, criminal record, if
any, or reputation, habits and associations pose a threat to the public interest
or to the effective regulation of gaming, or
create or enhance the dangers of unsuitable, unfair, or illegal practices and methods and activities in the conduct of
gaming shall not be eligible for employment; and

App. 197
(III) notiﬁcation by the Indian tribe to
the Commission of the results of such
background check before the issuance of
any of such licenses.
(3) Net revenues from any class II gaming activities
conducted or licensed by any Indian tribe may be used
to make per capita payments to members of the Indian
tribe only if—
(A) the Indian tribe has prepared a plan to allocate revenues to uses authorized by paragraph
(2)(B);
(B) the plan is approved by the Secretary as adequate, particularly with respect to uses described
in clause (i) or (iii) of paragraph (2)(B);
(C) the interests of minors and other legally incompetent persons who are entitled to receive any
of the per capita payments are protected and preserved and the per capita payments are disbursed
to the parents or legal guardian of such minors or
legal incompetents in such amounts as may be
necessary for the health, education, or welfare, of
the minor or other legally incompetent person under a plan approved by the Secretary and the governing body of the Indian tribe; and
(D) the per capita payments are subject to Federal taxation and tribes notify members of such
tax liability when payments are made.
(4)(A) A tribal ordinance or resolution may provide
for the licensing or regulation of class II gaming activities owned by any person or entity other than the Indian tribe and conducted on Indian lands, only if the

App. 198
tribal licensing requirements include the requirements described in the subclauses of subparagraph
(B)(i) and are at least as restrictive as those established by State law governing similar gaming within
the jurisdiction of the State within which such Indian
lands are located. No person or entity, other than the
Indian tribe, shall be eligible to receive a tribal license
to own a class II gaming activity conducted on Indian
lands within the jurisdiction of the Indian tribe if such
person or entity would not be eligible to receive a State
license to conduct the same activity within the jurisdiction of the State.
(B)(i) The provisions of subparagraph (A) of this paragraph and the provisions of subparagraphs (A) and
(B) of paragraph (2) shall not bar the continued operation of an individually owned class II gaming operation
that was operating on September 1, 1986, if—
(I) such gaming operation is licensed and regulated by an Indian tribe pursuant to an ordinance
reviewed and approved by the Commission in accordance with section 2712 of this title,
(II) income to the Indian tribe from such gaming
is used only for the purposes described in paragraph (2)(B) of this subsection,
(III) not less than 60 percent of the net revenues
is income to the Indian tribe, and
(IV) the owner of such gaming operation pays an
appropriate assessment to the National Indian
Gaming Commission under section 2717(a)(1) of
this title for regulation of such gaming.

App. 199
(ii) The exemption from the application of this subsection provided under this subparagraph may not be
transferred to any person or entity and shall remain in
effect only so long as the gaming activity remains
within the same nature and scope as operated on October 17, 1988.
(iii) Within sixty days of October 17, 1988, the Secretary shall prepare a list of each individually owned
gaming operation to which clause (i) applies and shall
publish such list in the Federal Register.
(c) Issuance of gaming license; certiﬁcate of
self-regulation
(1) The Commission may consult with appropriate
law enforcement ofﬁcials concerning gaming licenses
issued by an Indian tribe and shall have thirty days to
notify the Indian tribe of any objections to issuance of
such license.
(2) If, after the issuance of a gaming license by an Indian tribe, reliable information is received from the
Commission indicating that a primary management
ofﬁcial or key employee does not meet the standard established under subsection (b)(2)(F)(ii)(II), the Indian
tribe shall suspend such license and, after notice and
hearing, may revoke such license.
(3) Any Indian tribe which operates a class II gaming
activity and which—
(A) has continuously conducted such activity for
a period of not less than three years, including at
least one year after October 17, 1988; and

App. 200
(B) has otherwise complied with the provisions
of this section1
may petition the Commission for a certiﬁcate of selfregulation.
(4) The Commission shall issue a certiﬁcate of selfregulation if it determines from available information,
and after a hearing if requested by the tribe, that the
tribe has—
(A) conducted its gaming activity in a manner
which—
(i) has resulted in an effective and honest
accounting of all revenues;
(ii) has resulted in a reputation for safe, fair,
and honest operation of the activity; and
(iii) has been generally free of evidence of
criminal or dishonest activity;
(B) adopted and is implementing adequate systems for—
(i) accounting for all revenues from the activity;
(ii) investigation, licensing, and monitoring
of all employees of the gaming activity; and
(iii) investigation, enforcement and prosecution of violations of its gaming ordinance
and regulations; and

1

So in original. Probably should be followed by a comma.

App. 201
(C) conducted the operation on a ﬁscally and economically sound basis.
(5) During any year in which a tribe has a certiﬁcate
for self-regulation—
(A) the tribe shall not be subject to the provisions of paragraphs (1), (2), (3), and (4) of section
2706 (b) of this title;
(B) the tribe shall continue to submit an annual
independent audit as required by subsection
(b)(2)(C) and shall submit to the Commission a
complete resume on all employees hired and licensed by the tribe subsequent to the issuance of
a certiﬁcate of self-regulation; and
(C) the Commission may not assess a fee on such
activity pursuant to section 2717 of this title in excess of one quarter of 1 per centum of the gross
revenue.
(6) The Commission may, for just cause and after an
opportunity for a hearing, remove a certiﬁcate of selfregulation by majority vote of its members.
(d) Class III gaming activities; authorization;
revocation; Tribal-State compact
(1) Class III gaming activities shall be lawful on Indian lands only if such activities are—
(A) authorized by an ordinance or resolution
that—
(i) is adopted by the governing body of the
Indian tribe having jurisdiction over such
lands,

App. 202
(ii) meets the requirements of subsection
(b), and
(iii)

is approved by the Chairman,

(B) located in a State that permits such gaming
for any purpose by any person, organization, or entity, and
(C) conducted in conformance with a TribalState compact entered into by the Indian tribe and
the State under paragraph (3) that is in effect.
(2)(A) If any Indian tribe proposes to engage in, or to
authorize any person or entity to engage in, a class III
gaming activity on Indian lands of the Indian tribe, the
governing body of the Indian tribe shall adopt and submit to the Chairman an ordinance or resolution that
meets the requirements of subsection (b).
(B) The Chairman shall approve any ordinance or
resolution described in subparagraph (A), unless the
Chairman speciﬁcally determines that—
(i) the ordinance or resolution was not adopted
in compliance with the governing documents of
the Indian tribe, or
(ii) the tribal governing body was signiﬁcantly
and unduly inﬂuenced in the adoption of such ordinance or resolution by any person identiﬁed in
section 2711(e)(1)(D) of this title.
Upon the approval of such an ordinance or resolution,
the Chairman shall publish in the Federal Register
such ordinance or resolution and the order of approval.

App. 203
(C) Effective with the publication under subparagraph (B) of an ordinance or resolution adopted by the
governing body of an Indian tribe that has been approved by the Chairman under subparagraph (B), class
III gaming activity on the Indian lands of the Indian
tribe shall be fully subject to the terms and conditions
of the Tribal-State compact entered into under paragraph (3) by the Indian tribe that is in effect.
(D)(i) The governing body of an Indian tribe, in its
sole discretion and without the approval of the Chairman, may adopt an ordinance or resolution revoking
any prior ordinance or resolution that authorized class
III gaming on the Indian lands of the Indian tribe.
Such revocation shall render class III gaming illegal
on the Indian lands of such Indian tribe.
(ii) The Indian tribe shall submit any revocation ordinance or resolution described in clause (i) to the
Chairman. The Chairman shall publish such ordinance or resolution in the Federal Register and the
revocation provided by such ordinance or resolution
shall take effect on the date of such publication.
(iii) Notwithstanding any other provision of this subsection—
(I) any person or entity operating a class III
gaming activity pursuant to this paragraph on the
date on which an ordinance or resolution described in clause (i) that revokes authorization for
such class III gaming activity is published in the
Federal Register may, during the 1-year period beginning on the date on which such revocation

App. 204
ordinance or resolution is published under clause
(ii), continue to operate such activity in conformance with the Tribal-State compact entered into
under paragraph (3) that is in effect, and
(II) any civil action that arises before, and any
crime that is committed before, the close of such 1year period shall not be affected by such revocation ordinance or resolution.
(3)(A) Any Indian tribe having jurisdiction over the
Indian lands upon which a class III gaming activity is
being conducted, or is to be conducted, shall request
the State in which such lands are located to enter into
negotiations for the purpose of entering into a TribalState compact governing the conduct of gaming activities. Upon receiving such a request, the State shall
negotiate with the Indian tribe in good faith to enter
into such a compact.
(B) Any State and any Indian tribe may enter into a
Tribal-State compact governing gaming activities on
the Indian lands of the Indian tribe, but such compact
shall take effect only when notice of approval by the
Secretary of such compact has been published by the
Secretary in the Federal Register.
(C) Any Tribal-State compact negotiated under subparagraph (A) may include provisions relating to—
(i) the application of the criminal and civil laws
and regulations of the Indian tribe or the State
that are directly related to, and necessary for, the
licensing and regulation of such activity;

App. 205
(ii) the allocation of criminal and civil jurisdiction between the State and the Indian tribe necessary for the enforcement of such laws and
regulations;
(iii) the assessment by the State of such activities in such amounts as are necessary to defray the
costs of regulating such activity;
(iv) taxation by the Indian tribe of such activity
in amounts comparable to amounts assessed by
the State for comparable activities;
(v)

remedies for breach of contract;

(vi) standards for the operation of such activity
and maintenance of the gaming facility, including
licensing; and
(vii) any other subjects that are directly related
to the operation of gaming activities.
(4) Except for any assessments that may be agreed
to under paragraph (3)(C)(iii) of this subsection, nothing in this section shall be interpreted as conferring
upon a State or any of its political subdivisions authority to impose any tax, fee, charge, or other assessment
upon an Indian tribe or upon any other person or entity authorized by an Indian tribe to engage in a class
III activity. No State may refuse to enter into the negotiations described in paragraph (3)(A) based upon
the lack of authority in such State, or its political subdivisions, to impose such a tax, fee, charge, or other assessment.
(5) Nothing in this subsection shall impair the right
of an Indian tribe to regulate class III gaming on its

App. 206
Indian lands concurrently with the State, except to the
extent that such regulation is inconsistent with, or less
stringent than, the State laws and regulations made
applicable by any Tribal-State compact entered into by
the Indian tribe under paragraph (3) that is in effect.
(6) The provisions of section 1175 of Title 15 shall not
apply to any gaming conducted under a Tribal-State
compact that—
(A) is entered into under paragraph (3) by a
State in which gambling devices are legal, and
(B)

is in effect.

(7)(A) The United States district courts shall have
jurisdiction over—
(i) any cause of action initiated by an Indian
tribe arising from the failure of a State to enter
into negotiations with the Indian tribe for the purpose of entering into a Tribal-State compact under
paragraph (3) or to conduct such negotiations in
good faith,
(ii) any cause of action initiated by a State or Indian tribe to enjoin a class III gaming activity located on Indian lands and conducted in violation
of any Tribal-State compact entered into under
paragraph (3) that is in effect, and
(iii) any cause of action initiated by the Secretary to enforce the procedures prescribed under
subparagraph (B)(vii).
(B)(i) An Indian tribe may initiate a cause of action
described in subparagraph (A)(i) only after the close of

App. 207
the 180-day period beginning on the date on which the
Indian tribe requested the State to enter into negotiations under paragraph (3)(A).
(ii) In any action described in subparagraph (A)(i),
upon the introduction of evidence by an Indian tribe
that—
(I) a Tribal-State compact has not been entered
into under paragraph (3), and
(II) the State did not respond to the request of
the Indian tribe to negotiate such a compact or did
not respond to such request in good faith,
the burden of proof shall be upon the State to prove
that the State has negotiated with the Indian tribe in
good faith to conclude a Tribal-State compact governing the conduct of gaming activities.
(iii) If, in any action described in subparagraph
(A)(i), the court ﬁnds that the State has failed to negotiate in good faith with the Indian tribe to conclude a
Tribal-State compact governing the conduct of gaming
activities, the court shall order the State and the Indian Tribe2 to conclude such a compact within a 60-day
period. In determining in such an action whether a
State has negotiated in good faith, the court—
(I) may take into account the public interest,
public safety, criminality, ﬁnancial integrity, and
adverse economic impacts on existing gaming activities, and

2

So in original. Probably should not be capitalized.

App. 208
(II) shall consider any demand by the State for
direct taxation of the Indian tribe or of any Indian
lands as evidence that the State has not negotiated in good faith.
(iv) If a State and an Indian tribe fail to conclude a
Tribal-State compact governing the conduct of gaming
activities on the Indian lands subject to the jurisdiction of such Indian tribe within the 60-day period provided in the order of a court issued under clause (iii),
the Indian tribe and the State shall each submit to a
mediator appointed by the court a proposed compact
that represents their last best offer for a compact. The
mediator shall select from the two proposed compacts
the one which best comports with the terms of this
chapter and any other applicable Federal law and with
the ﬁndings and order of the court.
(v) The mediator appointed by the court under clause
(iv) shall submit to the State and the Indian tribe the
compact selected by the mediator under clause (iv).
(vi) If a State consents to a proposed compact during
the 60-day period beginning on the date on which the
proposed compact is submitted by the mediator to the
State under clause (v), the proposed compact shall be
treated as a Tribal-State compact entered into under
paragraph (3).
(vii) If the State does not consent during the 60-day
period described in clause (vi) to a proposed compact
submitted by a mediator under clause (v), the mediator
shall notify the Secretary and the Secretary shall

App. 209
prescribe, in consultation with the Indian tribe, procedures—
(I) which are consistent with the proposed compact selected by the mediator under clause (iv), the
provisions of this chapter, and the relevant provisions of the laws of the State, and
(II) under which class III gaming may be conducted on the Indian lands over which the Indian
tribe has jurisdiction.
(8)(A) The Secretary is authorized to approve any
Tribal-State compact entered into between an Indian
tribe and a State governing gaming on Indian lands of
such Indian tribe.
(B) The Secretary may disapprove a compact described in subparagraph (A) only if such compact violates—
(i)

any provision of this chapter,

(ii) any other provision of Federal law that does
not relate to jurisdiction over gaming on Indian
lands, or
(iii) the trust obligations of the United States to
Indians.
(C) If the Secretary does not approve or disapprove a
compact described in subparagraph (A) before the date
that is 45 days after the date on which the compact is
submitted to the Secretary for approval, the compact
shall be considered to have been approved by the Secretary, but only to the extent the compact is consistent
with the provisions of this chapter.

App. 210
(D) The Secretary shall publish in the Federal Register notice of any Tribal-State compact that is approved, or considered to have been approved, under
this paragraph.
(9) An Indian tribe may enter into a management
contract for the operation of a class III gaming activity
if such contract has been submitted to, and approved
by, the Chairman. The Chairman’s review and approval of such contract shall be governed by the provisions of subsections (b), (c), (d), (f ), (g), and (h) of
section 2711 of this title.
(e)

Approval of ordinances

For purposes of this section, by not later than the date
that is 90 days after the date on which any tribal gaming ordinance or resolution is submitted to the Chairman, the Chairman shall approve such ordinance or
resolution if it meets the requirements of this section.
Any such ordinance or resolution not acted upon at the
end of that 90-day period shall be considered to have
been approved by the Chairman, but only to the extent
such ordinance or resolution is consistent with the provisions of this chapter.

App. 211
25 U.S.C.A. § 2711
§ 2711. Management contracts
(a) Class II gaming activity; information on operators
(1) Subject to the approval of the Chairman, an Indian tribe may enter into a management contract for
the operation and management of a class II gaming activity that the Indian tribe may engage in under section 2710(b)(1) of this title, but, before approving such
contract, the Chairman shall require and obtain the
following information:
(A) the name, address, and other additional pertinent background information on each person or
entity (including individuals comprising such entity) having a direct ﬁnancial interest in, or management responsibility for, such contract, and, in
the case of a corporation, those individuals who
serve on the board of directors of such corporation
and each of its stockholders who hold (directly or
indirectly) 10 percent or more of its issued and
outstanding stock;
(B) a description of any previous experience that
each person listed pursuant to subparagraph (A)
has had with other gaming contracts with Indian
tribes or with the gaming industry generally, including speciﬁcally the name and address of any
licensing or regulatory agency with which such
person has had a contract relating to gaming; and
(C) a complete ﬁnancial statement of each person listed pursuant to subparagraph (A).

App. 212
(2) Any person listed pursuant to paragraph (1)(A)
shall be required to respond to such written or oral
questions that the Chairman may propound in accordance with his responsibilities under this section.
(3) For purposes of this chapter, any reference to the
management contract described in paragraph (1) shall
be considered to include all collateral agreements to
such contract that relate to the gaming activity.
(b)

Approval

The Chairman may approve any management contract
entered into pursuant to this section only if he determines that it provides at least—
(1) for adequate accounting procedures that are
maintained, and for veriﬁable ﬁnancial reports
that are prepared, by or for the tribal governing
body on a monthly basis;
(2) for access to the daily operations of the gaming to appropriate tribal ofﬁcials who shall also
have a right to verify the daily gross revenues and
income made from any such tribal gaming activity;
(3) for a minimum guaranteed payment to the
Indian tribe that has preference over the retirement of development and construction costs;
(4) for an agreed ceiling for the repayment of development and construction costs;
(5) for a contract term not to exceed ﬁve years,
except that, upon the request of an Indian tribe,
the Chairman may authorize a contract term that

App. 213
exceeds ﬁve years but does not exceed seven years
if the Chairman is satisﬁed that the capital investment required, and the income projections, for the
particular gaming activity require the additional
time; and
(6) for grounds and mechanisms for terminating
such contract, but actual contract termination
shall not require the approval of the Commission.
(c)

Fee based on percentage of net revenues

(1) The Chairman may approve a management contract providing for a fee based upon a percentage of the
net revenues of a tribal gaming activity if the Chairman determines that such percentage fee is reasonable
in light of surrounding circumstances. Except as otherwise provided in this subsection, such fee shall not
exceed 30 percent of the net revenues.
(2) Upon the request of an Indian tribe, the Chairman may approve a management contract providing
for a fee based upon a percentage of the net revenues
of a tribal gaming activity that exceeds 30 percent but
not 40 percent of the net revenues if the Chairman is
satisﬁed that the capital investment required, and income projections, for such tribal gaming activity require the additional fee requested by the Indian tribe.
(d)

Period for approval; extension

By no later than the date that is 180 days after the
date on which a management contract is submitted to
the Chairman for approval, the Chairman shall approve or disapprove such contract on its merits. The

App. 214
Chairman may extend the 180-day period by not more
than 90 days if the Chairman notiﬁes the Indian tribe
in writing of the reason for the extension. The Indian
tribe may bring an action in a United States district
court to compel action by the Chairman if a contract
has not been approved or disapproved within the period required by this subsection.
(e)

Disapproval

The Chairman shall not approve any contract if the
Chairman determines that—
(1) any person listed pursuant to subsection
(a)(1)(A) of this section—
(A) is an elected member of the governing
body of the Indian tribe which is the party to
the management contract;
(B) has been or subsequently is convicted of
any felony or gaming offense;
(C) has knowingly and willfully provided
materially important false statements or information to the Commission or the Indian
tribe pursuant to this chapter or has refused
to respond to questions propounded pursuant
to subsection (a)(2); or
(D) has been determined to be a person
whose prior activities, criminal record if any,
or reputation, habits, and associations pose a
threat to the public interest or to the effective
regulation and control of gaming, or create or
enhance the dangers of unsuitable, unfair, or
illegal practices, methods, and activities in the

App. 215
conduct of gaming or the carrying on of the
business and ﬁnancial arrangements incidental thereto;
(2) the management contractor has, or has attempted to, unduly interfere or inﬂuence for its
gain or advantage any decision or process of tribal
government relating to the gaming activity;
(3) the management contractor has deliberately
or substantially failed to comply with the terms of
the management contract or the tribal gaming ordinance or resolution adopted and approved pursuant to this chapter; or
(4) a trustee, exercising the skill and diligence
that a trustee is commonly held to, would not approve the contract.
(f )

Modiﬁcation or voiding

The Chairman, after notice and hearing, shall have the
authority to require appropriate contract modiﬁcations or may void any contract if he subsequently determines that any of the provisions of this section have
been violated.
(g)

Interest in land

No management contract for the operation and management of a gaming activity regulated by this chapter
shall transfer or, in any other manner, convey any interest in land or other real property, unless speciﬁc
statutory authority exists and unless clearly speciﬁed
in writing in said contract.

App. 216
(h)

Authority

The authority of the Secretary under section 81 of this
title, relating to management contracts regulated pursuant to this chapter, is hereby transferred to the Commission.
(i)

Investigation fee

The Commission shall require a potential contractor to
pay a fee to cover the cost of the investigation necessary to reach a determination required in subsection
(e) of this section.

25 U.S.C.A. § 2712
§ 2712. Review of existing ordinances and contracts
(a)

Notiﬁcation to submit

As soon as practicable after the organization of the
Commission, the Chairman shall notify each Indian
tribe or management contractor who, prior to October
17, 1988, adopted an ordinance or resolution authorizing class II gaming or class III gaming or entered into
a management contract, that such ordinance, resolution, or contract, including all collateral agreements relating to the gaming activity, must be submitted for his
review within 60 days of such notiﬁcation. Any activity
conducted under such ordinance, resolution, contract,
or agreement shall be valid under this chapter, or any
amendment made by this chapter, unless disapproved
under this section.

App. 217
(b) Approval or modiﬁcation of ordinance or
resolution
(1) By no later than the date that is 90 days after the
date on which an ordinance or resolution authorizing
class II gaming or class III gaming is submitted to the
Chairman pursuant to subsection (a), the Chairman
shall review such ordinance or resolution to determine
if it conforms to the requirements of section 2710(b) of
this title.
(2) If the Chairman determines that an ordinance or
resolution submitted under subsection (a) conforms to
the requirements of section 2710(b) of this title, the
Chairman shall approve it.
(3) If the Chairman determines that an ordinance or
resolution submitted under subsection (a) does not
conform to the requirements of section 2710(b) of this
title, the Chairman shall provide written notiﬁcation
of necessary modiﬁcations to the Indian tribe which
shall have not more than 120 days to bring such ordinance or resolution into compliance.
(c) Approval or modiﬁcation of management
contract
(1) Within 180 days after the submission of a management contract, including all collateral agreements,
pursuant to subsection (a), the Chairman shall subject
such contract to the requirements and process of section 2711 of this title.
(2) If the Chairman determines that a management
contract submitted under subsection (a), and the

App. 218
management contractor under such contract, meet the
requirements of section 2711 of this title, the Chairman shall approve the management contract.
(3) If the Chairman determines that a contract submitted under subsection (a), or the management contractor under a contract submitted under subsection
(a), does not meet the requirements of section 2711 of
this title, the Chairman shall provide written notiﬁcation to the parties to such contract of necessary modiﬁcations and the parties shall have not more than 120
days to come into compliance. If a management contract has been approved by the Secretary prior to October 17, 1988, the parties shall have not more than
180 days after notiﬁcation of necessary modiﬁcations
to come into compliance.

25 U.S.C.A. § 2713
§ 2713. Civil penalties
(a) Authority; amount; appeal; written complaint
(1) Subject to such regulations as may be prescribed
by the Commission, the Chairman shall have authority
to levy and collect appropriate civil ﬁnes, not to exceed
$25,000 per violation, against the tribal operator of an
Indian game or a management contractor engaged in
gaming for any violation of any provision of this chapter, any regulation prescribed by the Commission pursuant to this chapter, or tribal regulations, ordinances,

App. 219
or resolutions approved under section[s] 2710 or 2712
of this title.
(2) The Commission shall, by regulation, provide an
opportunity for an appeal and hearing before the Commission on ﬁnes levied and collected by the Chairman.
(3) Whenever the Commission has reason to believe
that the tribal operator of an Indian game or a management contractor is engaged in activities regulated
by this chapter, by regulations prescribed under this
chapter, or by tribal regulations, ordinances, or resolutions, approved under section 2710 or 2712 of this title,
that may result in the imposition of a ﬁne under subsection (a)(1), the permanent closure of such game, or
the modiﬁcation or termination of any management
contract, the Commission shall provide such tribal operator or management contractor with a written complaint stating the acts or omissions which form the
basis for such belief and the action or choice of action
being considered by the Commission. The allegation
shall be set forth in common and concise language and
must specify the statutory or regulatory provisions alleged to have been violated, but may not consist merely
of allegations stated in statutory or regulatory language.
(b)

Temporary closure; hearing

(1) The Chairman shall have power to order temporary closure of an Indian game for substantial
violation of the provisions of this chapter, of regulations prescribed by the Commission pursuant to this

App. 220
chapter, or of tribal regulations, ordinances, or resolutions approved under section 2710 or 2712 of this title.
(2) Not later than thirty days after the issuance by
the Chairman of an order of temporary closure, the Indian tribe or management contractor involved shall
have a right to a hearing before the Commission to determine whether such order should be made permanent or dissolved. Not later than sixty days following
such hearing, the Commission shall, by a vote of not
less than two of its members, decide whether to order
a permanent closure of the gaming operation.
(c)

Appeal from ﬁnal decision

A decision of the Commission to give ﬁnal approval of
a ﬁne levied by the Chairman or to order a permanent
closure pursuant to this section shall be appealable to
the appropriate Federal district court pursuant to
chapter 7 of Title 5.
(d)

Regulatory authority under tribal law

Nothing in this chapter precludes an Indian tribe from
exercising regulatory authority provided under tribal
law over a gaming establishment within the Indian
tribe’s jurisdiction if such regulation is not inconsistent with this chapter or with any rules or regulations adopted by the Commission.

App. 221
25 U.S.C.A. § 2714
§ 2714. Judicial review
Decisions made by the Commission pursuant to sections 2710, 2711, 2712, and 2713 of this title shall be
ﬁnal agency decisions for purposes of appeal to the appropriate Federal district court pursuant to chapter 7
of Title 5.

25 U.S.C.A. § 2715
§ 2715. Subpoena and deposition authority
(a) Attendance, testimony, production of papers, etc.
By a vote of not less than two members, the Commission shall have the power to require by subpoena the
attendance and testimony of witnesses and the production of all books, papers, and documents relating to any
matter under consideration or investigation. Witnesses so summoned shall be paid the same fees and
mileage that are paid witnesses in the courts of the
United States.
(b)

Geographical location

The attendance of witnesses and the production of
books, papers, and documents, may be required from
any place in the United States at any designated place
of hearing. The Commission may request the Secretary to request the Attorney General to bring an action
to enforce any subpoena under this section.

App. 222
(c)

Refusal of subpoena; court order; contempt

Any court of the United States within the jurisdiction
of which an inquiry is carried on may, in case of contumacy or refusal to obey a subpoena for any reason, issue an order requiring such person to appear before
the Commission (and produce books, papers, or documents as so ordered) and give evidence concerning the
matter in question and any failure to obey such order
of the court may be punished by such court as a contempt thereof.
(d)

Depositions; notice

A Commissioner may order testimony to be taken by
deposition in any proceeding or investigation pending
before the Commission at any stage of such proceeding
or investigation. Such depositions may be taken before
any person designated by the Commission and having
power to administer oaths. Reasonable notice must
ﬁrst be given to the Commission in writing by the
party or his attorney proposing to take such deposition,
and, in cases in which a Commissioner proposes to
take a deposition, reasonable notice must be given.
The notice shall state the name of the witness and the
time and place of the taking of his deposition. Any person may be compelled to appear and depose, and to produce books, papers, or documents, in the same manner
as witnesses may be compelled to appear and testify
and produce like documentary evidence before the
Commission, as hereinbefore provided.

App. 223
(e)

Oath or afﬁrmation required

Every person deposing as herein provided shall be cautioned and shall be required to swear (or afﬁrm, if he
so requests) to testify to the whole truth, and shall be
carefully examined. His testimony shall be reduced to
writing by the person taking the deposition, or under
his direction, and shall, after it has been reduced to
writing, be subscribed by the deponent. All depositions
shall be promptly ﬁled with the Commission.
(f )

Witness fees

Witnesses whose depositions are taken as authorized
in this section, and the persons taking the same, shall
severally be entitled to the same fees as are paid for
like services in the courts of the United States.

25 U.S.C.A. § 2716
§ 2716. Investigative powers
(a)

Conﬁdential information

Except as provided in subsection (b), the Commission
shall preserve any and all information received pursuant to this chapter as conﬁdential pursuant to the provisions of paragraphs (4) and (7) of section 552(b) of
Title 5.
(b)

Provision to law enforcement ofﬁcials

The Commission shall, when such information indicates a violation of Federal, State, or tribal statutes,

App. 224
ordinances, or resolutions, provide such information to
the appropriate law enforcement ofﬁcials.
(c)

Attorney General

The Attorney General shall investigate activities associated with gaming authorized by this chapter which
may be a violation of Federal law.

25 U.S.C.A. § 2717
§ 2717. Commission funding
Effective: May 12, 2006
(a)(1) The Commission shall establish a schedule of
fees to be paid to the Commission annually by each
gaming operation that conducts a class II or class III
gaming activity that is regulated by this chapter.
(2)(A) The rate of the fees imposed under the schedule established under paragraph (1) shall be—
(i) no more than 2.5 percent of the ﬁrst
$1,500,000, and
(ii) no more than 5 percent of amounts in excess
of the ﬁrst $1,500,000,
of the gross revenues from each activity regulated by
this chapter.
(B) The total amount of all fees imposed during any
ﬁscal year under the schedule established under paragraph (1) shall not exceed 0.080 percent of the gross

App. 225
gaming revenues of all gaming operations subject to
regulation under this chapter.
(3) The Commission, by a vote of not less than two of
its members, shall annually adopt the rate of the fees
authorized by this section which shall be payable to the
Commission on a quarterly basis.
(4) Failure to pay the fees imposed under the schedule established under paragraph (1) shall, subject to
the regulations of the Commission, be grounds for revocation of the approval of the Chairman of any license,
ordinance, or resolution required under this chapter
for the operation of gaming.
(5) To the extent that revenue derived from fees imposed under the schedule established under paragraph
(1) are not expended or committed at the close of any
ﬁscal year, such surplus funds shall be credited to each
gaming activity on a pro rata basis against such fees
imposed for the succeeding year.
(6) For purposes of this section, gross revenues shall
constitute the annual total amount of money wagered,
less any amounts paid out as prizes or paid for prizes
awarded and less allowance for amortization of capital
expenditures for structures.
(b)(1) The Commission, in coordination with the Secretary and in conjunction with the ﬁscal year of the
United States, shall adopt an annual budget for the expenses and operation of the Commission.
(2) The budget of the Commission may include a request for appropriations, as authorized by section 2718

App. 226
of this title, in an amount equal the amount of funds
derived from assessments authorized by subsection (a)
for the ﬁscal year preceding the ﬁscal year for which
the appropriation request is made.
(3) The request for appropriations pursuant to paragraph (2) shall be subject to the approval of the Secretary and shall be included as a part of the budget
request of the Department of the Interior.

25 U.S.C.A. § 2717a
§ 2717a. Availability of class II gaming activity
fees to carry out duties of Commission
In ﬁscal year 1990 and thereafter, fees collected pursuant to and as limited by section 2717 of this title shall
be available to carry out the duties of the Commission,
to remain available until expended.

25 U.S.C.A. § 2718
§ 2718. Authorization of appropriations
Effective: November 26, 1997
(a) Subject to section 2717 of this title, there are authorized to be appropriated, for ﬁscal year 1998, and
for each ﬁscal year thereafter, an amount equal to the
amount of funds derived from the assessments authorized by section 2717(a) of this title.

App. 227
(b) Notwithstanding section 2717 of this title, there
are authorized to be appropriated to fund the operation of the Commission, $2,000,000 for ﬁscal year 1998,
and $2,000,000 for each ﬁscal year thereafter. The
amounts authorized to be appropriated in the preceding sentence shall be in addition to the amounts authorized to be appropriated under subsection (a).

25 U.S.C.A. § 2719
§ 2719. Gaming on lands acquired after
October 17, 1988
(a) Prohibition on lands acquired in trust by
Secretary
Except as provided in subsection (b), gaming regulated
by this chapter shall not be conducted on lands acquired by the Secretary in trust for the beneﬁt of an
Indian tribe after October 17, 1988, unless—
(1) such lands are located within or contiguous
to the boundaries of the reservation of the Indian
tribe on October 17, 1988; or
(2) the Indian tribe has no reservation on October 17, 1988, and—
(A) such lands are located in Oklahoma
and—
(i) are within the boundaries of the Indian tribe’s former reservation, as deﬁned
by the Secretary, or

App. 228
(ii) are contiguous to other land held in
trust or restricted status by the United
States for the Indian tribe in Oklahoma;
or
(B) such lands are located in a State other
than Oklahoma and are within the Indian
tribe’s last recognized reservation within the
State or States within which such Indian tribe
is presently located.
(b)

Exceptions

(1)

Subsection (a) will not apply when—
(A) the Secretary, after consultation with the Indian tribe and appropriate State and local ofﬁcials,
including ofﬁcials of other nearby Indian tribes,
determines that a gaming establishment on newly
acquired lands would be in the best interest of the
Indian tribe and its members, and would not be
detrimental to the surrounding community, but
only if the Governor of the State in which the gaming activity is to be conducted concurs in the Secretary’s determination; or
(B)

lands are taken into trust as part of—
(i)

a settlement of a land claim,

(ii) the initial reservation of an Indian tribe
acknowledged by the Secretary under the
Federal acknowledgment process, or
(iii) the restoration of lands for an Indian
tribe that is restored to Federal recognition.

App. 229
(2)

Subsection (a) shall not apply to—
(A) any lands involved in the trust petition of the
St. Croix Chippewa Indians of Wisconsin that is
the subject of the action ﬁled in the United States
District Court for the District of Columbia entitled
St. Croix Chippewa Indians of Wisconsin v. United
States, Civ. No. 86-2278, or
(B) the interests of the Miccosukee Tribe of Indians of Florida in approximately 25 contiguous
acres of land, more or less, in Dade County, Florida, located within one mile of the intersection of
State Road Numbered 27 (also known as Krome
Avenue) and the Tamiami Trail.

(3) Upon request of the governing body of the Miccosukee Tribe of Indians of Florida, the Secretary shall,
notwithstanding any other provision of law, accept the
transfer by such Tribe to the Secretary of the interests
of such Tribe in the lands described in paragraph (2)(B)
and the Secretary shall declare that such interests are
held in trust by the Secretary for the beneﬁt of such
Tribe and that such interests are part of the reservation of such Tribe under sections 5108 and 5110 of this
title, subject to any encumbrances and rights that are
held at the time of such transfer by any person or entity other than such Tribe. The Secretary shall publish
in the Federal Register the legal description of any
lands that are declared held in trust by the Secretary
under this paragraph.

App. 230
(c)

Authority of Secretary not affected

Nothing in this section shall affect or diminish the authority and responsibility of the Secretary to take land
into trust.
(d)

Application of Title 26

(1) The provisions of Title 26 (including sections
1441, 3402(q), 6041, and 6050I, and chapter 35 of such
title) concerning the reporting and withholding of
taxes with respect to the winnings from gaming or wagering operations shall apply to Indian gaming operations conducted pursuant to this chapter, or under a
Tribal-State compact entered into under section
2710(d)(3) of this title that is in effect, in the same
manner as such provisions apply to State gaming and
wagering operations.
(2) The provisions of this subsection shall apply notwithstanding any other provision of law enacted before, on, or after October 17, 1988, unless such other
provision of law speciﬁcally cites this subsection.

25 U.S.C.A. § 2720
§ 2720. Dissemination of information
Consistent with the requirements of this chapter, sections 1301, 1302, 1303 and 1304 of Title 18 shall not
apply to any gaming conducted by an Indian tribe pursuant to this chapter.

App. 231
25 U.S.C.A. § 2721
§ 2721. Severability
In the event that any section or provision of this chapter, or amendment made by this chapter, is held invalid, it is the intent of Congress that the remaining
sections or provisions of this chapter, and amendments
made by this chapter, shall continue in full force and
effect.

